Table of Contents
Message from the Secretary of the Air Force ..........................................................................................................................ii

Message from the Assistant Secretary of the Air Force for Financial Management and Comptroller .................................iii 

Management Discussion and Analysis

        Air Force Heritage ......................................................................................................................................................... 1

        Air Force Core Values ................................................................................................................................................... 1

        Air Force Critical Capabilities ...................................................................................................................................... 2

        Air Force Goals ............................................................................................................................................................. 2

        Air Force in Action – FY 2008 ...................................................................................................................................... 3

                Reinvigorate the Air Force Nuclear Enterprise ................................................................................................. 3

                Partner With The Joint and Coalition Team to Win Today’s Fight .................................................................. 3

                Develop and Care for Airmen and Their Families .......................................................................................... 4

                Modernize Our Aging Air and Space Inventories ........................................................................................... 4

                Acquisition Excellence .................................................................................................................................... 4

        Air Force Structure ........................................................................................................................................................ 5

        Air Force Major Management Initiatives ...................................................................................................................... 9

                Energy and Environmental Focus ..................................................................................................................... 9

                Personnel Services Delivery........................................................................................................................... 11

                eLog21 ........................................................................................................................................................... 11

        Air Force Resources .................................................................................................................................................... 12

        Air Force Financial Management Evolution ............................................................................................................... 13

                CFO Compliance ............................................................................................................................................ 13

                Financial Services Transformation ................................................................................................................. 13

                Internal Controls ............................................................................................................................................ 13

                Continuous Improvement .............................................................................................................................. 14

Air Force General Fund
        Appropriations ............................................................................................................................................................. 15

        Current and Future Financial Systems - DEAMS ....................................................................................................... 16

Air Force Working Capital Fund
        Supply Management Activity Group .......................................................................................................................... 17

        Depot Management Activity Group ............................................................................................................................ 18

Financing the Fight .................................................................................................................................................................. 21

Financial Statements

        General Fund

                Principal Statements ...................................................................................................................................... 25

                Notes to the Principal Statements .................................................................................................................. 31
                Required Supplementary Stewardship Information ...................................................................................... 73

                Required Supplementary Information ........................................................................................................... 81

                Audit Opinion ................................................................................................................................................ 89
        Working Capital Fund

                Principal Statements ...................................................................................................................................... 99

                Notes to the Principal Statements ................................................................................................................ 105

                Required Supplementary Information ......................................................................................................... 129

                Audit Opinion .............................................................................................................................................. 131





                                                                                                                                                                                             i
ii

iii
““People  were
    eople we   hungry for food and
             e hungr
 freedom.
fr  edom. We wer           them both
              weree giving the
          were most grat
and they wer         grateful.”
                          ful ”

               -Col. Gail
               -Col       Halverson,
                      ail H           USAF
                             lver on, U    (ret),
                                        AF (re ),
                                 “Candy
              the Berlin Airlift “C ndy Bomber”
                                         omber”
Management Discussion and Analysis

Air Force Heritage
                                                                                    African-Americans who flew fighter escorts for U.S. bomb-
                                                                                    ers during World War II. Airmen such as General “Chap-
                                                                                    pie” James, General Benjamin Davis and many other heroes
                                                                                    facing racism and discrimination at home demonstrated
                                                                                    sheer undaunted courage serving their country in a time of
                                                                                    war. Tuskegee Airmen painted the tails of their aircraft red
                                                                                    to identify themselves thus becoming known as “Red Tails.”
                                                                                    Their skill and performance became legendary to both Axis
                                                                                    and Allied forces.

                                                                                    These are two examples of our rich history, and this legacy
                                                                                    of successful mission accomplishment continues today as
                                                                                    the USAF is engaged in its worldwide mission. That mis-
                                                                                    sion is: To fly, fight and win in Air, Space and Cyberspace.
                                                                                    We executed the Berlin Airlift mission, we led the way in
 Westt B
       Berliners
         erliliners w
                    watch
                     attchh as a U
                                 U.S.
                                   .S
                                    S. C
                                       C-54
                                         -54
                                          54 Sk
                                             Skymast
                                             Skymaster
                                                   ter ddelivers
                                                         elilivers ddesperately
                                                                     esperattelly   desegregating the military, we are carrying out our current
 needed supplies during the Berlin Airlift.                                         mission, and we are committed to the accomplishment of
                                                                                    future missions. We are always aware of our history and our
                                                                                    vision: Lasting Heritage… Limitless Horizons.

F
       or over 60 years, America has depended upon its
       Airmen to provide dominance in the air, space, and
       the emerging cyberspace domains. This continues                              The Air Force strategic framework consists of these
the execution of our charter. We draw on a proud heritage                           elements:
beginning with our founding as a separate service over                              Our Core Values are:
six decades ago. This year we celebrate another historic
                                                                                     Integrity First
milestone: the 60th anniversary of mission accomplishment
of our ﬁrst great challenge. In June 1948, the newly estab-                          Service Before Self
lished United States Air Force (USAF) started the ultimately                         Excellence in All That We Do
successful Berlin Airlift. This heroic effort by USAF Air-
men ended the attempted strangulation of the people in the
Western Sector of Berlin.
                                                                                                        A loadmaster and maintenance personnel conduct
This year we also celebrate the 60th anniversary of                                                     pre-ﬂight checks on a C-17 Globemaster III before
the desegregation of the military. This was                                                             taking off from Pegasus White Ice Runway, Antarctica.
in no small part made possible by the
Tuskegee Airmen, the
group of brave




                                                                                                                                                        1
                                                                               Our Critical Capabilities are:
    “It is my deep conviction that we have                                      Global Vigilance
    reached a turning point in the long                                         Global Reach
                                                                                Global Power
    history of our efforts to guarantee a
    freedom and equality to all our                                            Our Goals are:
    citizens…and when I say all Americans,                                      Foster Mutual Respect and Dignity
    I mean all Americans.”                                                      Sustain Air, Space and Cyberspace Capabilities
                                                                                Provide Persistent Situational Awareness
                                       - President Harry S. Truman
                                                                                Develop Joint and Battle-Ready Airmen
                                                                                Improve the Total Force Quality of Life
                                                                                Achieve Open, Transparent Business Practices
                                                                                 and a Clean Audit
                                                                                Foster Air Force Smart Operations for the 21st Century
                                                                                 (AFSO21)

                                                                               One of the key enablers of our operational success, whether
                                                                               on the approaches into Berlin in 1948 or in the skies over
                                                                               Iraq and Afghanistan today, remains our Air Force Financial
                                                                               Management professionals from all components of the Total
                                                                               Force. They demonstrate their devotion to duty, capabili-
                                                                               ties, and innovation on a daily basis. They are meeting
                                                                               their challenge of providing transforming efficiencies at all
                                                                               echelons.


     RAMITELLI, Italy -- Pilots of the 332nd Fighter Group, "Tuskegee
     Airmen," the elite, all-African American 332nd Fighter Group. From
     left to right, Lt. Dempsey W. Morgran, Lt. Carroll S. Woods, Lt. Robert
     H. Nelron, Jr., Capt. Andrew D. Turner, and Lt. Clarence P. Lester.




                                                         Highly requested as ﬁghter escorts among bomber pilots, the Tuskegee Airmen earned the
                                                         nickname “Red Tail Angels” among bomber crews. The airmen ﬂew several different aircraft
                                                         but are most identiﬁed with the P-51.




2
                                                                             Management Discussion and Analysis



Air Force in Action—FY 2008                                       Reinvigorate the Air Force Nuclear Enterprise
America’s Air Force has been conducting combat operations         The U.S. nuclear deterrent mission capability forms the ulti-
since Operations Desert Shield / Desert Storm. These op-          mate backdrop of our nation’s strategic defense—dissuading
erations continue today in Iraq and Afghanistan and in sup-       and deterring opponents while reassuring allies.
porting locations worldwide. The Air Force has remained
                                                                   The Air Force is responsible for two-thirds of America’s
committed to achieving our top priorities as a service:
                                                                    nuclear deterrent capability.
 Reinvigorate the Air Force Nuclear Enterprise
                                                                   We will bring what we are known for—precision and
 Partner with the Joint and Coalition Team to Win                  reliability—to this enterprise.
  Today’s Fight
                                                                   The Secretary of the Air Force created the Air Force
 Develop and Care for Airmen and Their Families
                                                                    Nuclear Task Force to develop a strategic Roadmap for
 Modernize our Aging Air and Space Inventories                     rebuilding our nuclear enterprise, and we will be
 Acquisition Excellence                                            aggressively taking action on its direction in FY 2009.




                                                                      An A
                                                                         A-10
                                                                           -10
                                                                            10 Th
                                                                               Thunderbolt
                                                                                  unde
                                                                                  un derb
                                                                                       rbol
                                                                                          oltt II aaircraft
                                                                                                    ircr
                                                                                                    ircraf
                                                                                                         aftt mo
                                                                                                              move
                                                                                                              moves
                                                                                                                 vess in
                                                                                                                      into
                                                                                                                        to pposition
                                                                                                                             osititio
                                                                                                                             os    ionn to rreceive
                                                                                                                                             ecei
                                                                                                                                             ec eive
                                                                                                                                                  ve ffuel
                                                                                                                                                       uell
                                                                                                                                                       ue
                                                                      from a KC-135 Stratotanker during a mission over Afghanistan. A-10s
                                                                      are highly accurate weapons-delivery platforms.


                                                                  Partner with the Joint and Coalition Team
                                                                  to Win Today’s Fight
                                                                  The Air Force is committed to winning the Global War on
                                                                  Terror. Our Airmen operate on a global scale every day.
                                                                  Today’s Air Force provides a range of capabilities for suc-
                                                                  cess in a variety of environments. Engagement in Opera-
A Minuteman III intercontinental ballistic missile successfully
                                                                  tions IRAQI FREEDOM and ENDURING FREEDOM is
launches from North Vandenberg AFB. The missile was configured
with a National Nuclear Security Administration (NNSA) test       but the tip of the iceberg, as Airmen deploy to other parts of
assembly in which three unarmed re-entry vehicles traveled        the world in supporting operations as well. The Air Force
approximately 4,190 miles to their pre-determined targets.        also provides the aerial defense of our homeland by flight in
                                                                  support of Operation NOBLE EAGLE.




                                                                                                                                                          3
                                                                                                       Thhe F-
                                                                                                       The  F-35
                                                                                                               35 JJoint Strike Fighter (JS
                                                                                                                                        (JSF) “Lightning II”
                                                                                                       is a stealthy,
                                                                                                            stealth supersonic 5th Gen  Generation, multi-
                                                                                                       role ﬁghter
                                                                                                            ﬁ hter designed, in speciﬁc variants, to
                                                                                                       replace aging aircraft across th  the joint forces.


    Develop and Care
                Care for Airmen                                         Modernize Our Aging Air and Space
    and thei
        their Families                                                  Inventories
    We must prepare our Airmen for a future fraught with chal-          We must modernize our capabilities in air, space and
    lenges, and foster their ability to learn, anticipate, and adapt.   cyberspace as we meet the challenges of the 21st Century.
    Our Airmen are our most precious resource, and taking care          Recapitalizing our air superiority, strike, space, Intelligence,
    of them and their families will help maintain our competi-          Surveillance and Reconnaissance (ISR), mobility and other
                                                                        systems will ensure we have the right equipment to deter
                                                                        or defeat future threats to our Nation. To that end our top
                                                                        acquisition priorities are:
                                                                         The KC-X Tanker
                                                                         The CSAR-X Helicopter
                                                                         Modern space systems vital to our joint warfighters
                                                                         The F-35A Joint Strike Fighter
                                                                         A new bomber fielded by 2018

                                                                        Acquisition Excellence
                                                                        We are committed to establishing and enforcing standards
                                                                        for transparency in acquisition and other business processes
                                                                        that are commensurate with “best-in-class” public and
                                                                        private sector organizations. Transparency is essential to
                                                                        good governance, and good governance is vital to ensur-
     HOLLOMAN AIR FORCE BASE, N.M. - Maj. Brian Collins, greets his 
   ing our Air Force can produce and field the systems with
     family after returning from Kunsan Air Base, South Korea.

                                                                        which we will fly and fight. We will continue to perfect
                                                                        the acquisition processes and procedures that promote good
    tive advantage. We are obligated to improve the quality of          governance through transparency and adherence to regula-
    their lives, and those of Air Force families, so our Airmen         tory guidance.
    can focus on continuing their extraordinary service to our
    nation. In part because of our care and concern for them
    through six decades of Air Force history, our Airmen have             “Amid challenges, however, we have at 

    proven themselves in times of crisis—taking action, any-              least two constants: The high quality of 

    time, anywhere in defense of freedom.
                                                                          Airmen attracted to military service; and 

                                                                          their commitment to the core values of 

                                                                          Integrity First, Service Before Self, and 

                                                                          Excellence in All We Do.”

                                                                                        -Secretary of the Air Force Michael Donley




4
                                                                              Management Discussion and Analysis



Air Force Structure
The command line of the Air Force ﬂows from the Presi-
dent and the National Command Authority to the Secretary
of Defense and the Department of the Air Force. The Air                                              Secretary of the Air Force

Force is headed by the Secretary of the Air Force (SECAF),
with the Chief of Staff reporting to the Secretary. Imme-
diately subordinate to the departmental headquarters are                                           Undersecretary
                                                                                                   Un
                                                                                                   U ndersecretary
                                                                                                     ndersecretary of the Air Force

the Major Air Commands (MAJCOMs), Field Operating
Agencies (FOAs), Direct Reporting Units (DRUs), and the               Assistant Secretary of the
                                                                                                                                      Secretariat Functions
Auxiliary.                                                                    Air Force




Major Air Commands                                                                                     Air Force Chief of Staff

MAJCOMs are primarily of two types: operational and
support. Within the operational commands, the divisions
                                                                                                     Air Force Vice Chief of Staff
are generally deﬁned according to purpose or location
(e.g., combat, movement of people and supplies, or Paciﬁc
and European theaters). The support commands generally
                                                               Air Force Major Commands                    Staff Functions                         Air Staff
are organized according to function (e.g., logistic, sup-
port, or training) and are directly subordinate to Air Force
Headquarters. A list of the MAJCOMs and their missions
follows:

                    Air Combat Command (ACC)
                    A
                    Missions:
                    M           Operate USAF bombers
                    (active,
                    (        Air National Guard, and Air
                    Force
                    F      Reserve Command); and USAF’s
                    CONUS-based
                    C               ﬁghter and attack,
                    reconnaissance,
                    r                battle management,
                    and
                    a command and control aircraft, and
intelligence and surveillance systems. Provide combat
airpower to America’s warﬁghting commands (CENTCOM,
EUCOM, NORTHCOM, PACOM, and SOUTHCOM);
nuclear, conventional, and information operations forces to
United States Strategic Command (STRATCOM); and air
defense forces to North American Aerospace Defense Com-
mand (NORAD).

Command Personnel: 151,000
Primary Aircraft Inventory includes: Bombers; Fighters;
Intelligence, ISR, and Trainers




                                                                      An FF-15E
                                                                           -115E S
                                                                                 Strike
                                                                                   trik
                                                                                   tr ikee Ea
                                                                                           Eagle
                                                                                              gle fr
                                                                                                  from
                                                                                                     om tthe
                                                                                                          he 3391st
                                                                                                               91st EExpeditionary
                                                                                                                      xped
                                                                                                                      xp edititio
                                                                                                                               iona
                                                                                                                                 nary
                                                                                                                                   ry FFighter
                                                                                                                                        ight
                                                                                                                                        ig hter
                                                                                                                                             er S
                                                                                                                                                Squadron
                                                                                                                                                  quad
                                                                                                                                                  qu adro
                                                                                                                                                       ronn
                                                                      pops flares during an aerial training dog fight.




                                                                                                                                                               5
                        A Education and Training
                        Air
                        Command (AETC)
                         Missions: Recruit, train, and educate
                         professional, expeditionary-minded
                         Airmen to sustain the combat capability
                         of America’s Air Force. Conduct joint,
                         readiness, and Air Force security as-
    sistance training. Provide basic military training, initial and
    advanced technical training, ﬂying training and professional
    military and degree-granting professional education.

    Command Personnel: 83,000
    Primary Aircraft Inventory includes: Trainers, Fighters,
    Transports, Helicopters, and Tankers

                         A Force Materiel Command
                         Air                                          A T-38
                                                                          38A
                                                                            A Talo
                                                                              Talon
                                                                                lon pilot watch
                                                                                          watches
                                                                                             tches ffrom th
                                                                                                         the cockpit
                                                                                                               ckpit as anoth
                                                                                                                        another
                                                                                                                           ther T-38
                                                                                                                                T 38 flies
                                                                                                                                     flie in
                         (
                         (AFMC)                                       formation during a local training mission.
                         M
                         Missions:    Deliver war-winning expe-
                         dditionary capabilities to the warﬁghter
                          tthrough development and transition of
                           ttechnology, professional acquisition
                            management, and world-class sustain-
                            m
    ment of all Air Force weapons systems. Provide exacting
    test and evaluation of all weapons and supporting systems.

    Command Personnel: 78,000
    Primary Aircraft Inventory includes: Bombers, Fighters,
    Transports, Tankers, Helicopters and Trainers

                         A Force Space Command
                         Air
                         (AFSPC)
                        Missions: Operate and test USAF
                        intercontinental ballistic missile (ICBM)
                        forces for STRATCOM; missile warn-
                        ing radars, sensors, and satellites;
                        national space-launch facilities and
    operational boosters; worldwide space surveillance radars
    and optical systems; worldwide space environment systems;
    and position, navigation, and timing systems.

    Command Personnel: 27,000
    Primary Inventory includes: Missile Warning Systems,
    ICBMs, Satellite Systems, and Space Surveillance Systems




                                                                        The Atlas V rocket with
                                                                                             ith the Wideband Global SATCOM satellite rolls
                                                                        out in preparation for launch.




6
                                                                                         Management Discussion and Analysis



                                                                                                     Paciﬁc Air Forces (PACAF)
                                                                                                     P
                                                                                                     Missions: Provide ready air and space
                                                                                                     p
                                                                                                     power   to promote U.S. interests in the
                                                                                                     A
                                                                                                     Asia-Paciﬁc   region during peacetime,
                                                                                                     crisis, and war.

                                                                                                   Command Personnel: 43,000
                                                                               Primary Aircraft Inventory includes: Fighters, Transports,
                                                                               and Tankers

                                                                                                     U.S. Air Forces in Europe
                                                                                                     (USAFE)
                                                                                                   Missions: Deliver airpower options to
                                                                                                   combatant commanders within the U.S.
                                                                                                   European Command Area of Responsi-
 An A
    Air
      ir FForce
           orce
           or ce M
                 MH-53M
                   H-53
                     53M
                       M Pa
                         Pave
                           ve LLow
                                ow ffrom
                                     rom
                                     ro m Ai
                                          Airr Fo
                                               Forc
                                               Force
                                                 rcee Sp
                                                      Spec
                                                      Special
                                                         ecia
                                                           iall Op
                                                                Oper
                                                                Operations
                                                                  erat
                                                                     atio
                                                                       ions
                                                                          ns                       b
                                                                                                   bility. Plan, control, support and con-
 performs "dust-out" training in Djibouti, Africa.                                                 duct joint, coalition NATO and warf-
                                                                               ighting headquarters operations in Europe, Asia and Africa
                           A Force Special Operations
                           Air                                                 based on taskings from the U.S. EUCOM Commander.
                           Command (AFSOC)
                     MMissions: Serve as America’s special-                    Command Personnel: 32,000
                      ized air power, providing combat search                  Primary Aircraft Inventory includes: Fighters, Transports,
                      and rescue and delivering special opera-                 and Tankers
                     ttions power anytime, anywhere.
                     A
                     AFSOC is the Air Force component
of U.S. Special Operations Command, a uniﬁed com-
mand. The command’s core missions include battleﬁeld air
operations; agile combat support; aviation foreign internal
defense; information operations; precision aerospace ﬁres;
psychological operations; specialized air mobility; special-
ized refueling; and intelligence, surveillance and reconnais-
sance.

Command Personnel: 13,000
Primary Aircraft Inventory includes: Special Operations
Aircraft, Helicopters and Tankers

                          Air Mobility Command (AMC)
                          A
                          M
                          Missions:     Provide rapid global mobil-
                          iity and sustainment through tactical and
                           sstrategic airlift and aerial refueling for
                            U.S. armed forces. Provide special duty
                            U
                            aand operational support aircraft and
                             gglobal humanitarian support.

Command Personnel: 136,000
Primary Aircraft Inventory includes: Transports,
Helicopters, and Tankers                                                          Four miles above Iraq, a KC-135 Stratotanker connects with an F-16
                                                                                  Fighting Falcon to offload more than 20,000 lbs. of fuel before
                                                                                  resuming its close air support mission.




                                                                                                                                                       7
                         A Force Reserve Command
                         Air                                                                           A
                                                                                                       Auxiliary
                         (
                         (AFRC)                                                                        An Air Force auxiliary is an organization
                         M
                         Missions:   Support the active duty                                           created by statute that the Secretary of
                         force. Serve in such missions as ﬁghter,
                         f
                                                                            the Air Force may use to fulﬁll the Air
                         bomber,
                         b
        airlift, aerial port operations, 
                                  Force’s non-combat programs and mis-
                         aeromedical
                         a
             evacuation, aerial ﬁre ﬁght-                                   sions. The Civil Air Patrol (CAP) is the
                         ing,
                         i weather reconnaissance, space op-                                           only current U.S. Air Force auxiliary.
    erations, airborne air control, ﬂying training, ﬂight testing,
    and aerial spraying. Provide support and disaster relief in
    the United States and support national counterdrug efforts.

    Command Personnel: 75,000
    Primary Aircraft Inventory includes: Fighters, Transports,
    and Tankers

                         A National Guard (ANG)
                         Air
                         Missions: Provide combat capability
                         to the warﬁghter and security for the
                         homeland. Protect life and property and
                         preserve peace, order, and public safety.

                       Command Personnel: 106,000
    Primary Aircraft Inventory includes: Fighters, Transports,
    and Tankers

    Field Operating Agency (FOA)
    FOAs are subdivisions of the Air Force that carry out ﬁeld                 Joh
                                                                               Jo
                                                                               JJohn
                                                                                 ohn
                                                                                  hhnn S
                                                                                       Salvado
                                                                                       Salva
                                                                                         allvado
                                                                                              ddor,r, C
                                                                                                      Civil
                                                                                                        ivilil Air
                                                                                                               A
                                                                                                               Aiir Pat
                                                                                                                    P
                                                                                                                    Patro
                                                                                                                      attro 'ss director
                                                                                                                                dire
                                                                                                                                direct
                                                                                                                                     ctor
                                                                                                                                      tor ooff operatio
                                                                                                                                               operat
                                                                                                                                               op
                                                                                                                                               operati
                                                                                                                                               operations,
                                                                                                                                                 erations
                                                                                                                                                    tio
                                                                                                                                                      ions
                                                                                                                                                        ns,, dde
                                                                                                                                                        ns    describes
                                                                                                                                                              desc
                                                                                                                                                                 scri
                                                                                                                                                                 scribes
                                                                                                                                                                   rib
                                                                                                                                                                    ibe
                                                                                                                                                                     bess the
                                                                                                                                                                          th
    activities under the operational control of Headquarters                    image capabilities of        o thee Airborne Real  Rea Time me Cueing Hyperspectral
    U.S. Air Force functional managers. FOAs have the same                      Enhanced Reconnaissance system at the CAP National Operations
                                                                                Center at Maxwell Air Force Base, Ala. The system is used to
    administrative and organizational responsibilities as MA-                   conduct aerial surveys for rescue missions.
    JCOMs. Examples of FOAs include the Air Force Audit
    Agency, Air Force Center for Environmental Excellence, Air
    Force Financial Services Center, Air Force Services Agency,
    and Air Force Weather Agency, among others.

    Direct Reporting Unit (DRU)
    DRUs are subdivisions of the Air Force that are directly
    subordinate to Headquarters Air Force, separate from any
    MAJCOM or FOA because of a unique mission, legal
    requirements or other factors. DRUs have the same
    administrative and organizational responsibilities as
    MAJCOMs. The DRUs are the Air Force
    Academy, Air Force District of Washington,
    and Air Force Operational Test
    and Evaluation Center.



                                                        The Virginia Air National Guard’s 192nd Fighter Wing was the ﬁrst Air National Guard
                                                        unit in the country to ﬂy the F-22 Raptor.




8
                                                                                         Management Discussion and Analysis



Air Force Major Management Initiatives
The Air Force is justiﬁably proud of how it plans to master
current challenges as well as anticipate future requirements
in an ever-changing world. The initiatives brieﬂy described
below outline some of the Air Force responses to these chal-
lenges and how they will shape the future.

Air Force Sustainable Operations: an Energy
and Environmental Focus
In accordance with the Air Force heritage, our role as a cata-
lyst for innovation places us in a unique position to provide
leadership. In response to rising energy costs, energy se-
curity considerations, and international concerns regarding
greenhouse gas emissions, we are implementing an energy
strategy that consists of: reducing our overall demand for
energy, increasing the supply of secure energy, and chang-
ing the Air Force culture to ensure that we accomplish these
energy objectives while maintaining mission readiness.

Our energy and environmental initiatives ﬁt into a larger
construct of sustainable operations. Viewing the contribu-
tion of those initiatives through this construct provides a
                                                                                  Staf
                                                                                  St aff
                                                                                      ff Sgt.
                                                                                  Staff  Sgt. JJoe
                                                                                         Sgt    oe Walli
                                                                                                    allliliss and
                                                                                                   Wallis     and Johnny
                                                                                                                  Johnny
                                                                                                                  Joh
                                                                                                                    hnny S   nid
                                                                                                                             niide
                                                                                                                                derh
                                                                                                                                   rhan
                                                                                                                                    han rreveal
                                                                                                                            Sniderhan     evea
                                                                                                                                          eveall th
                                                                                                                                                 the
                                                                                                                                                  he
new way to see the effectiveness of our efforts. Air Force                        Fischer-Tropsch
                                                                                  Fi   h T         h synthetich i ffuell bl
                                                                                                                         blendd certification
                                                                                                                                     ifi i llogo painted
                                                                                                                                                     i d on the
                                                                                                                                                             h
Operational Sustainability is recognizing the direct and                          side of a B-52H Stratofortress at the certification ceremony at
indirect impacts of Air Force operations on resources                             Edwards Air Force Base.
and achieving better understanding of the full measure of
resources needed in the present and the future to ensure the
successful conduct of Air Force operations. This sustain-                     In FY 2008, the Air Force spent approximately $7 billion to
ability also includes taking action by planning, design-                      fuel our aircraft ﬂeet and ground vehicles and provide utility
ing, and executing mission requirements in a manner that                      services (primarily electricity and natural gas) to our bases.
provides for the long-term sustainability of operations in the                Much of the petroleum used to produce our aviation fuels
face of constrained resources.                                                originates from outside the United States, and it is in our in-
                                                                              terest to seek ways to reduce our dependence on foreign oil.
                                                                              Accordingly, we continue to research, test, and certify new
                                                                              technologies to displace our dependence on foreign oil with
                                                                              an alternative domestic fuel source. The Air Force is testing
                                                                              and certifying our entire inventory of aircraft for operations
                                                                              with a 50/50 synthetic Fischer-Tropsch fuel blend, and will
                                                                              complete this certiﬁcation by early 2011. To date, we have
                                                                              certiﬁed the B-52, C-17 and B-1B ﬂeets to ﬂy using 50/50
                                                                              synthetic fuel blend, and we expect to complete certiﬁcation
                                                                              of the F-15, F-22 and KC-135 in FY 2009. It is our goal
                                                                              that by 2016, the Air Force will be prepared to cost competi-
                                                                              tively acquire 50% of the Air Force’s domestic aviation fuel
                                                                              requirement via a synthetic fuel blend in which the synthetic
                                                                              component is derived from domestic sources produced in
                                                                              a manner that is greener than fuels produced from conven-
 Member
 Members
 Memb  erss of tthe
                 he 223rd
                      3rdd Eq
                      3r   Equi
                           Equipment
                              uipm
                                pmen
                                  entt Ma
                                       Main
                                       Maintenance
                                          inte
                                            tena
                                               nanc
                                                 ncee Sq
                                                      Squa
                                                      Squadron
                                                        uadr
                                                           dron
                                                             on A
                                                                Aerospace
                                                                  eros
                                                                  er ospa
                                                                       pace   tional petroleum. We are also evaluating other, bio-based
 Ground Equipment shop at Moody Air Force Base, Ga. use an electric           alternative jet fuels, where fuel is produced using biomass
 vehicle for their daily duties instead of a fuel powered vehicle.            or non-food plant products.




                                                                                                                                                                  9
 The Air Force is also focused on aggressively implementing       is on fully implementing an Environmental Management
 a strategy to generate or utilize renewable energy on bases      System (EMS) approach at Air Force installations. The
 with more solar, wind, and geothermal energy. We have            EMS approach allows us to identify aspects of Air Force
 been acknowledged as the largest purchaser of green power        operations where there is a potential environmental impact;
 in the federal government over the past number of years,         prioritize those impacted or impacting operations for review,
 and third overall in the nation last year. Nellis AFB, Ne-       attention or investment; and seek continuous improvement
 vada, is an example of an installation with the resources and    opportunities that improve operational efﬁciency or effec-
 the need for a new energy direction. Nellis AFB engineers        tiveness while reducing environmental impacts. Our efforts
 partnered with private industry and the local utility provider   to improve support for the mission through environmental
 to be home to America’s largest photovoltaic solar array,        excellence have garnered many accolades, including:
 which produces over 14 megawatts of clean, renewable
 energy. The system, which covers only underutilized land,        The Secretary of Defense recognized four Air Force
 reduces base utility costs by approximately $1 million per        bases through the 2008 Secretary of Defense Environmen-
 year and conserves funds to meet mission objectives.              tal Awards. The Air Force recipients included: Hill AFB,
                                                                   Utah, for its Environmental Quality Program based on
 Over the past two decades, the Air Force has strengthened         individual and team achievements; Robins AFB, Geor-
 its operational activities and programs to address an increas-    gia, for its Pollution Prevention Program as an Industrial
 ing universe of environmental laws, regulatory standards,         Installation; Seymour Johnson AFB, North Carolina, for
 and Executive Order mandates. Physical resource limita-           its Environmental Restoration Program as an installation;
 tions, increasing local competition for those resources, regu-    and Fairchild AFB, Washington, for its Environmental
 latory restrictions, and other encroachment pressures are         Excellence in Weapon System Acquisition.
 challenging the ability to meet current and emerging mission
 requirements. Through all this, the Air Force’s programmat-      The Air Force received ﬁve 2008 White House Closing
 ic approach—structured around the four environmental “pil-        the Circle Awards or honorable mentions, which recog-
 lars” of compliance, restoration, conservation, and pollution     nize the Federal workforce’s commitment to meeting the
 prevention—provided an impressive record of responsive-           President’s directive to be good stewards of our nation’s
 ness to regulation in a manner that has been aligned with the     natural resources. The Air Force award recipients in-
 military mission, and strategic mission goals and objectives      clude: Robins AFB, Georgia, which received an award in
 of the Air Force. Our most recent environmental focus             the Environmental Management Systems category and an

                                                                                 The largest photovoltaic solar power plant in the United States
                                                                                 is becoming a reality at Nellis Air Force Base.




10
                                                                            Management Discussion and Analysis


  honorable mention in the Green Purchasing category; and
  Vandenberg AFB, California for Waste Pollution Preven-
  tion. Robins AFB, Charleston AFB, South Carolina, and
  Fairchild AFB, Washington, received Honorable Men-
  tions in the Green Purchasing, Environmental Manage-
  ment Systems, and the Alternative Fuel and Fuel Conser-
  vation in Transportation categories, respectively.

The Air Force Aeronautical Systems Center and Air Force
 Research Laboratory were awarded the 2007 Best of the
 Best: Stratospheric Ozone Protection Award by the U.S.
 Environmental Protection Agency (EPA) for Leadership
 in Aviation Halon Replacement and leadership in
 international stratospheric ozone protection.                     Tonya
                                                                     nya Ha
                                                                         H
                                                                         Harris,
                                                                            arr
                                                                             rriis
                                                                                is, off tthe
                                                                                is,       he A
                                                                                          he Air
                                                                                               ir FForce
                                                                                               ir   orce
                                                                                                    or ce P
                                                                                                          Personnel
                                                                                                            erso
                                                                                                            er sonn
                                                                                                               sonnell C
                                                                                                                       Cente
                                                                                                                         ente
                                                                                                                         enter,r, bbriefs
                                                                                                                           te       riief
                                                                                                                                       efs
                                                                                                                                        fs vi
                                                                                                                                           visitors
                                                                                                                                            isi
                                                                                                                                              sito
                                                                                                                                               ito
                                                                                                                                                tors
                                                                                                                                                   rs ffrom
                                                                                                                                                        rom
                                                                                                                                                        ro m
                                                                   the U
                                                                       U.S.
                                                                         S Department of State's Bureau of Human Resources on the
                                                                   various Web-based technologies employed at AFPC's 24-hour Air
Air Force members and the Joint Strike Fighter Emissions          Force Contact Center.
 Test team won the EPA 2007 Climate Protection Award
 for leadership in addressing air emissions from the Joint     personnel/pay system currently in development. It will
 Strike Fighter.                                               incrementally replace many of the capabilities of current Air
                                                               Force Military Personnel Services systems.

Personnel Services Delivery (PSD)                              The idea behind this transformation is to provide a conve-
Another key initiative for the Air Force is PSD transforma-    nient and secure way for Airmen to use any telephone or
tion which will help lead to a leaner, more efﬁcient force     Internet-ready computer to conduct routine transactions
and provide more timely service delivery. The four major       and avoid waiting in lines, save time, and ﬁt their person-
accomplishments of PSD will be:                                nel business into their own schedule. PSD will result in
Redesign of Personnel Services Processes—eliminates           accurate information available on a 24/7 basis. It also gives
   unnecessary steps and approvals to speed up work and        Airmen more direct control over career-affecting matters.
   reduce workload                                             PSD has a multi-phased ﬁelding with a goal of 85% of
Enhancement of Contact Center and Self Service                personnel transactions to be done through the Internet and
   Capabilities—expands online and contact center options      10% to be accomplished over the phone. This will reverse
   to make personnel inquiries and self-service transactions   the pre-PSD operation which had 85% of transactions being
   available worldwide, 24/7                                   done face-to-face. PSD maximizes use of technology while
Recasting of Field Organizations and Career Field—shifts      saving personnel spaces and providing timely and accurate
   personnelists’ focus from routine transactions to even      service to our Airmen worldwide.
   more valuable key advisory services for commanders
   and leaders                                                 Expeditionary Logistics for the 21st Century
Modernization of Architecture and Technology—puts the         (eLog21)
   right system in place to support and integrate Web-based    eLog21 is the Air Force’s commitment to transform current
   applications and enhanced call center capabilities          logistics processes and deliver more efﬁcient and effec-
                                                               tive support to the warﬁghter. This ongoing transformation
PSD provides a new personnel service delivery model which      uses a holistic approach focused on changing processes
leverages the beneﬁts of Web-based and call center-based       ﬁrst, followed by organizational changes, all of which will
services for many routine personnel actions previously done    be enabled by modern, integrated information technology
by a manpower-intensive, face-to-face network. PSD will        systems. Some of the components of this initiative include
be a supportable personnel system that will accomplish the     Asset Marking and Tracking which improves visibility
Air Force-speciﬁc processes which will not be performed by     throughout the supply chain, and logistics data transforma-
the emerging Defense Integrated Military Human Resource        tion which will improve data quality and reliability. The
System (DIMHRS). DIMHRS is the DoD-wide integrated             Air Force Working Capital Fund section has a description of
                                                               other major components of eLog21.




                                                                                                                                                               11

 Air Force Resources                                                  ever in sustaining worldwide operations. These
 The three vital resources to successful accomplishment of            warriors make possible the successful accomplish-
 the Air Force mission are:                                           ment of Air Force missions.
  Places: A network of bases that reflect the Air Force’s
    global competencies. The Air Force is a global force,       Systems: Modern weapons platforms that integrate air,
    spanning facilities both in the United States and around     space and cyber assets into an undefeatable force.
    the world, as shown in map below.                              - Air Force “systems” no longer mean only “manned
                                                                     aircraft.” Systems also include space launch
  People: Trained, motivated, and dedicated.                        vehicles; satellites; intelligence, surveillance and
     - The Air Force consists of over 493,000 military               reconnaissance assets; unmanned aerial systems and
       and civilian personnel. Aerospace power is a proven           the cohesive infrastructure to all Air Force systems.
       necessity for victory on land, sea, air, space, and           All Air Force systems are essential assets for Air
       cyberspace. The foundation for this is our people.            Force people to accomplish the mission.

      - The reserve component (Air Force Reserve and Air            - Manned systems, however, are still vital: T	 he
        National Guard) has become more important than                average age of the active duty ﬂeet is over 23 years
                                                                      with some over 45 years; the average age of the




12
                                                                         Management Discussion and Analysis


       Air National Guard ﬂeet is almost 26 years; and the     direct customers to self-service resources on the Air Force
       average age of the Air Force Reserve ﬂeet is over       Portal or the Contact Center as the preferred option to initi-
       28 years. All of these are actively involved in the     ate inquiries and transactions.
       Global War on Terror and we owe it to both America
       and our Airmen to modernize these systems.              From the Comptroller Squadron through to the AFFSC, FM
                                                               Personnel will have access to uniform processes, consis-
Air Force Financial Management Evolution                       tent roles, and a coordinated suite of resources. Customers
Air Force Financial Management (FM) is also based on           receive the same answer whether they seek service online,
people, processes, and systems. The examples that follow       at the AFFSC, or at their local Financial Service Ofﬁce.
illustrate some of the ways the Air Force FM community is      Across the FSDM, process efﬁciencies are gained through
proactively meeting future challenges and improving            centralization, beneﬁting the customer through quicker,
compliance and efﬁciency.                                      more accurate, and more consistent pay transactions.

CFO Compliance                                                          The ﬁrst phase of Web Self-Service (WSS) is
In 1990 the Chief Financial Ofﬁcers Act                                     targeted for initial operating capability in early
was passed, ordering Federal agencies                                          FY 2009 and additional functionality and
to centralize their ﬁnancial systems to                                           new customer resources will continue to
better account for their spending. In                                               emerge. WSS, found on the Air Force
1996, Congress passed the Federal                                                    Portal, will provide FAQs, a search-
Financial Management Improve-                                                         able index of questions, and other
ment Act (FFMIA), enabling the                                                        tools designed to resolve pay and
advancement of Federal ﬁnancial                                                       travel questions. Looking ahead, the
management by requiring that                                                          AFFSC is designed for full integra-
Federal ﬁnancial management                                                           tion with Air Force Personnel Center
systems provide accurate, reliable,                                                   and Air Reserve Personnel Center
and timely ﬁnancial management                                                       on the same technology platform al-
information to the government’s                                                     lowing full customer visibility between
managers.                                                                         centers and a range of service options
                                                                                through a single point of entry.
Financial Services Transformation
The Financial Services Transformation establishes                        The FSDM of the future includes the integra-
an innovative new way to deliver ﬁnancial services to cus-     tion of several enabling technologies to reduce functional
tomers through an integrated end-to-end Financial Services     overlaps and speed up time to deliver Integrated Operations.
Delivery Model (FSDM), providing superior customer ser-        The enabling technologies are designed to provide access
vice consistently across all geographies and theaters. The     to all customer service assets from a single point of entry,
FSDM encompasses all areas of the FM organization from         enabling increased continuity of service through all channels
the base through the MAJCOMs to the Air Force Financial        of delivery.
Services Center (AFFSC) at Ellsworth AFB, South Dakota,
and all enabling technologies and processes that support       Internal Controls
how customers receive ﬁnancial services. This effort began     Air Force Financial Management Transformation, however,
with the consolidation of back-ofﬁce military pay and travel   must be based on management integrity. To this end, we
processing for 93 Active and Reserve bases into the AFFSC      have put in place robust internal controls. The objectives of
in September 2007. A 24/7 Contact Center is scheduled to       the system of internal accounting and administrative control
open at the AFFSC in FY 2009. The future FSDM cohe-            of the Department of the Air Force are to provide reasonable
sively looks at all the elements that impact customers of      assurance that:
FM ﬁnancial delivery and looks to optimize the operations       Obligations and costs comply with applicable law
including organization, process, people, and technology.        Funds, property, and other assets are safeguarded against
                                                                   waste, loss, unauthorized use, and misappropriation
With the standup of the AFFSC, the FM Community is able         Revenues and expenditures applicable to Air Force
to dramatically reduce face-to-face customer interaction and       operations are properly recorded and accounted for to




                                                                                                                                13

   permit the preparation of accounts and reliable financial        lane ﬂowcharts, and analyzed existing internal controls
   and statistical reports, and to maintain accountability          for the required focus areas. Based on this year’s review
   over the assets, including nonappropriated fund                  effort, we identiﬁed three new material weaknesses, along
   activities                                                       with nine existing material weaknesses that were briefed to
  Programs and administrative and operating functions are          the Air Force Senior Assessment Team and approved to be
   efficiently and effectively carried out in accordance with       included in the Secretary’s Annual Statement of Assurance.
   applicable law and management policy
  The internal control process emphasized prevention of            Continuous Improvement—AFSO21
   waste, fraud, and mismanagement along with timely                During this time of reduced manpower and resources, Air
   correction of internal control weaknesses                        Force Financial Management has taken action, by mak-
                                                                    ing Continuous Process Improvement (CPI) a priority. In
                                                                    2008, SAF/FM completed several process improvement
 Internal Control Program Accomplishments
                                                                    projects, on multiple cross-functional FM processes. Some
 and Highlights                                                     of these included Centrally Billed Accounts, Travel Voucher
 The Federal Managers’ Financial Integrity Act (FMFIA)              Processing, Station Gain, Unexecuted Budget Author-
 implementation in the Air Force rests on a solid general           ity, and Voucher Balancing. The process improvements,
 control environment supported by positive endorsement              along with other project action items such as changes to
 from top management. FY 2008 was a year of strong inter-           policy and enhanced training, saved the Air Force time and
 nal control activity as our ﬁnancial managers continued to         money. The Air Force Financial Management staff col-
 integrate their job oversight responsibilities with the internal   laborated with various cross functional stakeholders, such
 control program’s evaluation procedures. Using pervasive           as the Defense Finance and Accounting Service (DFAS),
 technologies, MAJCOMs increased distribution of internal           United States Transportation Command (USTRANSCOM),
 control information on their available Web sites.                  Air Force Acquisition (SAF/AQ), Air Force Installations
                                                                    and Mission Support (AF/A7), and the Air Force Reserve
 During FY 2008, we continued to implement new program              Command (AFRC). The focus on end-to-end processes and
 requirements directed in DoD Instruction 5010.40, Manag-           cross-functional collaboration proved essential to ensure
 ers’ Internal Control Program Procedures, in response to           the process improvements were thorough and had a positive
 revised guidance in OMB Circular A-123, Management’s               impact on the entire value stream.
 Responsibility for Internal Control. The revised guidance
 included additional requirements to speciﬁcally address            In addition to leveraging AFSO21 tools and methods to
 establishing and assessing internal controls over ﬁnancial         conduct CPI and Lean events, SAF/FM is embedding con-
 statement reporting. It also required the establishment of a       tinuous process improvement into its daily operations. We
 senior assessment team to provide direction and oversight          have developed Awareness Training to ensure that AFSO21
 for the assessments.                                               and CPI are introduced at the Air Staff, MAJCOM, and
                                                                    ﬁeld levels. We take the opportunity to conduct AFSO21
 The Ofﬁce of the Under Secretary of Defense/Comptroller            workshops at leadership conferences such as the FMA/
 (OUSD/C) directed that our review encompass speciﬁc key            ALO World Wide Conference. FM leadership is commit-
 focus areas material to DoD and the effectiveness of key           ted to CPI concepts becoming intricate in the development
 business process internal controls, which signiﬁcantly affect      of new business models. Organizations such as SAF/FMPI
 ﬁnancial reports. During this year, we documented the re-          and FMB-BTO will continue to work to make continuous
 quired processes, performed risk analysis, developed swim-         process improvement a way of life for Air Force Financial
                                                                    Management.




14
                                                                                    Management Discussion and Analysis



          Air Force General Fund

          T
                 he General Fund is the fund into which all receipts of    as ﬂying hours, depot maintenance, training, spare parts,
                 the United States Government are deposited, except        and base operations. The FY 2008 appropriation supported
                 those from speciﬁc sources required by law to be de-      84 installations, produced over 1,200 pilots and funded
          posited into other designated funds and from which appro-        approximately 1.4 million ﬂying hours while sustaining an
          priations are made by Congress to carry on the general and       aircraft ﬂeet of over 5,500 aircraft.
          ordinary operations of the Government. The Notes to the
          Principal Statements provide more detail on the appropria-       PROCUREMENT
          tions. The major appropriations in the Air Force General         This appropriation provides for purchase of aircraft, mis-
          Fund and their uses are:                                         siles, vehicles, electronic and telecommunications equip-
                                                                           ment, satellite and launch equipment, base maintenance and
          MILITARY PERSONNEL (MILPERS)                                     support equipment, and investment-type spares. The FY
          This appropriation provides funding for the care and feeding     2008 program supported the purchase of up to 177 aircraft
          of our Airmen. It includes all direct military compensation      including 20 F-22 Raptors.
          for active duty, reserve, guard, and retired personnel includ-
          ing regular pay, allowances, and bonuses. Additionally, this     RESEARCH, DEVELOPMENT, TEST AND
          appropriation funds all Permanent Change of Station (PCS)        EVALUATION
          moves and supports a total force (active, reserve and guard)     Provides funding for the research and development of next
          end strength of 502,800.                                         generation weapons and platforms and for the testing and
                                                                           evaluation of current prototypes and upgrades. The Air
          OPERATIONS AND MAINTENANCE (O&M)                                 Force’s top acquisition priorities are the Tanker replace-
          This appropriation funds key readiness programs critical to      ment; the Combat Search and Rescue Helicopter; new space
          prepare forces for combat operations and other peacetime         systems for early warning, targeting, communications, and
          missions. These include day-to-day operating costs such          navigation; the F-35A Joint Strike Fighter; and the New
                                                                           Bomber.




As one of the Air Force’s top acquisition priorities
ofﬁcials are looking at proposals for a new strategic
refueling aircraft, referred to as the KC-X, to replace
the aging KC-135 Stratotanker.




                                                                                                                                        15
                                                                                            (USTRANSCOM) and the DFAS under what is now the
                                                                                            Defense Department’s Business Transformation Agency.
                                                                                            The DEAMS mission is to support the Nation’s warﬁghters
                                                                                            with timely, accurate, and reliable ﬁnancial information, en-
                                                                                            abling more efﬁcient and effective decision making by DoD
                                                                                            managers. DEAMS is reengineering ﬁnancial management
                                                                                            activities with a uniﬁed enterprise architecture, standardized
                                                                                            business rules and processes, and the ﬁrst implementation of
                                                                                            the new Standard Financial Information Structure.

                                                                                            The Air Force is implementing DEAMS through a two-
                                                                                            increment development approach in ﬁve spirals. Spiral 1 is
                                                                                            a commitment accounting technology demonstration that in-
                                                                                            cludes USTRANSCOM; Headquarters, Air Mobility Com-
     A junior
       jjuni
        ju
        junior-enlisted
         uniior
             or-e
               -enlisted
                enlisted
                  nllist
                     istedd mul
                            multlti
                            multiplex
                              ltipipple
                                     lex under
                                     lex undde
                                         un der construction
                                            der cons
                                                co nsttructi
                                                      tructitiion aatt Dove
                                                                       Do r Air
                                                                       Dover
                                                                       D     Ai Force
                                                                                FFoorce     mand; and Air Force active duty, Air National Guard and Air
     Base. At project completion in 2009
     Base                                    2009, the 212 homes constructed in
       in   Force Reserve tenant organizations on or associated with
     2004 - 2005 will be joined by 768 new homes.

                                                                                            Scott AFB, Illinois. With our partners at USTRANSCOM
                                                                                            and DFAS, we took a major step forward in 2008 with that
 MILITARY CONSTRUCTION (MILCON)                                                             successful deployment.
 Includes any construction, development, conversion, or
 extension of any kind carried out with respect to a military
 installation. Typically this appropriation applies to any
 projects that exceed $1.5 million but can be applicable
 to projects exceeding a $750 thousand threshold. A sub-
 element of this appropriation provides funding for family
 housing construction programs. The FY 2008 appropriation
 supported 86 Major and 4 Minor MILCON projects.

 BASE REALIGNMENT AND CLOSURE
 (BRAC)
 The law authorizes the BRAC accounts to fund one-time,
 nonrecurring costs that are a direct result of BRAC-directed
 base closure or realignment actions. Some costs do not
 qualify for BRAC funding as costs resulting from closure
 or realignment. The FY 2008 BRAC program was approxi-
 mately $1.1 billion.                                                                           Secretary
                                                                                                Secr
                                                                                                Se
                                                                                                S ecretary
                                                                                                   cretar
                                                                                                   cret
                                                                                                     etary
                                                                                                      taryy off tthe
                                                                                                                  hhee A
                                                                                                                       Air
                                                                                                                         ir FForce
                                                                                                                              orce
                                                                                                                              or ce Michael
                                                                                                                                    M
                                                                                                                                    Mich
                                                                                                                                      iichael
                                                                                                                                        cha
                                                                                                                                         hael
                                                                                                                                           ell D
                                                                                                                                               Donley
                                                                                                                                                 onle
                                                                                                                                                 onl
                                                                                                                                                 on leyy addr
                                                                                                                                                    ley  addresses
                                                                                                                                                         ad
                                                                                                                                                         add
                                                                                                                                                          ddr
                                                                                                                                                            dres
                                                                                                                                                              esse
                                                                                                                                                              essess an Airmen
                                                                                                                                                                se      A
                                                                                                                                                                        Airmen’s
                                                                                                                                                                        Airmen’
                                                                                                                                                                         irmen’s
                                                                                                                                                                           me s
                                                                                                call audience during his visit to the 379th Air Expeditionary Wing        Wing. The
                                                                                                secretary described his vision ahead for the Air Force, the challenges
 Current and Future Financial Systems—                                                          faced and the plan to move the Air Force into the future.
 DEAMS
 Our systems enable us to maintain stewardship over the                                     Spiral 2 will deploy in late 2009, taking the full Oracle I-
 resources entrusted to us. The Defense Enterprise Ac-                                      Procurement functionality to those same units. Increment 2
 counting and Management System (DEAMS) is key to                                           will expand that capability to the remaining AMC bases and
 our current and future ability to manage the Air Force’s                                   Army and Navy components of USTRANSCOM in Spiral
 resources. DEAMS was launched in August 2003 as a joint                                    3. DEAMS will then be ﬁelded to remaining MAJCOMs in
 initiative of the Air Force, U.S. Transportation Command                                   two additional spirals over a period of three years. When
                                                                                            fully ﬁelded throughout the Air Force, DEAMS will trans-
                                                                                            form ﬁnancial management and set a new standard
                                                                                            for effective and efﬁcient stewardship of our Nation’s
                                                                                            Defense resources.




16
                                                                           Management Discussion and Analysis



Air Force Working Capital Fund

T
         he Air Force Working Capital Fund (AFWCF)
         supports Air Force warﬁghters and operations via
         three major business areas that function as revolving
funds, i.e., suppliers charge users for the goods and services
provided. Air Force Materiel Command (AFMC) manages
more than 90% of AFWCF revenue and expense activity
for Supply Management and Depot Maintenance activities.
These functions provide goods and services to the Air Force
and DoD customers, as well as customers outside the DoD
(e.g., local and foreign governments). Supply Manage-
ment provides expedited repair, replenishment, and inven-
tory control for spare parts and associated logistics support
services to fulﬁll Air Force needs during war and peacetime.
Depot Maintenance provides economical and responsive
repair, overhaul, and modiﬁcation of aircraft, missiles, en-
gines, other major end items, and associated components.

In FY 1998 the Air Force was appointed the Executive              Ai
Agent for Transportation Working Capital Fund (TWCF)              supplies aatt Sp
                                                                  supplies      Spangdahlem
                                                                                  angdahlem Ai
                                                                                            Airr Ba
                                                                                                 Base,
                                                                                                    se Ge
                                                                                                       Germany.
                                                                                                          rmany
cash. Even though AFWCF manages TWCF’s cash, daily
operations are managed by the United States Transportation
Command. As a result, TWCF’s ﬁnancial statements are             The SMAG consists of wholesale and retail operations. The
reported with other Defense Agencies. The AFWCF allows           Material Support Division (MSD) is the SMAG wholesale
the Air Force to accomplish the following:                       operation which is responsible for Air Force managed repa-
 Ensure readiness through reduced support costs,                rable and consumable spare parts. The SMAG retail opera-
   stabilized rates, and responsive customer service             tion is comprised of the General Support, Medical-Dental,
                                                                 and Air Force Academy Divisions. Although each division
 Flexibility to respond to customer support needs in            operates independently, all purchase large quantities of
  real-world situations                                          commodities that allows the Air Force to take advantage
 Focus management attention on net operating results,           of economies of scale and achieve significant cost savings.
  including cost and performance                                 The General Support Division (GSD) supports installation
 Identify the total cost of providing support products and      maintenance and administrative functions, field and depot
  services                                                       maintenance of aircraft and other systems. The Medical-
                                                                 Dental Division provides supplies and equipment required
 Establish strong customer/provider relationships               to support a robust health care system for Air Force active
                                                                 military, retirees and family members. This division man-
Supply Management Activity Group                                 ages the Air Force war reserve materiel (WRM) requirement
                                                                 of medical supplies and equipment which is vital to support
The Supply Management Activity Group (SMAG) provides
                                                                 forces in combat and contingency operations. The Air Force
policy, guidance, and resources to meet Air Force needs for
                                                                 Academy Division finances the purchase of uniforms and
spare parts. The SMAG manages approximately 1.6 million
                                                                 uniform accessories for sale to over 4,000 cadets.
items including weapon systems spare parts, medical-dental
supplies and equipment, and items used for non-weapon
systems applications. The activity not only provides man-        AFMC manages MSD and GSD. The Air Force Medical
agement of various inventories but also a wide range of lo-      Operations Agency manages the Medical-Dental Division,
gistics support services, to include requirements forecasting,   and the Air Force Academy’s Mission Support Group man-
item introduction, cataloging, provisioning, procurement,        ages the Air Force Academy Division. The activities sup-
repair, technical support, data management, item disposal,       port more than 80 Air Force installations located throughout
distribution management, and transportation.                     the world.
     A KC-135R
       KC 135R Stratotanker sits inside the Oklahoma Air Logistics Center,
                                                                   Center Okla.,
                                                                           Okla waiting for a full maintenance overhaul.
                                                                                                               overhaul The Oklahoma Air Logistics
     Center is the worldwide manager for a wide range of aircraft, engines, software, avionics and accessories components.


 SMAG Customer Support Performance                                            Depot Maintenance Activity Group
 Metrics                                                                      The Depot Maintenance Activity Group (DMAG) repairs
 Mission Incapable (MICAP) and Customer Wait Time                             systems and spare parts that ensure readiness in peacetime
 (CWT) metrics allow managers to assess quality of spares                     and provide sustainment to combat forces in wartime. In
 support provided and plan corrective action when needed.                     peacetime, the Air Force enhances readiness by efficiently
 MICAP measures the number of hours a weapon system is                        and economically repairing, overhauling, and modifying
 not available due to non-availability of a spare part pro-                   aircraft, engines, missiles, components, and software to
 vided by MSD or GSD. CWT measures the average time                           meet customer demands. The depots have unique skills and
 elapsed between the customer demand and the delivery of                      equipment required to support and overhaul both new, com-
 a spare part to the customer, measured in days. MICAP                        plex components as well as aging weapon systems.
 hours for MSD managed items have improved significantly                      A critical facet of the depots is that during wartime or
 since 1999. MSD items accrued an average of five million                     contingencies, the Air Force can surge repair operations
 MICAP hours during calendar year 2000. As of September                       and realign capacity to support the warfighter’s immediate
 2008, MSD MICAP hours are 1.3 million. CWT is a newer                        needs. DMAG is managed by AFMC and employs over
 metric but has also shown a significant improvement. The                     21,000 personnel supporting four industrial locations.
 monthly average CWT for MSD items during 2004 was 7.4                        DMAG sites include:
 days and has decreased to 5.8 days as of September 2008.                     Ogden Air Logistics Center (OO-ALC), Ogden, Utah
                                                                              Oklahoma City Air Logistics Center (OC-ALC), Okla-
                                                                              homa City, Oklahoma
                                                                              Warner Robins Air Logistics Center (WR-ALC), Warner
                                                                              Robins, Georgia
                                                                              Aerospace Maintenance and Regeneration Group
                                                                              (AMARG), Tucson, Arizona




18
                                                                           Management Discussion and Analysis



DMAG Customer Support Performance                                public. Expenses are the resources used during an account-
Metrics                                                          ing period. Expenses occur from rendering services; acquir-
Due Date Performance and Quality Defect Rate metrics             ing, producing, or delivering goods; or carrying out other
allow managers to assess production schedule and work            mission-related activities.
quality. The Due Date Performance (ability of the depot
to produce aircraft on the promised date) is 92% as of           DoD cash management policy requires maintaining the
September 2008. The Quality Defect Rate (measures the            minimum cash balance necessary to meet both operational
number of production defects) is .23 defects per aircraft as     requirements and disbursements in support of the capital
of September 2008.                                               investment program. Cash generated from operations is the
                                                                 primary means of maintaining adequate cash levels. Effec-
                                                                 tive cash management is directly dependent on the availabil-
Air Force Working Capital Customers                              ity of accurate and timely data on cash levels and operation-
AFWCF provides support to a variety of customers: Air            al results. Cash levels should be maintained to cover 7 to 10
Force Major Commands (including the Air National Guard           days of operational costs as well as cash adequate to meet 6
and Air Force Reserve Command), the Army, the Navy, oth-         months of capital disbursements.
er WCFs, other government agencies, and foreign countries.

                                                                 Transformation Initiatives - eLog21
                                                                 As introduced earlier, the eLog21 initiative is designed to
  “The enduring responsibility of the                            bring logistics operations into the 21st century by modern-
  United States Air Force is to provide                          izing processes and systems. As processes continue to im-
                                                                 prove, customers will receive the benefit of repaired weapon
  strategic deterrence for the Nation and                        systems and spare parts at the right place, right time, and
                                                                 lowest cost. Two major initiatives included under the um-
  fly, fight and win as an integral part of                      brella of e-Log21 are the Repair Network Transformation
  the Joint team.”                                               (RNT) and Global Logistics Support Center (GLSC).

                                    - Gen. Norton Schwartz
                                                                 The RNT establishes an enterprise-wide repair capability
                                                                 managed within a single supply chain. The GLSC is estab-
                                                                 lishing an Air Force supply chain management capability
Air Force Working Capital Financial                              that provides enterprise planning, global command and
Performance Measures                                             control, and a single focal point in support of logistics
AFWCF tracks several metrics to assess financial perfor-         requirements.
mance. These measures are designed to achieve account-
ability at the appropriate level and also measure compliance
with AFWCF budget objectives.                                    Contract DMAG Closure
                                                                 In FY 2003, the transition of contract depot maintenance out
                                                                 of the AFWCF began and completes at the end of FY 2008
AFWCF assesses financial performance using the Net
                                                                 when the activity stops accepting new orders. This change
Operating Result (NOR) of an activity. The NOR is the
                                                                 brings the user and provider of contract depot maintenance
difference between revenue and expenses, i.e., a bottom-line
                                                                 services closer together and removes the AFWCF from its
profit and loss indicator. The NOR objective of an activ-
                                                                 current role as the “middleman.” This action will allow the
ity group is to break even over a two-year period. Actual
                                                                 depot managers to dedicate their time and efforts to organic
NORs are compared to the budget targets. Budget targets
                                                                 production.
are identified in financial performance plans and are used
to measure results during execution reviews. Prices are
established to achieve this objective by recovering or return-   Flying Hour Revenue Recognition
ing prior year losses or gains. Revenues are amounts earned      In FY 2006, customers requested MSD and GSD simplify
as a result of normal operations and usually result from sale    the billing process for reparable and consumable spare parts
of, or reimbursements for, goods and services provided to        required to perform their flying hour mission. Analysis
DoD activities, other federal government agencies, and the




                                                                                                                                19

                                                                           tire enterprise, regardless of program or site. ECSS Process
                                                                           Area Blueprinting (Oct. 2007 - Jun. 2008) has defined how
                                                                           functions and capabilities of commercial software prod-
                                                                           ucts and systems will support organizational and business
                                                                           needs. ECSS takes advantage of commercial best practices
                                                                           in driving end-to-end process designs and full integration of
                                                                           logistics activities.

                                                                           Global War on Terrorism (GWOT) Support
                                                                           The AFWCF is integral to the readiness and sustainability of
                                                                           Air Force weapon systems and the ability to deploy forces
                                                                           around the globe and across any theater in support of Global
                                                                           War on Terror operations and National Military Strategy
                                                                           requirements. Maintenance depots provide the equipment,
                                                                           skills, and repair services necessary to keep forces operat-
     Maintenance on an F-16
                        F 16 Fighting Falcon at Balad Air Base,
                                                          Base Iraq.
                                                                Iraq The   ing worldwide. Supply management activities procure and
     F-16 goes through an overhaul every 300 hours.                        manage inventories of consumable and reparable spare parts
                                                                           required to keep all elements of the force structure mission
 conducted by AFWCF analysts and flying hour customers
                                                                           ready.
 determined a business model that would incorporate the
 customers’ main objective to buy flying hour time, not spare
 parts. The cost of a flying hour represents the average cost
 of reparable and consumable parts required to fly an aircraft
 for one hour. Beginning 1st Quarter, FY 2008 AFWCF
 implemented the billing process change from recognizing
 revenue and receivables from the sale of a spare part to
 recognizing them on a flying hour basis.

 Billing Elimination
 In FY 2007 AFWCF began an initiative to eliminate billing
 transactions between MSD and DMAG. These activities still
 track assets and costs appropriately, but as of 1st Quarter FY
 2008 MSD no longer bills DMAG for materiel purchases
 and DMAG no longer bills MSD for repair services. This
 initiative streamlined business processes and eliminated
 non-value added financial transactions.                                       An FF-15E
                                                                                    -15E
                                                                                     15E Strike Eagle crew chief assigned to the 492nd Expeditionary
                                                                               Aircraft Maintenance Unit salutes the pilot prior to his flight from
                                                                               Bagram Airfield, Afghanistan.
 Expeditionary Combat Support System (ECSS)
 Blueprinting                                                              Directly or indirectly, AFWCF activities provide warfight-
 ECSS enables the transformation of Air Force Logistics by                 ers the key services needed to meet mission capability
 replacing the majority of legacy logistics systems with a                 standards. For example, in 2008 GSD is procuring Indi-
 single solution set of business processes, software applica-              vidual Body Armor (IBA) and related equipment to protect
 tions, and data. ECSS will provide timely, consistent, and                warfighters. Additionally, the Medical-Dental Division’s
 accurate information to enhance operations. The result will               War Reserve Material (WRM) program provides supplies
 be standardized business processes and tools across the en-               and equipment vital to support forces in combat for the first
                                                                           60 days of a contingency operation, and provides basic force
                                                                           health protection to all deploying Air Force active, reserve,
                                                                           and guard personnel.




20
Financing the Fight

W
           e are a country at war with an enemy that is
           elusive and unconventional. The Air Force has
           been, and must expect to be, in combat for years
to support this effort in innovative ways. This requires
creative thinking and action, not just from operational
forces but from all the forces that support them. We are also
rightly expected to be good stewards of our nation’s—indeed
our people’s—resources.

Air Force professional Financial Management personnel are
making that happen. They know they are part of a larger
Air Force but play a key role. They have streamlined pay
information to make it easier for Airmen to access, they are
efﬁciently overseeing our ﬁnancial transactions, and they
have dedicated themselves to support our warﬁghting forces.

This applies across the board – deployed military and
civilian – in supporting the national security goals of our
country. They are indeed, “Financing the Fight.”




                                                                21
Fiscal Year 2008
Annual Financial Statements




                              23
     Limitations to the Financial Statements




     Limitations to the Financial Statements
     The principal ﬁnancial statements have been prepared to report the ﬁnancial position and re-
     sults of operations of the entity, pursuant to the requirements of Title 31, United States Code,
     Section 3515 (b). While the statements have been prepared from the books and records of
     the entity, in accordance with Generally Accepted Accounting Principles for Federal enti-
     ties and the formats prescribed by Ofﬁce of Management and Budget, the statements are in
     addition to the ﬁnancial reports used to monitor and control budgetary resources which are
     prepared from the same books and records. The statements should be read with the realiza-
     tion that they are for a component of the U.S. Government, a sovereign entity.




24
General Fund
Principal Statements
Fiscal Year 2008
The FY 2008 Department of the Air Force General Fund Principal Statements and related
notes are presented in the format prescribed by the Department of Defense Financial Man-
agement Regulation 7000.14-R, Volume 6B. The statements and related notes summarize
ﬁnancial information for individual activity groups and activities within the General Fund
for the ﬁscal year ending September 30, 2008, and are presented on a comparative basis with
information previously reported for the ﬁscal year ending September 30, 2007.

The following statements comprise the Department of the Air Force General Fund Principal
Statements:

Consolidated Balance Sheet
The Consolidated Balance Sheet presents as of September 30, 2008 and 2007 those resources
owned or managed by the Air Force which are available to provide future economic beneﬁts
(assets); amounts owed by the Air Force that will require payments from those resources or
future resources (liabilities); and residual amounts retained by the Air Force, comprising the
difference (net position).

Consolidated Statement of Net Cost
The Consolidated Statement of Net Cost presents the net cost of the Air Force’s operations
for the years ended September 30, 2008 and 2007. The Air Force’s net cost of operations
includes the gross costs incurred by the Air Force less any exchange revenue earned from Air
Force activities.

Consolidated Statement of Changes in Net Position
The Consolidated Statement of Changes in Net Position presents the change in the Air Force’s
net position resulting from the net cost of Air Force’s operations, budgetary ﬁnancing sources
other than exchange revenues, and other ﬁnancing sources for the years ended September 30,
2008 and 2007.

Combined Statement of Budgetary Resources
The Combined Statement of Budgetary Resources presents the budgetary resources available
to the Air Force during FY 2008 and 2007, the status of these resources at September 30, 2008
and 2007, and the outlay of budgetary resources for the years ended September 30, 2008 and
2007.

The Principal Statements and related notes have been prepared to report ﬁnancial position
pursuant to the requirements of the Chief Financial Ofﬁcers Act of 1990, the Government
Management Reform Act of 1994, and the Ofﬁce of Management and Budget’s Circular
A-136, “Financial Reporting Requirements.”


                                                                                                 25
                General Fund
                Principal Statements




Consolidated Balance Sheet - General Fund
As of September 30, 2008 and 2007 ($ in thousands)


                                                                                         2008                           2007
                                                                                      Consolidated                   Consolidated


1. ASSETS (NOTE 2)
  A. Intragovernmental:
     1. Fund Balance with Treasury (Note 3)                                 $                  92,909,909        $           80,126,396
     2. Investments (Note 4)                                                                          874                            823
     3. Accounts Receivable (Note 5)                                                              271,020                      388,823
     4. Other Assets (Note 6)                                                                     265,591                      423,952
     5. Total Intragovernmental Assets                                      $                  93,447,394        $           80,939,994
  B. Cash and Other Monetary Assets (Note 7)                                                      111,976                      107,908
  C. Accounts Receivable, Net (Note 5)                                                            502,182                      545,796
  D. Loans Receivable (Note 8)                                                                           0                             0
  E. Inventory and Related Property, Net (Note 9)                                              46,906,666                    46,335,059
  F. General Property, Plant and Equipment, Net (Note 10)                                     148,770,371                   143,257,880
  G. Investments (Note 4)                                                                                0                             0
  H. Other Assets (Note 6)                                                                     11,030,527                    10,448,818
2. TOTAL ASSETS                                                             $                 300,769,116        $          281,635,455
3. STEWARDSHIP PROPERTY, PLANT & EQUIPMENT (Note 10)
4. LIABILITIES (Note 11)
  A. Intragovernmental:
     1. Accounts Payable (Note 12)                                          $                   2,002,120        $            1,509,631
     2. Debt (Note 13)                                                                                   0                             0
     3. Other Liabilities (Note 15 & 16)                                                        1,952,785                     2,033,326
     4. Total Intragovernmental Liabilities                                 $                   3,954,905        $            3,542,957
  B. Accounts Payable (Note 12)                                                                 3,810,935                     3,189,763
  C. Military Retirement and Other Federal                                                      1,163,414                     1,137,016
     Employment Beneﬁts (Note 17)
  D. Environmental and Disposal Liabilities (Note 14)                                           8,266,375                     6,898,867
  E. Loan Guarantee Liability (Note 8)                                                                   0                             0
  F. Other Liabilities (Note 15 & Note 16)                                                      6,379,597                     6,081,496
5. TOTAL LIABILITIES                                                        $                  23,575,226        $           20,850,099
6. COMMITMENTS AND CONTINGENCIES (NOTE 16)
7. NET POSITION
  A. Unexpended Appropriations - Earmarked Funds (Note 23)                  $                            0       $                     0
  B. Unexpended Appropriations - Other Funds                                                   92,171,366                    80,465,487
  C. Cumulative Results of Operations - Earmarked Funds                                              5,355                          4,548
  D. Cumulative Results of Operations - Other Funds                                           185,017,169                   180,315,321
8. TOTAL NET POSITION                                                       $                 277,193,890        $          260,785,356
9. TOTAL LIABILITIES AND NET POSITION                                       $                 300,769,116        $          281,635,455




26                                   The accompanying notes are an integral part of these ﬁnancial statements.
                                                                                                               General Fund
                                                                                                               Principal Statements




Consolidated Statement of Net Cost - General Fund
As of September 30, 2008 and 2007 ($ in thousands)


                                                                                   2008                              2007
                                                                                Consolidated                      Consolidated


1. Program Costs (Note 18)
  A. Gross Costs                                                      $                 148,089,758        $             142,462,370
  B. (Less: Earned Revenue)                                                               -5,875,708                       -5,715,540
  C. Net Program Costs                                                $                 142,214,050        $             136,746,830
2. Cost Not Assigned to Programs                                                                   0                                  0
3. (Less: Earned Revenue Not Attributable to Programs)                                             0                                  0
4. Net Cost of Operations                                             $                 142,214,050        $             136,746,830




                               The accompanying notes are an integral part of these ﬁnancial statements.                          27
                 General Fund
                 Principal Statements




Consolidated Statement of Changes in Net Position - General Fund
As of September 30, 2008 and 2007 ($ in thousands)


                                                                              2008                           2008                    2008
                                                                         Earmarked Funds               All Other Funds           Eliminations

CUMULATIVE RESULTS OF OPERATIONS
1. Beginning Balances                                                   $              4,546       $        180,315,323      $                  0
2. Prior Period Adjustments:
  A. Changes in accounting principles (+/-)                                                0                             0                      0
  B. Corrections of errors (+/-)                                                           0                             0                      0
3. Beginning balances, as adjusted                                      $              4,546       $        180,315,323      $                  0
4. Budgetary Financing Sources:
  A. Other adjustments (rescissions, etc.)                                                 0                             0                      0
  B. Appropriations used                                                                   0                144,550,203                         0
  C. Nonexchange revenue                                                               1,088                             0                      0
  D. Donations and forfeitures of cash and cash equivalents                            2,544                             0                      0
  E. Transfers-in/out without reimbursement (+/-)                                          0                      88,000                        0
  F. Other budgetary ﬁnancing sources                                                      0                        -157                        0
5. Other Financing Sources:
  A. Donations and forfeitures of property                                                 0                             0                      0
  B. Transfers-in/out without reimbursement (+/-)                                          0                     322,962                        0
  C. Imputed ﬁnancing from costs absorbed by others                                        0                     628,882                        0
  D. Other (+/-)                                                                           0                  1,323,183                         0
6. Total Financing Sources                                              $              3,632       $        146,913,073      $                  0
7. Net Cost of Operations (+/-)                                                        2,823                142,211,227                         0
8. Net Change                                                           $                809       $          4,701,846      $                  0
9. Cumulative Results of Operations                                     $              5,355       $        185,017,169      $                  0
UNEXPENDED APPROPRIATIONS
10. Beginning Balances                                                  $                  0       $         80,465,487      $                  0
11. Prior Period Adjustments:
     A. Changes in accounting principles                                                   0                             0                      0
     B. Corrections of errors                                                              0                             0                      0
12. Beginning balances, as adjusted                                     $                  0       $         80,465,487      $                  0
13. Budgetary Financing Sources:
     A. Appropriations received                                                            0                156,788,176                         0
     B. Appropriations transferred-in/out                                                  0                  2,662,362                         0
     C. Other adjustments (rescissions, etc)                                               0                 -3,194,456                         0
     D. Appropriations used                                                                0               -144,550,203                         0
14. Total Budgetary Financing Sources                                                      0                 11,705,879                         0
15. Unexpended Appropriations                                                              0                 92,171,366                         0
16. Net Position                                                        $              5,355       $        277,188,535      $                  0




28                                   The accompanying notes are an integral part of these ﬁnancial statements.
                                                                                                           General Fund
                                                                                                           Principal Statements




       2008                 2007                               2007                       2007                       2007
    Consolidated       Earmarked Funds                   All Other Funds              Eliminations                Consolidated




$       180,319,869    $             4,540           $        180,854,184         $                    0      $       180,858,724


                   0                     0                                 0                           0                          0
                   0                     0                                 0                           0                          0
$       180,319,869    $             4,540           $        180,854,184         $                    0      $       180,858,724


                   0                     0                                 0                           0                          0
        144,550,203                      0                    136,203,035                              0              136,203,035
              1,088                    928                                 5                           0                     933
              2,544                  1,843                                 0                           0                    1,843
            88,000                       0                        282,000                              0                  282,000
               -157                      0                                 0                           0                          0


                   0                     0                                 0                           0                          0
           322,962                       0                        261,389                              0                  261,389
           628,882                       0                        724,671                              0                  724,671
          1,323,183                      0                     -1,265,895                              0               -1,265,895
$       146,916,705    $             2,771           $        136,205,205         $                    0      $       136,207,976
        142,214,050                  2,765                    136,744,066                              0              136,746,831
$         4,702,655    $                 6           $           -538,861         $                    0      $          -538,855
$       185,022,524    $             4,546           $        180,315,323         $                    0      $       180,319,869


$        80,465,487    $                 0           $         70,186,334         $                    0      $        70,186,334


                   0                     0                                 0                           0                          0
                   0                     0                                 0                           0                          0
$        80,465,487    $                 0           $         70,186,334         $                    0      $        70,186,334


        156,788,176                      0                    147,671,923                              0              147,671,923
          2,662,362                      0                        579,271                              0                  579,271
         -3,194,456                      0                     -1,769,006                              0               -1,769,006
       -144,550,203                      0                   -136,203,035                              0             -136,203,035
         11,705,879                      0                     10,279,153                              0               10,279,153
         92,171,366                      0                     80,465,487                              0               80,465,487
$       277,193,890    $             4,546           $        260,780,810         $                    0      $       260,785,356




                           The accompanying notes are an integral part of these ﬁnancial statements.                             29
                    General Fund
                    Principal Statements




Combined Statement of Budgetary Resources - General Fund

As of September 30, 2008 and 2007 ($ in thousands)
                                                                                                  2008                          2007
                                                                                                Combined                      Combined
BUDGETARY FINANCING ACCOUNTS
BUDGETARY RESOURCES:
1. Unobligated balance, brought forward, October 1                                  $                       21,175,345    $               17,112,927
2. Recoveries of prior year unpaid obligations                                                               4,602,017                     3,921,941
3. Budget authority
   A. Appropriation                                                                                        156,791,805                   147,674,697
   B. Borrowing authority                                                                                            0                             0
   C. Contract authority                                                                                             0                             0
   D. Spending authority from offsetting collections
      1. Earned
         a. Collected                                                                                       10,464,416                    10,237,677
         b. Change in receivables from Federal sources                                                        -354,080                      -517,749
      2. Change in unﬁlled customer orders
         a. Advance received                                                                                  -199,948                       376,618
         b. Without advance from Federal sources                                                                38,934                       250,810
      3. Anticipated for rest of year, without advances                                                              0                             0
      4. Previously unavailable                                                                                      0                             0
      5. Expenditure transfers from trust funds                                                                      0                             0
   E. Subtotal                                                                      $                      166,741,127    $              158,022,053
4. Nonexpenditure transfers, net, anticipated and actual                                                     2,750,362                       861,271
5. Temporarily not available pursuant to Public Law                                                                  0                             0
6. Permanently not available                                                                                -3,194,456                    -1,769,006
7. Total Budgetary Resources                                                        $                      192,074,395    $              178,149,186
STATUS OF BUDGETARY RESOURCES:
8. Obligations incurred:
   A. Direct                                                                        $                      155,042,972    $              146,524,833
   B. Reimbursable                                                                                          10,354,532                    10,449,009
   C. Subtotal                                                                      $                      165,397,504    $              156,973,842
9. Unobligated balance:
   A. Apportioned                                                                                           24,139,914                    18,573,839
   B. Exempt from apportionment                                                                                  3,820                         3,271
   C. Subtotal                                                                      $                       24,143,734    $               18,577,110
10. Unobligated balance not available                                                                        2,533,157                     2,598,234
11. Total status of budgetary resources                                             $                      192,074,395    $              178,149,186
CHANGE IN OBLIGATED BALANCE:
12. Obligated balance, net
    A. Unpaid obligations, brought forward, October 1                               $                       60,933,360    $               53,989,101
    B. Less: Uncollected customer payments from Federal sources, brought forward,                           -2,366,785                    -2,633,723
       October 1
   C. Total unpaid obligated balance                                                $                       58,566,575    $               51,355,378
13. Obligations incurred net (+/-)                                                  $                      165,397,504    $              156,973,842
14. Less: Gross outlays                                                                                    -153,915,590              -146,107,640
15. Obligated balance transferred, net
   A. Actual transfers, unpaid obligations (+/-)                                                                     0                            0
   B. Actual transfers, uncollected customer payments from Federal sources (+/-)                                     0                            0
   C. Total Unpaid obligated balance transferred, net                               $                                0    $                       0
16. Less: Recoveries of prior year unpaid obligations, actual                       $                        -4,602,017   $               -3,921,941
17. Change in uncollected customer payments from Federal sources (+/-)                                         315,146                      266,938
18. Obligated balance, net, end of period
    A. Unpaid obligations                                                                                   67,813,257                    60,933,360
    B. Less: Uncollected customer payments (+/-) from Federal sources (-)                                    -2,051,639                   -2,366,785
    C. Total, unpaid obligated balance, net, end of period                                                  65,761,618                    58,566,575
NET OUTLAYS
19. Net Outlays:
   A. Gross outlays                                                                 $                      153,915,590    $              146,107,640
   B. Less: Offsetting collections                                                                         -10,264,468                   -10,614,293
   C. Less: Distributed Offsetting receipts                                                                   -201,497                      -140,980
   D. Net Outlays                                                                   $                      143,449,625    $              135,352,367



30                                            The accompanying notes are an integral part of these ﬁnancial statements.
General Fund
Fiscal Year 2008
Notes to the Principal Statements
Notes to the ﬁnancial statements communicate information essential for fair pre-
sentation of the ﬁnancial statements that is not displayed on the face of the ﬁnancial
statements.




                                                                                         31
              General Fund
              Notes to the Principal Statements




Note 1. Signiﬁcant Accounting Policies
1.A. Basis of Presentation
These ﬁnancial statements have been prepared to report the ﬁnancial position and results of operations of the Air Force, as
required by the Chief Financial Ofﬁcers Act of 1990, expanded by the Government Management Reform Act of 1994, and
other appropriate legislation. The ﬁnancial statements have been prepared from the books and records of the Air Force in
accordance with the Department of Defense (DoD), Financial Management Regulation (FMR), Ofﬁce of Management and
Budget (OMB) Circular A-136, “Financial Reporting Requirements,” and to the extent possible generally accepted account-
ing principles (GAAP). The accompanying ﬁnancial statements account for all resources for which the Air Force is respon-
sible unless otherwise noted.

Information relative to classiﬁed assets, programs, and operations is excluded from the statements or otherwise aggregated
and reported in such a manner that it is not discernable.

The Air Force is unable to fully implement all elements of GAAP and OMB Circular A-136 due to limitations of its ﬁnan-
cial and nonﬁnancial management processes and systems that feed into the ﬁnancial statements. The Air Force derives its
reported values and information for major asset and liability categories largely from nonﬁnancial systems, such as inven-
tory and logistic systems. These systems were designed to support reporting requirements for maintaining accountability
over assets and reporting the status of federal appropriations rather than preparing ﬁnancial statements in accordance with
GAAP. The Air Force continues to implement process and system improvements addressing these limitations.

The Air Force incorporates internal controls, reconciliations, management by exception reports, and other management con-
trol information into its accounting processes to establish reliability and relevance of the ﬁnancial information. When pos-
sible, the ﬁnancial statements are presented on the accrual basis of accounting, as required by federal accounting standards.

The Air Force currently has twelve identiﬁed ﬁnancial statement material weaknesses: (1) Financial Management Systems,
(2) Intragovernmental Eliminations, (3) Unsupported Accounting Entries, (4) Fund Balance with Treasury, (5) Environmen-
tal Liabilities, (6) General Property, Plant, and Equipment, (7) Governmental Property and Material in Possession of Con-
tractors, (8) Operating Materials and Supplies, (9) Statement of Net Cost, (10) Reconciliation of Net Cost of Operations to
Budget, (11) Accounts Payable, and (12) Accounts Receivable. These ﬁndings are being addressed with corrective actions
in the Financial Improvement Plan.

1.B. Mission of the Reporting Entity
The United States Air Force was created on September 18, 1947, by the National Security Act of 1947. The National Secu-
rity Act Amendments of 1949 established DoD and made the Air Force a department within DoD. The overall mission of
the Air Force is to ﬂy, ﬁght and win…in air, space and cyberspace.

1.C. Appropriations and Funds

The Air Force receives its appropriations and funds as general, trust, special, and deposit funds. The Air Force uses these
appropriations and funds to execute its missions and subsequently report on resource usage.

General funds are used for ﬁnancial transactions funded by congressional appropriations, including personnel, operation
and maintenance, research and development, procurement, and military construction accounts.Trust funds contain receipts
and expenditures of funds held in trust by the government for use in carrying out speciﬁc purposes or programs in accor-


32
                                                                                                           General Fund
                                                                                               Notes to the Principal Statements




dance with the terms of the donor, trust agreement, or statute. Certain trust and special funds may be designated as ear-
marked funds. Earmarked funds are ﬁnanced by speciﬁcally identiﬁed revenues, required by statute to be used for desig-
nated activities, beneﬁts or purposes, and remain available over time. Earmarked funds also have a requirement to account
for and report on the receipt, use and retention of revenues and other ﬁnancing sources that distinguish them from general
revenues.

Special fund accounts are used to record government receipts reserved for a speciﬁc purpose.

Deposit funds are used to record amounts held temporarily until paid to the appropriate government or public entity. The
Air Force is acting as an agent or custodian for funds awaiting distribution.

The Air Force is a party to allocation transfers with other federal agencies as a transferring (parent) entity and a receiv-
ing (child) entity. Allocation transfers are legal delegations by one agency of its authority to obligate budget authority and
outlay funds for another agency. Generally, all ﬁnancial activity related to these allocation transfers (e.g. budget authority,
obligations, outlays) is reported in the ﬁnancial statements of the parent entity.

Exceptions to this general rule apply to speciﬁc funds for which OMB has directed that all activity be reported in the
ﬁnancial statements of the child entity. Exceptions include all U.S. Treasury-Managed Trust Funds, Executive Ofﬁce of the
President (EOP), and all other funds speciﬁcally designated by OMB. The Air Force is a party to allocation transfers as the
child for EOP (Foreign Military Sales – Military Assistance Program) meeting OMB exception, however, the activities for
this fund is reported separately from DoD ﬁnancial statements. In addition, the Air Force is a party to allocation transfers as
the child for the Department of Agriculture.

The Air Force allocates funds, as the parent, to the Department of Transportation. The accounts used to prepare the ﬁnan-
cial statements are categorized as either entity or nonentity. The Air Force accounts consist of resources that are available
for use in the operations of the entity. The Air Force is authorized to decide how to use resources in entity accounts or may
be legally obligated to use these resources to meet entity obligations. Nonentity accounts, on the other hand, consist of as-
sets that are held by an entity but that are not available for use in the operations of the entity. The following is a list of the
major Air Force account numbers and titles (all accounts are entity accounts unless otherwise noted):

Air Force Account Number            Title

57 * 0704                           Military Family Housing (O&M and Construction), Air Force
57 * 0740                           Military Family Housing (Construction), Air Force
57 * 0745                           Military Family Housing (O&M), Air Force
57 * 0810                           Environmental Restoration, Air Force
57 * 1007                           Medicare Eligible Retiree Health Fund Contributions, Air Force
57 * 1008                           Medicare Eligible Retiree Health Fund Contributions, Air Force Reserve
57 * 1009                           Medicare Eligible Retiree Health Fund Contributions, Air National Guard
57 * 3010                           Aircraft Procurement, Air Force
57 * 3011                           Procurement of Ammunition, Air Force
57 * 3020                           Missile Procurement, Air Force
57 * 3080                           Other Procurement, Air Force
57 * 3300                           Military Construction, Air Force
57 * 3400                           Operation and Maintenance (O&M), Air Force
57 * 3500                           Military Personnel, Air Force
57 * 3600                           Research, Development, Testing, and Evaluation (RDT&E), AF


                                                                                                                               33
             General Fund
             Notes to the Principal Statements




57 * 3700                         Personnel, Air Force Reserve
57 * 3730                         Military Construction, Air Force Reserve
57 * 3740                         Operation and Maintenance (O&M), Air Force Reserve
57 * 3830                         Military Construction, Air National Guard
57 * 3840                         Operation and Maintenance (O&M), Air National Guard
57 * 3850                         Personnel, Air National Guard
57 X 5095                         Wildlife Conservation, etc., Military Reservations, Air Force
57 X 8418                         Air Force Cadet Fund
57 X 8928                         Air Force General Gift Fund
57 * 3XXX (Incl Nonentity)        Budget Clearing Accounts
57 * 6XXX (Nonentity)             Deposit Fund Accounts
57 **** (Nonentity)               Receipt Accounts

1.D. Basis of Accounting
For FY 2008, the Air Force’s ﬁnancial management systems are unable to meet all of the requirements for full accrual
accounting. Many of the Air Force’s ﬁnancial and nonﬁnancial feeder systems and processes were designed and imple-
mented prior to the issuance of GAAP for federal agencies. These systems were not designed to collect and record ﬁnancial
information on the full accrual accounting basis as required by GAAP. Most of the Air Force’s (ﬁnancial and nonﬁnancial)
legacy systems were designed to record information on a budgetary basis. However, some accounts such as civilian pay,
military pay and accounts payable are presented on the accrual basis of accounting on the ﬁnancial statements, as required
by federal accounting standards.

The DoD has undertaken efforts to determine the actions required to bring its ﬁnancial and nonﬁnancial feeder systems and
processes into compliance with GAAP. One such action is the current revision of its accounting systems to record transac-
tions based on the U.S. Standard General Ledger (USSGL). Until all of the Air Force’s ﬁnancial and nonﬁnancial feeder
systems and processes are updated to collect and report ﬁnancial information as required by GAAP, the Air Force’s ﬁnancial
data will be derived from budgetary transactions (obligations), transactions from nonﬁnancial feeder systems, and accruals
made for major items such as payroll expenses, accounts payable, and environmental liabilities.

1.E. Revenues and Other Financing Sources
The Air Force receives congressional appropriations as ﬁnancing sources for general funds on either an annual or multi-
year basis. When authorized by legislation, these appropriations are supplemented by revenues generated by sales of goods
or services. The Air Force recognizes revenue as a result of costs incurred for goods or services provided to other federal
agencies and the public. Full cost pricing is the Air Force’s standard policy for services provided as required by OMB
Circular A-25, Transmittal Memorandum #1, User Charges. The Air Force recognizes revenue when earned within the
constraints of current system capabilities. In some instances, revenue is recognized when bills are issued.

The Air Force does not include nonmonetary support provided by U.S. allies for common defense and mutual security in
amounts reported in the Statement of Net Cost and the Note 21, Reconciliation of Net Cost of Operations to Budget. The
U.S. has cost sharing agreements with other countries. Examples include countries where there is a mutual or reciprocal
defense agreement, where U.S. troops are stationed, or where the U.S. ﬂeet is in a port.




34
                                                                                                       General Fund
                                                                                           Notes to the Principal Statements




1.F. Recognition of Expenses
For ﬁnancial reporting purposes, DoD policy requires the recognition of operating expenses in the period incurred. How-
ever, because the Air Force’s ﬁnancial and nonﬁnancial feeder systems were not designed to collect and record ﬁnancial
information on the full accrual accounting basis, accruals are made for major items such as payroll expenses, accounts pay-
able, environmental liabilities, and unbilled revenue. In the case of Operating Materials and Supplies (OM&S), operating
expenses are generally recognized when the items are purchased. Efforts are underway to transition towards the consump-
tion method for recognizing OM&S expenses.

1.G. Accounting for Intragovernmental Activities
Preparation of reliable ﬁnancial statements requires the elimination of transactions occurring among entities within DoD or
between two or more federal agencies. However, the Air Force cannot accurately eliminate intragovernmental transactions
by customer because the Air Force’s systems do not track at the transaction level. Generally, seller entities within DoD pro-
vide summary seller-side balances for revenue, accounts receivable, and unearned revenue to the buyer-side internal DoD
accounting ofﬁces. In most cases the buyer-side records are adjusted to agree with DoD seller-side balances. IntraDoD
balances are then eliminated. The volume of intragovernmental transactions is so large that after-the-fact reconciliations
cannot be accomplished effectively with existing or foreseeable resources. The DoD is developing long-term system im-
provements to ensure accurate intragovernmental information, to include sufﬁcient up-front edits and controls eliminating
the need for after-the-fact reconciliations.

The U.S. Treasury Financial Management Service is responsible for eliminating transactions between DoD and other fed-
eral agencies. The Treasury Financial Manual, Part 2 – Chapter 4700, “Agency Reporting Requirements for the Financial
Report of the United States Government,” and the U.S. Treasury’s “Federal Intragovernmental Transactions Accounting
Policy Guide,” provide guidance for reporting and reconciling intragovernmental balances. While the Air Force is unable to
fully reconcile intragovernmental transactions with all federal partners, the Air Force is able to reconcile balances pertain-
ing to investments in federal securities, Federal Employees’ Compensation Act transactions with the Department of Labor,
and beneﬁt program transactions with the Ofﬁce of Personnel Management.

The DoD’s proportionate share of public debt and related expenses of the Federal Government are not included. The Feder-
al Government does not apportion debt and its related costs to federal agencies. The DoD’s ﬁnancial statements, therefore,
do not report any portion of the public debt or interest thereon, nor do the statements report the source of public ﬁnancing
whether from issuance of debt or tax revenues.

Financing for the construction of DoD facilities is obtained through appropriations. To the extent this ﬁnancing ultimately
may have been obtained through the issuance of public debt, interest costs have not been capitalized since the U.S. Treasury
does not allocate such interest costs to the beneﬁting agencies.

1.H. Transactions with Foreign Governments and International Organizations
Each year, the Air Force sells defense articles and services to foreign governments and international organizations under the
provisions of the “Arms Export Control Act of 1976.” Under the provisions of the Act, DoD has authority to sell defense
articles and services to foreign countries and international organizations generally at no proﬁt or loss to the U.S. Govern-
ment. Payment in U.S. dollars is required in advance.




                                                                                                                          35
             General Fund
             Notes to the Principal Statements




1.I. Funds with the U.S. Treasury
The Air Force’s monetary resources are maintained in U.S. Treasury accounts. The disbursing ofﬁces of the Defense
Finance and Accounting Service (DFAS), the Military Departments, the U.S. Army Corps of Engineers (USACE), and the
Department of State’s ﬁnancial service centers process the majority of the Air Force’s cash collections, disbursements, and
adjustments worldwide. Each disbursing station prepares monthly reports to the U.S. Treasury on check issues, electronic
fund transfers, interagency transfers, and deposits.

In addition, the DFAS sites and USACE Finance Center submit reports to the U.S. Treasury by appropriation on interagency
transfers, collections received, and disbursements issued. The U.S. Treasury records these transactions to the applicable
Fund Balance with Treasury (FBWT) account. The Air Force’s recorded balance in FBWT accounts and U.S Treasury’s
FBWT accounts must balance monthly.

1.J. Foreign Currency
Cash is the total of cash resources under the control of DoD, which includes coin, paper currency, negotiable instruments,
and amounts held for deposit in banks and other ﬁnancial institutions. Foreign currency consists of the total U.S. dollar
equivalent of both purchased and nonpurchased foreign currencies held in foreign currency fund accounts.

The majority of cash and all foreign currency is classiﬁed as nonentity and is restricted. Amounts reported consist primarily
of cash and foreign currency held by disbursing ofﬁcers to carry out their paying, collecting, and foreign currency accom-
modation exchange missions.

The Air Force conducts a signiﬁcant portion of its operations overseas. The Congress established a special account to
handle the gains and losses from foreign currency transactions for ﬁve general fund appropriations: operations and mainte-
nance, military personnel, military construction, family housing operations and maintenance, and family housing construc-
tion. The gains and losses are computed as the variance between the exchange rate current at the date of payment and a
budget rate established at the beginning of each ﬁscal year. Foreign currency ﬂuctuations related to other appropriations
require adjustments to the original obligation amount at the time of payment. The Air Force does not separately identify
currency ﬂuctuation transactions.

1.K. Accounts Receivable
As presented in the Balance Sheet, accounts receivable include three categories: accounts, claims, and refunds receivable
from other federal entities or from the public. The allowance for uncollectible for the Air Force entity receivables is com-
puted based on the average annual write off over a ﬁve year period. The DoD does not recognize an allowance for esti-
mated uncollectible amounts from other federal agencies. Claims against other federal agencies are to be resolved between
the agencies in accordance with dispute resolution procedures deﬁned in the Intragovernmental Business Rules published in
the Treasury Financial Manual.

1.L. Direct Loans and Loan Guarantees
Not Applicable

1.M. Inventories and Related Property
The Air Force manages only military or government speciﬁc materiel under normal conditions. Materiel is a unique term
that relates to military force management, and includes all items (including self-propelled weapons, aircraft, etc., and



36
                                                                                                         General Fund
                                                                                             Notes to the Principal Statements




related spares, repair parts, and support equipment, but excluding real property, installations, and utilities) necessary to
equip, operate, maintain, and support military activities without distinction as to its application for administrative or combat
purposes. Items commonly used in and available from the commercial sector are not managed in the Air Force materiel
management activities. The Air Force only holds materiel based on military need and support for contingencies.

Related property includes OM&S and stockpile materials. The majority of OM&S, with the exception of munitions not
held for sale, are valued using the moving average cost method. Munitions not held for sale are valued at standard purchase
price. The Air Force uses both the consumption method and the purchase method of accounting for OM&S. Items that
are centrally managed and stored, such as ammunition and engines, are generally recorded using the consumption method
and are reported on the Balance Sheet as OM&S. When current systems cannot fully support the consumption method, the
Air Force uses the purchase method. Under this method, materiels and supplies are expensed when purchased. During FY
2008, the Air Force expensed signiﬁcant amounts using the purchase method because the systems could not support the
consumption method or management deemed that the item was in the hands of the end user. This is a material weakness
for the DoD and long-term system corrections are in process. Once the proper systems are in place, these items will be ac-
counted for under the consumption method of accounting.

The Air Force determined that the recurring high dollar value of OM&S in need of repair is material to the ﬁnancial state-
ments and requires a separate reporting category. Many high dollar items, such as aircraft engines, are categorized as
OM&S rather than military equipment.

The Air Force recognizes condemned materiel as “Excess, Obsolete, and Unserviceable.” The cost of disposal is greater
than the potential scrap value; therefore, the net value of condemned materiel is zero. Potentially redistributed materiel,
presented in previous years as “Excess, Obsolete, and Unserviceable,” is included in the “Held for Use” or “Held for Re-
pair” categories according to its condition.

The DoD does not attempt to account separately for “inventory held for sale” and “inventory held in reserve for future sale”
based on SFFAS No. 3 deﬁnition, unless otherwise noted as it applies to OM&S.

1.N. Investments in U.S. Treasury Securities
The Air Force reports investments in U.S. Treasury securities at cost, net of amortized premiums or discounts. Premiums or
discounts are amortized over the term of the investment using the effective interest rate method or another method obtaining
similar results. The Air Force’s intent is to hold investments to maturity, unless they are needed to ﬁnance claims or other-
wise sustain operations. Consequently, a provision is not made for unrealized gains or losses on these securities.

The Air Force invests in nonmarketable market-based U.S. Treasury securities. These are U.S. Treasury securities that are
issued by the Bureau of Public Debt to federal agencies. They are not traded on any securities exchange but mirror the
prices of particular U.S. Treasury securities traded in the government securities market.

1.O. General Property, Plant and Equipment
The Air Force uses the estimated historical cost for valuing military equipment. The DoD identiﬁed the universe of military
equipment by accumulating information relating to program funding and associated military equipment, equipment useful
life, program acquisitions, and disposals to establish a baseline. The military equipment baseline is updated using expendi-
ture, acquisition and disposals information.




                                                                                                                              37
              General Fund
              Notes to the Principal Statements




The Air Force’s General Property, Plant and Equipment (General (PP&E)) capitalization threshold is $100 thousand except
for real property which is $20 thousand. The Air Force has implemented the $20 thousand real property threshold. The Air
Force is currently using the capitalization threshold of $100 thousand for all General PP&E.

General PP&E assets are capitalized at historical acquisition cost when an asset has a useful life of two or more years and
when the acquisition cost equals or exceeds the DoD capitalization threshold. The DoD also requires the capitalization
of improvements to existing General PP&E assets if the improvements equal or exceed DoD capitalization threshold and
extend the useful life or increase the size, efﬁciency, or capacity of the asset. The DoD depreciates all General PP&E, other
than land, on a straight-line basis.

General PP&E previously capitalized at amounts below $100 thousand was written off General Fund ﬁnancial statements in
FY 1998.

When it is in the best interest of the government, the Air Force provides government property to contractors to complete
contract work. The Air Force either owns or leases such property, or it is purchased directly by the contractor for the
government based on contract terms. When the value of contractor-procured General PP&E exceeds DoD capitalization
threshold, federal accounting standards require that it be reported on the Air Force’s Balance Sheet.

The DoD is developing new policies and a contractor reporting process for Government Furnished Equipment that will
provide appropriate General PP&E information for future ﬁnancial statement reporting purposes. Accordingly, Air Force
reports only government property in the possession of contractors that is maintained in Air Force’s property systems. The
DoD has issued new property accountability and reporting requirements that require Air Force to maintain, in their property
systems, information on all property furnished to contractors. This action and other DoD proposed actions are structured to
capture and report the information necessary for compliance with federal accounting standards.

1.P. Advances and Prepayments
When advances are permitted by law, legislative action, or presidential authorization, the DoD’s policy is to record advanc-
es and prepayments in accordance with GAAP. As such, payments made in advance of the receipt of goods and services are
reported as an asset on the Balance Sheet. The DoD’s policy is to expense and/or properly classify assets when the related
goods and services are received. The Air Force has not fully implemented this policy primarily due to system limitations.

1.Q. Leases
Lease payments for the rental of operating facilities are classiﬁed as either capital or operating leases. When a lease is
essentially equivalent to an installment purchase of property (a capital lease), Air Force records the applicable asset and
liability if the value equals or exceeds the current capitalization threshold. The Air Force records the amounts as the lesser
of the present value of the rental and other lease payments during the lease term (excluding portions representing executory
costs paid to the lessor) or the asset’s fair market value. The discount rate for the present value calculation is either the les-
sor’s implicit interest rate or the government’s incremental borrowing rate at the inception of the lease. The Air Force as the
lessee receives the use and possession of leased property, for example real estate, from a lessor in exchange for a payment
of funds. An operating lease does not substantially transfer all the beneﬁts and risk of ownership. Payments for operating
leases are charged to expense over the lease term as it becomes payable.

Ofﬁce space and leases entered into by Air Force in support of contingency operations are the largest component of operat-
ing leases. These costs were gathered from existing leases, General Services Administration (GSA) bills, and Interservice
Support Agreements. Future year projections use the Consumer Price Index (CPI) rather than the DoD inﬂation factor. The
CPI impacts increases to the leases, especially those at commercial lease sites.


38
                                                                                                         General Fund
                                                                                             Notes to the Principal Statements




1.R. Other Assets
Other assets include those assets, such as military and civil service employee pay advances, travel advances, and certain
contract ﬁnancing payments that are not reported elsewhere on Air Force’s Balance Sheet.

The Air Force conducts business with commercial contractors under two primary types of contracts: ﬁxed price and cost
reimbursable. To alleviate the potential ﬁnancial burden on the contractor that long-term contracts can cause, Air Force
may provide ﬁnancing payments. Contract ﬁnancing payments are deﬁned in the Federal Acquisition Regulations, Part 32,
as authorized disbursements of monies to a contractor prior to acceptance of supplies or services by the Government. Con-
tract ﬁnancing payments clauses are incorporated in the contract terms and conditions and may include advance payments,
performance-based payments, commercial advance and interim payments, progress payments based on cost, and interim
payments under certain cost-reimbursement contracts.

Contract ﬁnancing payments do not include invoice payments, payments for partial deliveries, lease and rental payments, or
progress payments based on a percentage or stage of completion, which the Defense Federal Acquisition Regulation Sup-
plement authorizes only for construction of real property, shipbuilding, and ship conversion, alteration, or repair. Progress
payments for real property and ships are reported as Construction in Progress. It is DoD‘s policy to record certain contract
ﬁnancing payments as Other Assets.

1.S. Contingencies and Other Liabilities
The SFFAS No. 5, “Accounting for Liabilities of the Federal Government,” as amended by SFFAS No. 12, “Recognition of
Contingent Liabilities Arising from Litigation,” deﬁnes a contingency as an existing condition, situation, or set of circum-
stances that involves an uncertainty as to possible gain or loss. The uncertainty will be resolved when one or more future
events occur or fail to occur. The Air Force recognizes contingent liabilities when past events or exchange transactions
occur, a future loss is probable, and the loss amount can be reasonably estimated.

Financial statement reporting is limited to disclosure when conditions for liability recognition do not exist but there is at
least a reasonable possibility of incurring a loss or additional losses. Examples of loss contingencies include the collectibil-
ity of receivables, pending, or threatened litigation, and possible claims and assessments. The Air Force’s risk of loss and
resultant contingent liabilities arise from pending or threatened litigation or claims and assessments due to events such as
aircraft and vehicle accidents; medical malpractice; property or environmental damages; and contract disputes.

Other liabilities arise as a result of anticipated disposal costs for Air Force assets. This type of liability has two compo-
nents: nonenvironmental and environmental. Consistent with SFFAS No. 6, “Accounting for Property, Plant, and Equip-
ment,” recognition of an anticipated environmental disposal liability begins when the asset is placed into service. Nonenvi-
ronmental disposal liabilities are recognized for assets when management decides to dispose of an asset based upon DoD’s
policy, which is consistent with SFFAS No. 5, “Accounting for Liabilities of Federal Government.” The Air Force does not
recognize contingent liabilities associated with nonenvironmental disposals due to immateriality.

1.T. Accrued Leave
The Air Force reports as liabilities military leave and civilian earned leave, except sick leave, that has been accrued and not
used as of the Balance Sheet date. Sick leave is expensed as taken. The liability reported at the end of the accounting period
reﬂects the current pay rates.




                                                                                                                             39
              General Fund
              Notes to the Principal Statements




1.U. Net Position
Net Position consists of unexpended appropriations and cumulative results of operations.

Unexpended Appropriations represent the amounts of authority that are unobligated and that have not been rescinded or
withdrawn. Unexpended appropriations also represent amounts obligated for which legal liabilities for payments have not
been incurred.

Cumulative Results of Operations represent the net difference, since inception of an activity, between expenses and losses
and ﬁnancing sources (including appropriations, revenue, and gains). Beginning with FY 1998, the cumulative results also
include donations and transfers in and out of assets that were not reimbursed.

1.V. Treaties for Use of Foreign Bases
The DoD has the use of land, buildings, and other overseas facilities that are obtained through various international treaties
and agreements negotiated by the Department of State. The Air Force purchases capital assets overseas with appropriated
funds; however, the host country retains title to land and improvements. Generally, treaty terms allow the Air Force contin-
ued use of these properties until the treaties expire. In the event treaties or other agreements are terminated, whereby use of
the foreign bases is prohibited, losses are recorded for the value of any nonretrievable capital assets. The settlement due to
the U.S. or host nation is negotiated and takes into account the value of capital investments and may be offset by the cost of
environmental clean-up.

1.W. Comparative Data
The Air Force’s ﬁnancial statements and notes are presented on a comparative basis.

1.X. Unexpended Obligations
The Air Force obligates funds to provide goods and services for outstanding orders not yet delivered. Unless the title has
passed, the ﬁnancial statements do not reﬂect a liability for payment for goods and services not yet delivered. Unexpended
obligations includes both obligations for which goods and services have been delivered (title passed) and a liability recog-
nized, and obligations for which no delivery has occurred and no liability recognized. The balance of unexpended obliga-
tions appears immediately before net outlays in the Statement of Budgetary Resources, and is referred to as “Total, unpaid
obligated balances, net, end of period.”

1.Y. Undistributed Disbursements and Collections
Undistributed disbursements and collections represent the difference between disbursements and collections matched at the
transaction level to a speciﬁc obligation, payable, or receivable in the activity ﬁeld records as opposed to those reported by
the U.S. Treasury. These amounts should agree with the undistributed amounts reported on the monthly accounting reports.
In transit payments are those payments that have been made, but have not been recorded in the fund holder’s accounting
records. These payments are applied to the entities’ outstanding accounts payable balance. In transit collections are those
collections from other agencies or entities that have not been recorded in the accounting records. These collections are also
applied to the entities’ accounts receivable balance.

The DoD policy is to allocate supported undistributed disbursements and collections between federal and nonfederal
categories based on the percentage of distributed federal and nonfederal accounts payable and accounts receivable. Unsup-
ported undistributed disbursements are recorded in accounts payable. Unsupported undistributed collections are recorded in
other liabilities.


40
                                                                                                        General Fund
                                                                                            Notes to the Principal Statements




1.Z. Signiﬁcant Events
Not Applicable

Note 2. Nonentity Assets
 As of September 30                                                        2008                             2007

 (Amounts in thousands)


 1. Intragovernmental Assets
   A. Fund Balance with Treasury                              $                      101,059    $                       94,844
   B. Accounts Receivable                                                               1,430                            2,376
   C. Total Intragovernmental Assets                         $                       102,489    $                       97,220
 2. Nonfederal Assets
   A. Cash and Other Monetary Assets                          $                      111,976    $                     107,908
   B. Accounts Receivable                                                            111,649                          157,416
   C. Other Assets                                                                   183,444                          186,025
   D. Total Nonfederal Assets                                 $                      407,069    $                     451,349
 3. Total Nonentity Assets                                    $                      509,558    $                     548,569
 4. Total Entity Assets                                                           300,259,558                      281,086,886
 5. Total Assets                                              $                   300,769,116   $                  281,635,455


Relevant Information for Comprehension
Nonentity assets are assets for which the Air Force maintains stewardship accountability and responsibility to report, but are
not available for the Air Force’s operations.

Intragovernmental Fund Balance with Treasury represents amounts in Air Force’s deposit fund and two suspense fund ac-
counts (Uniformed Services Thrift Savings Plan Suspense and Thrift Savings Plan Suspense) that are not available for Air
Force use.

Intragovernmental Accounts Receivable and Nonfederal Accounts Receivable, when collected, go to the U.S. Treasury as
miscellaneous receipts. The Nonfederal Accounts Receivable amount also includes interest receivables on aged debt.

Nonfederal Cash and Other Monetary Assets represent disbursing ofﬁcers’ cash and undeposited collections as reported on
the Statement of Accountability (Standard Form 1219). These assets are held by the Air Force disbursing ofﬁcers as agents
of the U.S. Treasury.

Nonfederal Other Assets consist of advances to contractors as part of the advance payment pool agreements with the Mas-
sachusetts Institute of Technology and other nonproﬁt institutions. These agreements are used for the ﬁnancing of cost-type
contracts with nonproﬁt educational research institutions for experimental research and development work when several
contracts or a series of contracts require ﬁnancing by advance payments.




                                                                                                                           41
                  General Fund
                  Notes to the Principal Statements




Note 3. Fund Balance with Treasury

 As of September 30                                                    2008                              2007

 (Amounts in thousands)


 1. Fund Balances
     A. Appropriated Funds                               $                     92,800,590     $                  80,023,587
     B. Revolving Funds                                                                 0                                 0
     C. Trust Funds                                                                 6,773                             6,824
     D. Special Funds                                                               1,487                             1,140
     E. Other Fund Types                                                          101,059                            94,845
     F. Total Fund Balances                              $                     92,909,909     $                  80,126,396
 2. Fund Balances Per Treasury Versus Agency
     A. Fund Balance per Treasury                        $                     94,578,060     $                  81,162,222
     B. Fund Balance per Air Force                                             92,909,909                        80,126,396
 3. Reconciling Amount                                   $                      1,668,151     $                   1,035,826




Other Fund Types include balances in deposit fund, receipt accounts, and Thrift Saving Plan (TSP).

The Air Force shows a reconciling amount of $1.7 billion with U.S. Treasury, which is comprised of $1.6 billion in with-
drawal from the FBWT in the cancelling appropriations on September 30, 2008. These funds are included in FBWT of U.S.
Treasury but are not included in the Air Force FBWT.

Status of Fund Balance with Treasury
 As of September 30                                                     2008                             2007

 (Amounts in thousands)


 1. Unobligated Balance
   A. Available                                              $                  24,143,734    $                  18,577,110
     B. Unavailable                                                              2,533,156                        2,598,234
 2. Obligated Balance not yet Disbursed                                         67,813,258                       60,933,360
 3. Nonbudgetary FBWT                                                              472,259                          385,286
 4. NonFBWT Budgetary Accounts                                                   -2,052,498                       -2,367,594
 5. Total                                                    $                  92,909,909    $                  80,126,396




The Status of Fund Balance with Treasury (FBWT) reﬂects the budgetary resources to support the FBWT.

Unobligated Balance represents the cumulative amount of budgetary authority that has not been set aside to cover outstand-
ing obligations. Unobligated Balance is classiﬁed as available or unavailable and is associated with appropriations expiring
at ﬁscal year end that remain available only for obligation adjustments until the account is closed.



42
                                                                                                         General Fund
                                                                                          Notes to the Principal Statements




Obligated Balance not yet Disbursed represents funds that have been obligated for goods that have not been received, ser-
vices that have not been performed, and goods and services that have been delivered/received but not yet paid.


Nonbudgetary FBWT includes entity and nonentity FBWT accounts which represents adjustments that do not have bud-
getary authority, such as unavailable receipt accounts or clearing accounts. The items reported as Nonbudgetary FBWT

account comprises the FBWT for suspense, deposit and receipt accounts.


NonFBWT Budgetary Accounts represent adjustments to budgetary accounts that do not affect FBWT. 

The items that comprise the amount reported as NonFBWT receipts are from nonentity receivables,

investments and discounts in U.S. Treasury securities, and unﬁlled customer orders without

advances. This category reduces the Status of FBWT. 


Unobligated balances are segregated to show available and unavailable amounts in the note schedule.

Certain unobligated balances may be restricted to future use and are not apportioned for current use.

The Unobligated Balance unavailable of $2.5 billion is not available for new obligations because the

period for new obligations established by law has expired.





                                                                                                                         43
                 General Fund
                 Notes to the Principal Statements




Note 4. Investments and Related Interest
                                                                                              2008

 As of September 30                                                                         Amortized
                                                                        Amortization                             Investments,       Market Value
                                                           Cost                            (Premium) /
                                                                          Method                                     Net             Disclosure
                                                                                            Discount
 (Amounts in thousands)


 1. Intragovernmental Securities
     A. Nonmarketable, Market-Based
       1. Military Retirement Fund                     $           0                   $                 0   $                  0   $          0
       2. Medicare Eligible Retiree Health Care Fund               0                                     0                      0              0
       3. US Army Corps of Engineers                                0                                    0                      0              0
       4. Other Funds                                             868                                -3                    865               890
       5. Total Nonmarketable, Market-Based            $          868                  $             -3      $            865       $        890
     B. Accrued Interest                                            9                                                           9              9
     C. Total Intragovernmental Securities             $          877                  $             -3      $            874       $        899
 2. Other Investments
     A. Total Other Investments                        $            0                  $                 0   $                  0            N/A


                                                                                              2007

 As of September 30                                                                         Amortized
                                                                        Amortization                             Investments,       Market Value
                                                           Cost                            (Premium) /
                                                                          Method                                     Net             Disclosure
                                                                                            Discount
 (Amounts in thousands)


 3. Intragovernmental Securities
     A. Nonmarketable, Market-Based
       1. Military Retirement Fund                     $            0                  $                 0   $                  0   $          0
       2. Medicare Eligible Retiree Health Care Fund                0                                    0                      0              0
       3. US Army Corps of Engineers                                0                                    0                      0              0
       4. Other Funds                                             816                                -1                    815               820
       5. Total Nonmarketable, Market-Based            $          816                  $             -1      $            815       $        820
     B. Accrued Interest                                            8                                                           8              9
     C. Total Intragovernmental Securities             $          824                  $             -1      $            823       $        829
 4. Other Investments
     A. Total Other Investments                        $            0                  $                 0   $                  0            N/A



Relevant Information for Comprehension
The Federal Government does not set aside assets to pay future beneﬁts and expenditures associated with earmarked funds.
The cash generated from earmarked funds are deposited in U.S. Treasury, which uses the cash for general Government
purposes. The U.S. Treasury securities are issued to the earmarked funds as evidence of earmarked fund receipts. The U.S.


44
                                                                                                                    General Fund
                                                                                                     Notes to the Principal Statements




Treasury securities are an asset to the Air Force and a liability to the U.S. Treasury. Because Air Force and U.S. Treasury
are both parts of the Government, these assets and liabilities offset each other from the standpoint of the Government as a
whole. For this reason, they do not represent an asset or a liability in the U.S. Governmentwide ﬁnancial statements. The
U.S. Treasury securities provide Air Force with authority to draw upon U.S. Treasury to make future beneﬁt payments or
other expenditures. When Air Force requires redemption of these securities, the Government ﬁnances the securities out
of accumulated cash balances, by raising taxes or other receipts, by borrowing from the public or repaying less debt, or by
curtailing other expenditures. This is the same way that the Government ﬁnances all other expenditures.

Intragovernmental Securities (Other) primarily represents the Air Force Gift Fund investment in U.S. Treasury Securities.

Note 5. Accounts Receivable
                                                                               2008                                                 2007

 As of September 30                                                        Allowance For
                                                    Gross Amount                                     Accounts                  Accounts
                                                                             Estimated
                                                        Due                                        Receivable, Net           Receivable, Net
                                                                           Uncollectibles
 (Amounts in thousands)


 1. Intragovernmental Receivables               $          271,020                       N/A   $               271,020   $              388,823
 2. Nonfederal Receivables (From the Public)    $          619,412     $           -117,230    $               502,182   $              545,796
 3. Total Accounts Receivable                   $          890,432     $           -117,230    $               773,202   $              934,619




Note 6. Other Assets

 As of September 30                                                               2008                                       2007

 (Amounts in thousands)


 1. Intragovernmental Other Assets
   A. Advances and Prepayments                                     $                           265,591     $                           423,952
   B. Other Assets                                                                                     0                                       0
   C. Total Intragovernmental Other Assets                         $                           265,591     $                           423,952
 2. Nonfederal Other Assets
   A. Outstanding Contract Financing Payments                      $                        10,775,541     $                         10,183,088
   B. Advances and Prepayments                                                                  71,542                                     79,705
   C. Other Assets (With the Public)                                                           183,444                                 186,025
   D. Total Nonfederal Other Assets                                $                        11,030,527     $                         10,448,818
 3. Total Other Assets                                             $                        11,296,118     $                         10,872,770


Relevant Information for Comprehension
Nonfederal Other Assets (With the Public) is comprised primarily of advance payment pool agreements with nonproﬁt
educational institutions. These agreements are funded under cost type contract procedures and are mainly for experimental
research and development requirements.


                                                                                                                                              45
              General Fund
              Notes to the Principal Statements




Contract terms and conditions for certain types of contract ﬁnancing payments convey certain rights to the Air Force that
protect the contract work from state or local taxation, liens or attachment by the contractor’s creditors, transfer of property,
or disposition in bankruptcy; however, these rights should not be misconstrued to mean that ownership of the contractor’s
work has transferred to the Government. The Government does not have the right to take the work, except as provided in
contract clauses related to termination or acceptance; therefore, the Air Force is not obligated to make payment to the con-
tractor until delivery and acceptance.

The Outstanding Contract Financing Payments balance of $10.8 billion is comprised of $10.3 billion in contract ﬁnancing
payments and an additional $533.2 million in estimated future payments that will be paid upon future delivery and Govern-
ment acceptance of satisfactory products and services. (See additional discussion in Note 15, Other Liabilities).

Note 7. Cash and Other Monetary Assets
 As of September 30                                                            2008                            2007

 (Amounts in thousands)


 1. Cash                                                          $                       93,046   $                     104,681
 2. Foreign Currency                                                                      18,930                           3,227
 3. Other Monetary Assets                                                                      0                               0
 4. Total Cash, Foreign Currency, & Other Monetary Assets         $                      111,976   $                     107,908


Relevant Information for Comprehension
The amount reported as cash and foreign currency consists primarily of cash held by Disbursing Ofﬁcers. The foreign cur-
rency amount reported is valued at U.S. Treasury’s prevailing exchange rate, which is the most favorable rate available to
the Government for foreign exchange transactions. Foreign currency is primarily used to make vendor disbursements and
to exchange U.S. dollars for military personnel.

Cash and foreign currency are nonentity assets and, as such, considered restricted assets that are held by the Air Force but
are not available for use in its operations. These assets are held by the Air Force’s Disbursing Ofﬁcers as agents of U.S.
Treasury. The total balance of $112.0 million is restricted.

Note 8. Direct Loan and/or Loan Guarantee Programs
Not Applicable




46
                                                                                                                               General Fund
                                                                                                              Notes to the Principal Statements




Note 9. Inventory and Related Property
 As of September 30                                                                       2008                                       2007

 (Amounts in thousands)


 1. Inventory, Net                                                         $                                  0     $                                   0
 2. Operating Materiels & Supplies, Net                                                            46,906,666                                 46,335,059
 3. Stockpile Materiels, Net                                                                                  0                                         0
 4. Total                                                                  $                       46,906,666       $                         46,335,059


Inventory, Net
Not Applicable

Operating Materials and Supplies, Net
                                                                           2008                                         2007
 As of September 30                                 OM&S Gross          Revaluation                                                         Valuation
                                                                                              OM&S, Net             OM&S, Net
                                                      Value             Allowance                                                            Method
 (Amounts in thousands)


 1. OM&S Categories
   A. Held for Use                              $      35,828,669   $                 0   $      35,828,669     $       35,998,482          SP, LAC
   B. Held for Repair                                  11,077,997                     0          11,077,997             10,336,577          SP, LAC
   C. Excess, Obsolete, and Unserviceable               1,904,436          -1,904,436                     0                     0             NRV
   D. Total                                     $      48,811,102   $      -1,904,436     $      46,906,666     $       46,335,059


 Legend for Valuation Methods:
 Adjusted LAC = Latest Acquisition Cost, adjusted for holding gains and losses    NRV = Net Realizable Value

 SP = Standard Price                                                              O = Other

 AC = Actual Cost


General Composition of OM&S
The Operating Materials and Supplies (OM&S) include weapon systems spares, ammunition, tactical missiles, aerial target
drones, uninstalled aircraft and cruise missile engines, and uninstalled intercontinental ballistic missile motors.

In addition to the account balances shown in Note 9, the federal accounting standard requires disclosure of the amount of
OM&S held for future use. Except for an immaterial amount of munitions, the Air Force is not holding any items for future
use.

Restrictions on the Use of OM&S
The Air Force does not maintain any OM&S restricted assets.



                                                                                                                                                        47
              General Fund
              Notes to the Principal Statements




Decision Criteria for Identifying the Category to Which OM&S Items Are Assigned
The category Held for Use includes all materials available for issuance. OM&S classiﬁed as such is marked within each
supply or inventory system.

The category Held for Repair includes all economically reparable materials as deﬁned by the Military Standard Transaction
Reporting and Accounting Procedures Manual (DoD 4000.25-2-M).

The category Held as Excess, Obsolete, and Unserviceable includes all materials that managers determine to be more costly
to repair than to replace. Items retained for management purposes which are beyond economic repair are coded “con-
demned.” These items are held until proper disposal can be made. The net value of these items is zero and they are shown
as Excess, Obsolete, and Unserviceable.

Changes in the Criteria for Identifying the Category to Which OM&S Items Are Assigned
The DoD’s approved methodology for determining historical cost is the Moving Average Cost (MAC). As of 3rd Quarter,
FY 2007, Air Force has fully implemented MAC in three of the six systems used to report OM&S values into the account-
ing system. In two of the three remaining systems, the beginning inventory balances have been established, but the cost for
the quantities on hand for each national stock number have not been validated. It is anticipated that a majority of the cost
associated with the inventory balances in these two systems will be validated using MAC standards by December 31 2008.
Validation of the beginning balance in the Combat Ammunitions System (CAS), which manages approximately 50% of all
OM&S, is not scheduled to be completed until 1st Quarter, FY 2009.

Under current DoD policy, no allowance is made for serviceable, ready-to-issue, items (category Held for Use). An allow-
ance equal to 100% of MAC or standard price, however, is made for the category Excess, Obsolete, and Unserviceable. This
allowance results in a net book value of zero for items that have no intrinsic value to the Air Force. The category Held for
Repair represents suspended, unserviceable (but reparable) items. Air Force will continue to report Held for Repair at MAC
or standard price until Ofﬁce of the Secretary of Defense guidance is provided on how to compute an allowance for repair.

Operating Materiels and Supplies (OM&S) Value
The OM&S data reported on the ﬁnancial statements are derived from logistics systems designed for materiel management
purposes. Some of these systems do not maintain the historical cost data necessary to comply with the valuation require-
ments of the Statement of Federal Financial Accounting Standards (SFFAS) No. 3, “Accounting for Inventory and Related
Property.”

Items commonly used in and available from the commercial sector are not managed in the DoD materiel management activi-
ties. Further, unlike the commercial sector, the DoD operational cycles are based on national need and thereby are irregular.
In addition, the military risks associated with stock-out positions (e.g., weapon systems that are not mission capable due to
lack of supplies) are totally different from a commercial activities risk of losing sales. Therefore, DoD does not attempt to
account separately for items held for current or future use.

In general, the Air Force uses the consumption method of accounting for OM&S, since OM&S is deﬁned in SFFAS No. 3 as
materiel that has not yet been issued to the end user. Once issued, the materiel is expensed. According to federal accounting
standards, the consumption method of accounting should be used to account for OM&S unless: (1) the amount of OM&S is
not signiﬁcant, (2) OM&S are in the hands of the end user for use in normal operations, or (3) it is cost beneﬁcial to expense
OM&S when purchased (purchase method).



48
                                                                                                       General Fund
                                                                                           Notes to the Principal Statements




Other Air Force Disclosures
In the past, the Air Force provided only minimal OM&S accounting data that can be used to prepare the ﬁnancial statements
but has made considerable strides in improving the systems to provide actual transactions for completing the ﬁnancial
statements. However, in some cases, the data provided still consists of only beginning and ending balances for each of the
asset accounts Held for Use; Excess, Obsolete, Unserviceable; and Held for Repair. Without the required additional data
(acquisitions, transfers in, amounts consumed, transfers out, trading partner data, etc.), DFAS can only report the net change
between prior period ending balances and the values reported as current period ending balances.

Although the Air Force OM&S systems, in most cases, capture some trading partner data at the transaction level, no elec-
tronic interfaces exist between the Air Force OM&S feeder systems, the DFAS accounting systems, other DoD services,
and other federal agencies for reporting the data for all items transferred in and out. Consequently, intragovernmental trans-
actions (trading partner data) could not always be reconciled. The Air Force and DFAS are currently developing processes,
methodologies and standard electronic interfaces that will allow intragovernmental transactions to be reported monthly into
the Air Force accounting system.

Stockpile Materials, Net
Not Applicable




                                                                                                                          49
                    General Fund
                    Notes to the Principal Statements




Note 10. General PP&E, Net

                                                                               2008                                                            2007

 As of September 30                    Depreciation/ 
                                            (Accumulated
                                                                                                                                            Prior FY Net 

                                       Amortization 
    Service Life     Acquisition Value       Depreciation/       Net Book Value
                                                                                                                                            Book Value

                                         Method                                                   Amortization)
 (Amounts in thousands)


 1. Major Asset Classes
     A. Land 	                               N/A              N/A 
       $       443,879                   N/A       $       443,879   $         437,150
     B. Buildings, Structures, and 	         S/L            20 or 40 
         49,696,527     $     -28,272,596            21,423,931          20,624,376
       Facilities
     C. Leasehold Improvements               S/L           lease term 
                  0                        0                 0                    0
     D. Software 	                           S/L            2-5 or 10
            517,377              -163,801               353,576             435,089
     E. General Equipment                    S/L             5 or 10
          36,802,784           -28,890,932             7,911,852           7,119,611
     F. Military Equipment                   S/L            Various
          257,051,494           -142,591,486          114,460,008        111,053,515
   G. Assets Under Capital Lease             S/L           lease term
            393,002              -303,111                89,891             109,749
   H. Construction-in-Progress               N/A              N/A
              4,087,234                   N/A             4,087,234           3,478,390
     I.	 Other                                                                           0                        0                 0                    0
     J. Total General PP&E                                                $   348,992,297     $    -200,221,926       $   148,770,371   $    143,257,880


 See Note 15 for additional information on Capital Leases


 S/L = Straight Line         N/A = Not Applicable

Relevant Information for Comprehension
General Property, Plant and Equipment (PP&E)
There are restrictions on the Air Force’s ability to dispose of real property (land and buildings) located outside the continen-
tal United States.

The Air Force estimates historical values for capitalized military equipment using departmental internal records.

Other Air Force Disclosures
The value of the Air Force’s General PP&E real property in the possession of contractors is included in the values reported
for the major asset classes of Land and Buildings, Structures, and Facilities. The value of General PP&E personal prop-
erty major asset class of Software and Equipment does not include all of the General PP&E above the DoD capitalization
threshold in the possession of contractors. The Air Force does not report the value of equipment purchased directly by the
contractor. The Government Accountability Ofﬁce, the Inspector General, DoD, and the Air Force are developing new poli-
cies and a contractor reporting process to capture General PP&E information for future reporting purposes in compliance
with generally accepted accounting principles.




50
                                                                                                           General Fund
                                                                                               Notes to the Principal Statements




Heritage Assets and Stewardship Land
The overall mission of Air Force is to ﬂy, ﬁght and win in air, space and cyberspace, inﬂuence events, and advance U.S.
interests across the full spectrum of military operations. As this mission has been executed, Air Force has become a large-
scale owner of historic buildings, structures, archaeological sites and artifacts, aircraft, other cultural resources, and stew-
ardship land. The protection of the nation’s heritage assets and stewardship land is an important aspect of the Air Force’s
mission.

Heritage Assets and Stewardship Land are resources that protect, restore, enhance, modernize, preserve and sustain mission
capability within the Air Force through effective planning and management of natural and cultural resources to guarantee
access to air, land, and water. These assets are resources that are managed to provide multiple use activities for the public
beneﬁt. This includes actions to comply with requirements such as federal laws, Executive Orders, policies, ﬁnal governing
standards, and other binding agreements.

Heritage Assets consist of buildings and structures, archaeological sites, museum collection items (objects, not including
ﬁne art), and museum collection items (ﬁne art). Stewardship Land consist of government owned land, state owned land,
withdrawn public land, license and permitted land, public land, land easement, in-lease land, and foreign land. The Air
Force has 7,592,000 acres of mission essential land under their administration. Stewardship decreased 108,000 acres in
FY 2008 because of a change in category reporting requirement. Speciﬁcally, certain category codes are now reported as
government owned land rather than withdrawn public land. Land purchased by the Air Force with the intent to construct
buildings or facilities is considered General PP&E and is reported on the balance sheet. All stewardship land, as reported,
is in acceptable condition, based on designated use.

Heritage Assets are PP&E of historical, natural, cultural, educational or artistic signiﬁcance (e.g. aesthetic); or with signiﬁ-
cant architectural characteristics. Air Force policy is to promote and preserve indeﬁnitely the identiﬁable human, environ-
mental or civic value of these assets.

Stewardship Land comprises land and land rights other than that acquired for or in connection with General PP&E, land
acquired via the public domain, or land acquired at no cost. Air Force policy is to promote and preserve indeﬁnitely the
identiﬁable human, environmental or civic value of such land.

Buildings and Structures: The Air Force considers 4,959 buildings and structures on Air Force bases and sites to be
heritage assets. In order to be considered a heritage asset, the building and/or facility must be listed, eligible, or potentially
eligible for the National Register. These buildings and structures are maintained by each base’s civil engineering group as
part of their overall responsibility.

Archaeological Sites: The Air Force has 1,930 archeological sites listed on or eligible for the National Register.

Museum Collection Items, Objects Not Including Fine Art: The Air Force has 117,134 museum collection items (not
including ﬁne art). During FY 2008, 4,009 objects have been added to the collection, primarily as a result of private dona-
tions or by being found on base.

Museum Collection Items, Fine Art: The Air Force has 9,370 ﬁne art museum collections. During FY 2008, 111 paint-
ings were received through donations.




                                                                                                                               51
                  General Fund
                  Notes to the Principal Statements




Assets Under Capital Lease

 As of September 30                                                        2008                           2007

 (Amounts in thousands)


 1. Entity as Lessee, Assets Under Capital Lease
     A. Land and Buildings                                         $                 393,002    $                   405,988
     B. Equipment                                                                          0                               0
     C. Accumulated Amortization                                                     -303,111                      -296,239
     D. Total Capital Leases                                       $                  89,891    $                   109,749


Relevant Information for Comprehension
The Air Force is the lessee in eight capital leases for military housing acquired through the Section 801 Family Housing
Program. The leases are capitalized and reported as an asset since their costs exceed the capitalization threshold of $100.0
thousand. The net value of assets under capital leases are scheduled to expire by 4th Quarter, FY 2015. The Air Force is not
acquiring any new capital leases.

Note 11. Liabilities Not Covered by Budgetary Resources
 As of September 30                                                        2008                           2007

 (Amounts in thousands)


 1. Intragovernmental Liabilities
     A. Accounts Payable                                           $                       0    $                          0
     B. Debt                                                                               0                               0
     C. Other                                                                        823,278                        512,987
     D. Total Intragovernmental Liabilities                        $                 823,278    $                   512,987
 2. Nonfederal Liabilities
     A. Accounts Payable                                           $                 394,075    $                   234,292
     B. Military Retirement and Other Federal Employment Beneﬁts                    1,158,232                     1,132,550
     C. Environmental Liabilities                                                   7,519,475                     6,093,809
     D. Other Liabilities                                                           3,033,988                     2,706,792
     E. Total Nonfederal Liabilities                               $               12,105,770   $                10,167,443
 3. Total Liabilities Not Covered by Budgetary Resources           $               12,929,048   $                10,680,430
 4. Total Liabilities Covered by Budgetary Resources                               10,646,178                    10,169,668
 5. Total Liabilities                                              $               23,575,226   $                20,850,098


Information Related to Liabilities Not Covered by Budgetary Resources
Liabilities Not Covered by Budgetary Resources are liabilities for which congressional action is needed before budgetary
resources can be provided.

The material amounts and sensitive areas included in Total Liabilities Not Covered by Budgetary Resources are categorized


52
                                                                                                                 General Fund
                                                                                                  Notes to the Principal Statements




as not covered because there is no current or immediate appropriation available for liquidation. These liabilities will be
included in future budget years as Liabilities Covered by Budgetary Resources. The Air Force fully expects to receive the
necessary resources to cover these liabilities in future years.

Other Intragovernmental Liabilities are primarily comprised of liabilities representing the amount of nonentity assets held
in a general receipt account or other U.S. Treasury account symbol for transfers to other entities, and the amount of the
Federal Employees’ Compensation Act (FECA) liability billed to the agency by Department of Labor for FECA payments
made on the agency’s behalf.

Other Nonfederal Liabilities are primarily comprised of the amounts recorded for unpaid leave earned to which an employ-
ee is entitled upon separation and for contingent liabilities which are probable and measurable and will require resources
funded from future years’ appropriations.

 Military Retirement and Other Federal Employment Beneﬁts not covered by budgetary resources are comprised of various
employee actuarial liabilities not due and payable during the current ﬁscal year. These liabilities, totaling $1.2 billion, are
primarily comprised of the amount recorded by employer agencies for the actuarial present value of future FECA beneﬁts
provided to Federal employees or their beneﬁciaries as a result of work related deaths, disability, or occupational disease.
Refer to Note 17, Military Retirement and Other Federal Employment Beneﬁts, for additional details and disclosures.

Note 12. Accounts Payable
                                                                           2008                                        2007
            As of September 30                                     Interest, Penalties, and
                                              Accounts Payable                                    Total                Total
                                                                     Administrative Fees
 (Amounts in thousands)


 1. Intragovernmental Payables            $            2,002,120   $                    N/A   $      2,002,120    $        1,509,630
 2. Nonfederal Payables (to the Public)                3,810,464                        471          3,810,935             3,189,763
 3. Total                                 $            5,812,584   $                    471   $      5,813,055    $        4,699,393


Relevant Information for Comprehension

The Air Force’s systems do not track intragovernmental transactions by customer at the transaction level. Therefore, inter-
nal DoD buyer-side balances are adjusted to agree with internal seller-side balances for revenue, accounts receivable, and
unearned revenue. Accounts Payable were reviewed on a case-by-case basis and adjusted to accrue additional payables and
expenses as appropriate.

In FY 2007, the Air Force recognized accounts payable balances of the Mechanization of Contract Administration Services
(MOCAS) system at gross value without reductions for partial and progress payments, and nonaccounts payable records.
The overstated balances for FY 2007 were undeterminable due to system limitations; therefore no corrections have been
made. Balances at FY 2008 are properly reported net of nonaccounts payable records, partial and progress payments of
$179.9 million.

Note 13. Debt
Not Applicable



                                                                                                                                 53
                General Fund
                Notes to the Principal Statements




Note 14. Environmental Liabilities and Disposal Liabilities

                                                                                           2008                                    2007
As of September 30                                                                       Noncurrent
                                                                   Current Liability                           Total               Total
                                                                                          Liability
(Amounts in thousands)


1. Environmental Liabilities—Nonfederal
  A. Accrued Environmental Restoration Liabilities
     1. Active Installations—Installation Restoration Program      $         524,720 $      3,100,857      $    3,625,577      $   3,793,045
        (IRP) and Building Demolition and Debris Removal (BD/DR)
     2. Active Installations—Military Munitions Response Program              22,849        1,369,593           1,392,442          1,397,049
        (MMRP)
     3. Formerly Used Defense Sites—IRP and BD/DR                                  0                  0                   0                   0
     4. Formerly Used Defense Sites—MMRP                                           0                  0                   0                   0
  B. Other Accrued Environmental Liabilities—Non BRAC
     1. Environmental Corrective Action                                       14,280          165,468            179,748             165,375
     2. Environmental Closure Requirements                                    21,750        1,108,139           1,129,889             87,363
     3. Environmental Response at Operational Ranges                               0                  0                   0                   0
     4. Asbestos                                                               7,099          421,503            428,602                      0
     5. Non-Military Equipment                                                 1,637              27,079           28,716                     0
     6. Other                                                                      0                  0                   0                   0
  C. Base Realignment and Closure Installations
     1. Installation Restoration Program                                     120,961        1,281,047           1,402,008          1,442,601
     2. Military Munitions Response Program                                      177               2,221               2,398               3,520
     3. Environmental Corrective Action / Closure Requirements                 2,137              35,783           37,920                  9,915
     4. Asbestos                                                                   0                  0                   0                   0
     5. Non-Military Equipment                                                     0                  0                   0                   0
     6. Other                                                                      0                  0                   0                   0
  D. Environmental Disposal for Military Equipment / Weapons
     Programs
     1. Nuclear Powered Military Equipment / Spent Nuclear Fuel                    0                  0                   0                   0
     2. Non-Nuclear Powered Military Equipment                                   217              38,858           39,075                     0
     3. Other National Defense Weapons Systems                                     0                  0                   0                   0
     4. Other                                                                      0                  0                   0                   0
  E. Chemical Weapons Disposal Program
     1. Chemical Agents and Munitions Destruction (CAMD)                           0                  0                   0                   0
     2. CAMD Assembled Chemical Weapons Assessment                                 0                  0                   0                   0
        (ACWA)
     3. Other                                                                      0                  0                   0                   0
2. Total Environmental Liabilities                                 $         715,827 $      7,550,548      $    8,266,375      $   6,898,868


Other Information Related to Environmental Liabilities
An environmental liability is a probable and measurable future outﬂow or expenditure of resources that exist as of the ﬁnan-
cial reporting date for environmental cleanup costs resulting from past transactions or events. The Air Force acknowledges



54
                                                                                                       General Fund
                                                                                           Notes to the Principal Statements




that liabilities can change for environmental cleanup costs to include (1) costs associated with environmental restoration of
sites funded under the Air Force portion of the Defense Environmental Restorations Program (DERP), (2) corrective actions
funded with other than DERP, Base Realignment and Closure (BRAC), and (3) environmental costs associated with future
closure or disposal of facilities, equipment, asbestos, and weapon systems. These costs include researching and determin-
ing the existence of hazardous waste, removing, containing, and/or disposing of hazardous waste from property, or material
and/or property that consist of hazardous waste at the time of shutdown or disposal of the asset. Cleanup costs may include,
but are not limited to, decontamination, decommissioning, site restoration, site monitoring, closure, and post closure costs
related to Air Force operations that result in hazardous waste.

Applicable Laws and Regulations for Cleanup Requirements
The Air Force is required to clean up contamination resulting from past waste disposal practices, leaks, spills and other
past activity, which has created a public human health or environmental risk. The Air Force does this in coordination with
regulatory agencies, and if applicable, with other responsible parties. The Air Force is also required to recognize closure,
post closure and disposal costs for its Property, Plant and Equipment (PP&E) and environmental corrective action costs for
current operations. The Air Force is responsible for tracking and reporting all required environmental information related
to environmental restoration and corrective action, closure and disposal costs of PP&E, and environmental costs related
to BRAC actions that have taken place in prior years. Examples of relevant laws and regulations that are considered for
discussion include:

      (a) Comprehensive Environmental Response, Compensation, and Liability Act (CERCLA)

      (b) Superfund Amendments and Reauthorization Act (SARA)

      (c) Clean Water Act (CWA)

      (d) Clean Air Act (CAA)

      (e) Resource Conservation and Recovery Act (RCRA)

      (f) Toxic Substances Control Act (TSCA)

      (g) Military Munitions Rule in 40 CFR 266.201, Deﬁnition of Solid Waste

The two laws with the majority of cost estimates for active environmental cleanup are CERCLA and RCRA.

Types of Environmental Liabilities Identiﬁed
The Air Force has environmental liabilities to cover cleanup requirements for active installations: Installation Restoration
Program (IRP), Building Demolition and Debris Removal (BD/DR), Military Munitions Response Program (MMRP), and
Environmental Corrective Action (ECA). The Air Force also has environmental liabilities to cover cleanup requirements
at BRAC installations. Finally, the Air Force has identiﬁed environmental liabilities for closure and disposal of PP&E to
include facilities, general equipment, asbestos, and weapon systems.

Methods for Assigning Estimated Total Cleanup Costs to Current Operating Periods
The Air Force uses engineering estimates and independently validated models to estimate environmental cleanup costs. The
models are either developed within the Remedial Action Cost Engineering Requirements application, or a historic compa-
rable project, a speciﬁc bid, or an independent government cost estimate is referenced for the current project. The Air Force


                                                                                                                          55
              General Fund
              Notes to the Principal Statements




validates the models in accordance with DoD Instruction 5000.61 and primarily uses the models to estimate environmental
cleanup costs based on data received during a preliminary assessment and initial site investigation. The Air Force primar-
ily uses engineering estimates after obtaining data during the remedial investigation/feasibility phase of the environmental
project.

Once the environmental cleanup cost estimates are complete, Air Force will comply with accounting standards to assign
costs to current operating periods for the unexpended obligations from prior periods and the future program. The Air Force
Accrued Environmental Restoration Liabilities is accounted for as a totally self contained program. All direct and indirect
costs of the program are captured and reported.

The Air Force has already expensed the costs for cleanup associated with General PP&E placed into service prior to
October 1, 1997, unless the costs are intended to be recovered through user charges. If the costs are recovered through user
charges, then the Air Force expenses the associated environmental cost systematically over the life of the asset.

The accounting standards also require environmental liabilities are recognized for closure and disposal requirements. The
Air Force has closure requirements or disposal liabilities at active installations. Closure and disposal liabilities for facili-
ties (including landﬁlls), asbestos, general equipment and weapon systems are estimated for the applicable inventory of real
property, general equipment and weapon systems. The Air Force uses a set of historical disposal factors to estimate the en-
vironmental disposal liability for each asset and the estimated closure and monitoring cost for landﬁlls. The current liability
for these classes of assets is determined from the related disposal programs including the resources expected to be expended
in the next year from prior and future budgets.

For General PP&E placed into service after September 30, 1997, the Air Force expenses the associated environmental costs
systematically over the life of the asset. The Air Force expenses the full cost to clean up contamination for Stewardship
PP&E at the time the asset is placed into service.

The Air Force uses two methods for systematic recognition: physical capacity for operating landﬁlls, and life expectancy in
years for all other assets.

Nature of Estimates and the Disclosure of Information Regarding Possible Changes due to Inﬂation,
Deﬂation, Technology, or Applicable Laws and Regulations
The Air Force is not aware of any pending changes to reported values of Environmental Liabilities. The Air Force does
understand that liabilities can change in the future due to changes in laws, regulations, and changes in agreements with
regulatory agencies.

Level of Uncertainty Regarding the Accounting Estimates used to Calculate the Reported Environ-
mental Liabilities
Environmental liabilities for Air Force are based on accounting estimates which require certain judgments and assumptions
to be made by management. The Air Force believes the estimates are reasonable based upon the information available at
the time of calculation. Actual results may vary materially from the accounting estimates if agreements with regulatory
agencies require remediation to a different degree than anticipated when the estimate was calculated. The liabilities can be
further impacted if further investigation discovers contamination different from that which was known at the time of the
estimate. The Air Force ﬁnancial statements would be affected to the extent there are material differences between these
estimates and actual costs. There are areas in which management judgment in selecting any available alternative could
produce a materially different result.



56
                                                                                                               General Fund
                                                                                                  Notes to the Principal Statements




In addition to the liabilities reported above, the Air Force has the potential to incur costs for restoration initiatives in con-
junction with returning overseas Defense facilities to host nations. The Air Force is unable to provide a reasonable estimate
at this time because the extent of restoration required is not known.

Environmental Disclosures
 As of September 30                                                                                2008                 2007
 (Amounts in thousands)


 A. The unrecognized portion of the estimated total cleanup costs associated with general     $           363,012   $          67,280
    property, plant, and equipment.
 B. Changes in total cleanup costs due to changes in laws, regulations, and/or technology.                223,300              -12,662
 C. Portion of the changes in estimated costs due to changes in laws and technology that is
    related to prior periods.                                                                             -34,978               -4,357

The unrecognized portion of the total cleanup is the estimated total cleanup cost less the amount that is recognized on the
ﬁnancial statements.

Changes in environmental regulations and cleanup standards resulted in a reduction of total cleanup costs.




                                                                                                                                   57
                  General Fund
                  Notes to the Principal Statements




Note 15. Other Liabilities 

                                                                                      2008                                 2007
 As of September 30                                           Current               Noncurrent
                                                                                                         Total             Total
                                                              Liability              Liability
 (Amounts in thousands)


 1. Intragovernmental
     A. Advances from Others                              $         694,789     $                0   $      694,789    $           882,243
     B. Deposit Funds and Suspense Account Liabilities              371,200                      0          371,200                290,441
     C. Disbursing Ofﬁcer Cash                                      297,209                      0          297,209                293,933
     D. Judgment Fund Liabilities                                          0                     0                0                     0
     E. FECA Reimbursement to the Department of Labor               130,059              171,153            301,212                295,090
     F. Custodial Liabilities                                              0             194,800            194,800                187,038
     G. Employer Contribution and Payroll Taxes Payable              63,176                      0           63,176                 53,138

     H. Other Liabilities                                            30,399                      0           30,399                 31,443

     I. Total Intragovernmental Other Liabilities         $       1,586,832     $        365,953     $    1,952,785    $      2,033,326

 2. Nonfederal
     A. Accrued Funded Payroll and Beneﬁts                $       2,032,464     $                0   $    2,032,464    $      2,066,760
     B. Advances from Others                                        136,825                      0          136,825                  9,980
     C. Deferred Credits                                                   0                     0                0                     0
     D. Deposit Funds and Suspense Accounts                         101,064                      0          101,064                 95,073
     E. Temporary Early Retirement Authority                               0                     0                0                     0
     F. Nonenvironmental Disposal Liabilities
       1. Military Equipment (Nonnuclear)                                  0                     0                0                     0
       2. Excess/Obsolete Structures                                       0                     0                0                     0
       3. Conventional Munitions Disposal                                  0                     0                0                     0
     G. Accrued Unfunded Annual Leave                             2,272,149                      0        2,272,149           2,250,677
     H. Capital Lease Liability                                            0             130,091            130,091                157,725
     I. Contract Holdbacks                                          131,506                      0          131,506                164,211
     J. Employer Contribution and Payroll Taxes Payable             297,742                      0          297,742                286,014
     K. Contingent Liabilities                                      533,208              744,245          1,277,453           1,044,352
     L. Other Liabilities                                                 303                    0               303                 6,704
     M. Total Nonfederal Other Liabilities                $       5,505,261     $        874,336     $    6,379,597    $      6,081,496
 3. Total Other Liabilities                               $       7,092,093     $       1,240,289    $    8,332,382    $      8,114,822


Relevant Information for Comprehension
The amount of Intragovernmental Other Liabilities represent Government contributions for employee beneﬁts, unemploy-
ment compensation, education beneﬁts, and custodial liabilities.



58
                                                                                                      General Fund
                                                                                          Notes to the Principal Statements




The amount of Nonfederal Other Liabilities represent legal contingencies, employee beneﬁts, and contract holdbacks.

Contingent Liabilities include $533.2 million in estimated future contract ﬁnancing payments that will be paid to contrac-
tors upon delivery and Government acceptance, $152.5 million in Contingent Liabilities nonfederal for open contractor
claims greater than $100.0 thousand, and $591.7 million for claims and litigation against the Air Force handled by the Civil
Law and Litigation Directorate. The nature and estimating methodology related to these liabilities are discussed further in
Note 16.

Contractor claims are updated annually because there are only marginal changes.

Estimation Methodology
The Air Force General Counsel, through legal determination assesses and categorizes all contingent legal liability cases 

that equal or exceed the materiality threshold set by Department of Defense Inspector General (DoDIG). For the remaining 

cases falling below the dollar materiality threshold set by DoDIG, they are considered in aggregate, if the total amount of 

the cases equal or exceed the established materiality threshold. 


The Air Force General Counsel also solicits case data through quarterly data calls from the Air Force JAC (Judge Advocate 

Civil Lawsuits and Litigation Directorate). Air Force ﬁnancial management personnel use the solicited case data which 

includes the current reporting year and each of the prior two years to estimate the amounts of probable and reasonably pos-
sible contingent liabilities.


Air Force ﬁnancial management personnel use a three year prior case analysis spreadsheet which was developed by the 

Air Force Audit Agency to calculate and estimate the amount of contingent liabilities (probable and reasonably possible) 

for reporting or disclosing in the quarterly ﬁnancial statements. In cases where Air Force General Counsel discloses that a 

judgment has been awarded against the Air Force, these amounts will be reported on the Balance Sheet and within this note. 





                                                                                                                         59
                 General Fund
                 Notes to the Principal Statements




Capital Lease Liability

                                                                                   2008                                    2007
                                                                              Asset Category
As of September 30
                                                          Land and
                                                                          Equipment        Other           Total           Total
                                                          Buildings
(Amounts in thousands)


1. Future Payments Due
  A. 2008                                             $               0   $        0   $           0   $           0   $            38,594
  B. 2009                                                      38,478              0               0         38,478                 38,478
  C. 2010                                                      38,478              0               0         38,478                 38,478
  D. 2011                                                      36,786              0               0         36,786                 36,786
  E. 2012                                                      13,088              0               0         13,088                 13,088
  F. 2013                                                         9,462            0               0          9,462                     0
  G. After 5 Years                                             17,376              0               0         17,376                 26,838
  H. Total Future Lease Payments Due                  $       153,668     $        0   $           0   $    153,668    $           192,262
  I. Less: Imputed Interest Executroy Costs                    23,577              0               0         23,577                 34,537
  J. Net Capital Lease Liability                      $       130,091     $        0   $           0   $    130,091    $           157,725
2. Capital Lease Liabilities Covered by Budgetary Resources                                            $    112,801    $           135,750
3. Capital Lease Liabilities Not Covered by Budgetary Resources                                        $     17,289    $            21,975




 60
                                                                                                        General Fund
                                                                                            Notes to the Principal Statements




Note 16. Commitments and Contingencies
Relevant Information for Comprehension
The Air Force is a party in various administrative proceedings and legal actions, with claims that encompass environmental
damage claims, equal opportunity matters, and contractual bid protests. We are not aware of any contingent liabilities for
legal actions.

The Air Force has accrued contingent liabilities for legal actions where our Ofﬁce of the General Counsel considers an ad-
verse decision probable and the amount of loss is measurable. In the event of an adverse judgment against the Government,
some of the liabilities may be payable from the Judgment Fund. The Air Force records Judgment Fund liabilities in Note
12, “Accounts Payable,” and Note 15, “Other Liabilities.”

Contractor claims having a reasonably possible liability is estimated at $26.1 million. Claims and litigation from Civil Law
having a reasonably possible liability is estimated at $3.3 billion. Neither past payments nor the current contingent liability
estimate provides a basis for accurately projecting the results of any individual lawsuit or claim. Since monetary judgments
paid to civil litigants come from a judgment fund administrated by U.S. Treasury, it is uncertain that claims will become a
liability to the Air Force.

The amounts disclosed for litigation claims and assessments are fully supportable and agree with Air Force’s legal represen-
tation letters and management summary schedule.

The amount of undelivered orders for open contracts citing cancelled appropriations which remain unﬁlled or unreconciled
for which the Air Force may incur a contractual commitment for payment is $766.4 million.

The Air Force is a party in numerous individual contracts that contain clauses, such as price escalation, award fee payments,
or dispute resolution, that may or may not result in a future outﬂow of expenditures. Currently, Air Force does not have a
systemic process by which it captures or assesses these potential contingent liabilities; therefore, the amounts reported may
not fairly present the Air Force’s contingent liabilities.

The estimated probable liability amount of $1.3 billion was recognized in Note 15 as contingent liabilities.

The recognized contingent liability includes $533.2 million in estimated future contract ﬁnancing payments that will be paid
to contractors upon delivery and Government acceptance. In accordance with contract terms, speciﬁc rights to the contrac-
tor’s work vests with the Government when a speciﬁc type of contract ﬁnancing payment is made. This action protects tax-
payer funds in the event of contract nonperformance. These rights should not be misconstrued as the rights of ownership.
The Air Force is under no obligation to pay the contractor for amounts greater than the amounts authorized in the contract
until delivery and Government acceptance. Because it is probable that the contractor will complete its efforts and deliver a
satisfactory product to the Air Force and the amount of potential future payments is estimable; the Air Force has recognized
a contingent liability for estimated future payments, which are conditional pending delivery and Government acceptance.

The recognized contingent liability also includes the recorded estimated probable liability amount of $152.5 million for
open contractor claims greater than $100.0 thousand. At this time, these claims are not in appeal or in litigation. In addi-
tion to the contractor claims under appeal and the open contractor claims for an amount greater than $100.0 thousand, the
Air Force was party to numerous other contractor claims in amounts less than $100.0 thousand per claim. These claims
are a routine part of the contracting business and are typically resolved through mutual agreement between the contracting
ofﬁcer and the contractor. Because of the routine nature of these claims, no requirement exists for a consolidated tracking
mechanism to record the amount of each claim, the number of open claims, or the probability of the claim being settled in


                                                                                                                            61
              General Fund
              Notes to the Principal Statements




favor of the claimant. The potential liability arising from these claims in aggregate would not materially affect the opera-
tions or ﬁnancial condition of the Air Force.

In addition, Air Force recognized the total estimated probable liability for claims and litigation against the Air Force han-
dled by the Civil Law and Litigation Directorate, as of September 30, 2008, valued at $591.7 million included in Contin-
gent Liabilities nonfederal. As of September 30, 2008, the Air Force was party to 16,787 claims and litigation actions. This
liability dollar amount recorded in the ﬁnancial statements is an estimate based on the weighted average payout rate for the
previous three years. There are only two types of cases where U.S. Treasury will seek reimbursements from the affected
agency, the Contract Dispute Act cases and select Federal Government personnel disciplinary matters.

The Air Force General Counsel developed the estimating methodology for the contingent liabilities recognized in Note 15.
Through legal determination, the Air Force General Counsel assessed and categorized all contingent legal liability cases
that equal or exceed the materiality threshold set by Department of Defense Inspector General (DoDIG). For the remaining
cases falling below the dollar materiality threshold set by DoDIG, they are considered in aggregate, if the total amount of
the cases equal or exceed the established materiality threshold.

The Air Force General Counsel also solicited case data through quarterly data calls from the Air Force JAC (Judge Ad-
vocate Civil Lawsuits and Litigation Directorate). Air Force ﬁnancial management personnel used the solicited case data
which included the current reporting year and each of the prior two years to estimate the amounts of probable and reason-
ably possible contingent liabilities.

Air Force ﬁnancial management personnel used a three year prior case analysis spreadsheet which was developed by the
Air Force Audit Agency to calculate and estimate the amount of contingent liabilities (probable and reasonably possible)
for reporting or disclosing in the quarterly ﬁnancial statements. In cases where Air Force General Counsel disclosed that a
judgement has been awarded against the Air Force, these amounts were reported on the Balance Sheet and within Note 15.




62
                                                                                                                  General Fund
                                                                                                 Notes to the Principal Statements




Note 17. Military Retirement and Other Federal Employment Beneﬁts


                                                                                     2008                                           2007

 As of September 30                                                      Assumed       (Less: Assets
                                                                                                            Unfunded
                                                       Liabilities        Interest      Available to                              Liabilities
                                                                                                            Liabilities
                                                                         Rate (%)      Pay Beneﬁts)
 (Amounts in thousands)


 1. Pension and Health Actuarial Beneﬁts
   A. Military Retirement Pensions                 $                 0                $            0    $                 0   $                 0
   B. Military Retirement Health Beneﬁts                             0                             0                      0                     0
   C. Military Medicare-Eligible Retiree Beneﬁts                     0                             0                      0                     0
   D. Total Pension and Health Actuarial Beneﬁts   $                 0                 $           0    $                 0   $                 0
 2. Other Actuarial Beneﬁts
   A. FECA                                                1,158,232                                0          1,158,232              1,132,550
   B. Voluntary Separation Incentive Programs                        0                             0                      0                     0
   C. DoD Education Beneﬁts Fund                                     0                             0                      0                     0
   D. Total Other Actuarial Beneﬁts                $      1,158,232                    $           0    $     1,158,232       $      1,132,550
 3. Other Federal Employment Beneﬁts                           5,182                           -5,182                     0              4,466
 4. Total Military Retirement and Other Federal
    Employment Beneﬁts:                            $      1,163,414                    $       -5,182   $     1,158,232       $      1,137,016


Relevant Information for Comprehension
The Federal Employees’ Compensation Act (FECA) liability is determined using a method that utilizes historical beneﬁt
payment patterns to predict the ultimate payments. The projected annual beneﬁt payments are then discounted to present
value using the Ofﬁce of Management and Budget’s economic assumptions for 10-year U.S. Treasury notes and bonds.

Interest rate assumptions utilized for discounting were as follows:

                                                              2008

                                                       4.368% in Year 1
                                                       4.770% in Year 2
                                                        And thereafter

To adjust more speciﬁcally for the effects of inﬂation on the liability for future workers’ compensation beneﬁts, wage inﬂa-
tion factors (Cost of Living Adjustments (COLAs)) and medical inﬂation factors (Consumer Price Index Medical (CPIMs))
were applied to the calculation of projected future beneﬁts. The actual rates for these factors for the charge back year
(CBY) 2007 were also used to adjust the methodology’s historical payments to current year constant dollars.




                                                                                                                                                63
                  General Fund
                  Notes to the Principal Statements




The compensation COLAs and CPIMs used in the projections for various CBYs were as follows:

                                                      CBY      COLA        CPIM
                                                      2008     3.03%       4.71%
                                                      2009     3.87%       4.01%
                                                      2010     2.73%       3.86%
                                                      2011     2.20%       3.87%
                                                      2012     2.23%       3.93%
                                                      2013 +   2.30%       3.93%

The model’s resulting projections were analyzed to ensure that the estimates were reliable. The analysis was based on four
tests: (1) a sensitivity analysis of the model to economic assumptions, (2) a comparison of the percentage change in the li-
ability amount by agency to the percentage change in the actual incremental payments, (3) a comparison of the incremental
paid losses per case (a measure of case-severity) in CBY 2007 to the average pattern observed during the most current three
charge back years, and (4) a comparison of the estimated liability per case in the FY 2007 projection to the average pattern
for the projections of the most recent three years.

The Air Force’s actuarial liability for workers’ compensation beneﬁts is developed and provided by Department of Labor at
the end of each ﬁscal year. There is no change on a quarterly basis. A comparison of 4th Quarter, FY 2008, and 4th Quarter,
FY 2007, disclosed a minor change.

Programs for which actuarial beneﬁts are computed include FECA, the expected liability for death, disability, medical, and
miscellaneous costs for approved compensation cases, plus a component for incurred but unreported claims.

Other Federal Employment Beneﬁts is comprised of additional post employment beneﬁts due and payable to military per-
sonnel.

Note 18. General Disclosures Related to the Statement of Net Cost
 Intragovernmental Costs and Exchange Revenue
                                                                                   2008                      2007
 As of September 30
 (Amounts in thousands)


 1. Intragovernmental Costs                                            $                   33,664,673   $        30,577,467
 2. Public Costs                                                                          114,425,085           111,884,904
 3. Total Costs                                                        $                  148,089,758   $       142,462,371
 4. Intragovernmental Earned Revenue                                   $                   -4,937,405   $           -4,571,324
 5. Public Earned Revenue                                                                    -938,303               -1,144,216
 6. Total Earned Revenue                                               $                   -5,875,708   $           -5,715,540
 7. Net Cost of Operations                                             $                  142,214,050   $       136,746,831




64
                                                                                                          General Fund
                                                                                              Notes to the Principal Statements




Relevant Information for Comprehension
Intragovernmental costs and revenue are related to transactions made between two reporting entities within the Federal
Government.

Public costs and revenues are exchange transactions made between the reporting entity and a nonfederal entity.

The Air Force’s systems do not track intragovernmental transactions by customer at the transaction level. Therefore, inter-
nal DoD buyer-side balances are adjusted to agree with internal seller-side balances for revenue. Expenses were adjusted
by accruing additional accounts payable and expenses as appropriate.

The Statement of Net Cost (SNC) represents the net cost of programs and organizations of the Federal Government sup-
ported by appropriations or other means. The intent of SNC is to provide gross and net cost information related to the
amount of output or outcome for a given program or organization administered by a responsible reporting entity. The Air
Force current processes and systems do not capture and report accumulated costs for major programs based upon the perfor-
mance measures as required by the Government Performance and Results Act. The Air Force is in the process of reviewing
available data and developing a cost reporting methodology as required by the Statement of Federal Financial Accounting
Standards (SFFAS) No. 4, “Managerial Cost Accounting Concepts and Standards for the Federal Government.”

The amounts presented in this statement are based on budgetary obligations, disbursements and collection transactions, as
well as nonﬁnancial feeder systems that were adjusted to record known accruals for major items such as; payroll expenses,
accounts payable, and environmental liabilities and may not meet accounting standards.

The Air Force’s accounting systems do not capture information relative to heritage assets separately and distinctly from
normal operations.

Note 19. Disclosures Related to the Statement of Changes in Net Position
Relevant Information for Comprehension
The Appropriations Received line item on the Statement of Changes in Net Position (SCNP) differs from that reported on
the Statement of Budgetary Resources (SBR) because Appropriations Received on SCNP does not include appropriated
dedicated and earmarked receipts. Dedicated and earmarked receipts are accounted for as either nonexchange revenue or
donations and forfeitures of cash and cash equivalents. This resulted in a $3.6 million difference due to additional resources
included in the Appropriation Received on the SBR. Refer to Note 20 for additional details.

The eliminations column on SCNP will reﬂect zero dollars. In the SCNP, all offsetting balances (i.e. transfers-in and
transfers-out, revenues, and expense) for intradepartmental activity between earmarked and other (nonearmarked) funds
are reported on the same lines. This results in an eliminations column, which appears to contain no balances. In reality,
the column contains all appropriate elimination entries, but all net to zero within each respective line, except for intraentity
imputed ﬁnancing costs.




                                                                                                                              65
                 General Fund
                 Notes to the Principal Statements




Note 20. Disclosures Related to the Statement of Budgetary Resources

 As of September 30                                                                            2008                    2007
 (Amounts in thousands)


 1. Net Amount of Budgetary Resources Obligated for Undelivered Orders at the End         $       70,594,923   $            64,119,346
     of the Period
 2. Available Borrowing and Contract Authority at the End of the Period                                   0                         0

Apportionment Categories
Funds are apportioned by three categories: (1) Category A is apportioned quarterly, (2) Category B is apportioned by activ-
ity or project, and (3) Exempt are funds not subject to apportionment. The amounts of direct and reimbursable obligations
incurred are stated in the table.

                                               Category A                         Category B                       Exempt
 Direct                              $86.9 billion                        $68.1 billion                $2.1 million
 Reimbursable                        $6.4 billion                         $4.0 billion                 $10.0 million

Intraentity Transactions
The Statement of Budgetary Resources (SBR) includes intraentity transactions because the statements are presented as
combined.

Permanent Indeﬁnite Appropriations
Permanent indeﬁnite appropriations are as follows (reference Note 23 for additional information):

        y Department of the Air Force General Gift Fund [10 USC 2601(b)]
        y Wildlife Conservation Fund [16 USC 670(a)]
        y Air Force Cadet Fund [37 USC 725(s)]

Legal limitations and time restrictions on the use of unobligated appropriation balances such as upward adjustments are
provided under Public Law.

Appropriations Received
The Appropriations Received line item on the Statement of Changes in Net Position differs from that reported on SBR
because Appropriations Received on the Statement of Changes in Net Position do not include dedicated appropriations and
earmarked receipts. Dedicated appropriations and earmarked receipts are accounted for as either nonexchange revenue or
donations and forfeitures of cash and cash equivalents. This resulted in a $3.6 million difference.




66
                                                                                                               General Fund
                                                                                                   Notes to the Principal Statements


Note 21. Reconciliation of Net Cost of Operations to Budget
As of September 30                                                                     2008                          2007
(Amounts in thousands)

Resources Used to Finance Activities:
Budgetary Resources Obligated:
1. Obligations incurred                                                            $          165,397,504 $                 156,973,842
2. Less: Spending authority from offsetting collections and recoveries (-)                    -14,551,339                   -14,269,297
3. Obligations net of offsetting collections and recoveries                        $          150,846,165 $                 142,704,545
4. Less: Offsetting receipts (-)                                                                 -201,497                      -140,980
5. Net obligations                                                                 $          150,644,668 $                 142,563,565
Other Resources:
6. Donations and forfeitures of property                                                                0                             0
7. Transfers in/out without reimbursement (+/-)                                                   322,962                       261,389
8. Imputed ﬁnancing from costs absorbed by others                                                 628,882                       724,671
9. Other (+/-)                                                                                  1,323,184                    -1,265,895
10. Net other resources used to ﬁnance activities                                  $            2,275,028 $                    -279,835
11. Total resources used to ﬁnance activities                                      $          152,919,696 $                 142,283,730
Resources Used to Finance Items not Part of the Net Cost of Operations:
12. Change in budgetary resources obligated for goods, services and beneﬁts
    ordered but not yet provided:
    A. Undelivered Orders (-)                                                      $           -6,483,468 $                  -7,144,892
    B. Unﬁlled Customer Orders                                                                   -161,014                       627,428
13. Resources that fund expenses recognized in prior Periods (-)                                  -86,602                      -801,933
14. Budgetary offsetting collections and receipts that do not affect Net Cost of                  201,497                       140,978
    Operations
15. Resources that ﬁnance the acquisition of assets (-)                                       -18,749,096                   -15,504,535
16. Other resources or adjustments to net obligated resources that do not
    affect Net Cost of Operations:
    A. Less: Trust or Special Fund Receipts Related to exchange in the                                 0                               0
        Entity’s Budget (-)
    B. Other (+/-)                                                                             -1,646,144                     1,004,509
17. Total resources used to ﬁnance items not part of the Net Cost of
    Operations                                                                     $          -26,924,827 $                 -21,678,445
18. Total resources used to ﬁnance the Net Cost of Operations                      $          125,994,869 $                 120,605,285
Components of the Net Cost of Operations that will not Require or
Generate Resources in the Current Period:
Components Requiring or Generating Resources in Future Period:
19. Increase in annual leave liability                                             $               75,316 $                      3,809
20. Increase in environmental and disposal liability                                            1,367,508                      343,915
21. Upward/Downward reestimates of credit subsidy expense (+/-)                                         0                            0
22. Increase in exchange revenue receivable from the public (-)                                         0                            0
23. Other (+/-)                                                                                   533,952                       84,400
24. Total components of Net Cost of Operations that will Require or Generate       $            1,976,776 $                    432,124
    Resources in future periods
Components not Requiring or Generating Resources:
25. Depreciation and amortization                                                  $           11,551,854 $                  11,977,009
26. Revaluation of assets or liabilities (+/-)                                                  4,323,066                     1,429,657
27. Other (+/-)
    A. Trust Fund Exchange Revenue                                                                      0                             0
    B. Cost of Goods Sold                                                                               0                             0
    C. Operating Material and Supplies Used                                                    22,597,444                    25,927,617
    D. Other                                                                                  -24,229,959                   -23,624,862
28. Total Components of Net Cost of Operations that will not Require or            $           14,242,405 $                  15,709,421
    Generate Resources
29. Total Components of Net Cost of Operations that will not Require or
    Generate Resources in the current period                                       $           16,219,181 $                  16,141,545
30. Net Cost Operations                                                            $          142,214,050 $                 136,746,830




                                                                                                                                    67
              General Fund
              Notes to the Principal Statements




Relevant Information for Comprehension
Due to Air Force ﬁnancial system limitations, budgetary data is not in agreement with proprietary expenses and assets
capitalized. An adjustment of $519.7 million was made to the note schedule, in the Other Components Not Requiring or
Generating Resources category, to bring it into balance with the Statement of Net Cost. The difference between budgetary
and proprietary data is a previously identiﬁed deﬁciency.

The following note schedule lines are presented as combined instead of consolidated due to intraagency budgetary transac-
tions not being eliminated:

      y Obligations Incurred
      y Less: Spending Authority from Offsetting Collections and Recoveries
      y Obligations Net of Offsetting Collections and Recoveries
      y Less: Offsetting Receipts
      y Net Obligations
      y Undelivered Orders
      y Unﬁlled Customer Orders

Other Resources Used to Finance Activities consist of other gains and losses to adjust intragovernmental transfers in.


Other Resources Used to Finance Items Not Part of the Net Cost of Operations include adjustments to net obligated re-
sources that do not affect the Net Cost of Operations such as net transfers in and transfers out without reimbursement, and 

other gains and losses to adjust intragovernmental transfers in. 


Other Components Requiring or Generating Resources in Future Period consist of expenses due to Air Force active military 

personnel, expenses of Operations and Maintenance, and for family housing expense.


Other Components not Requiring or Generating Resources include expense for Operations and Maintenance, Research 

Development Test and Evaluation, Military Construction, Family Housing, and Military Personnel Expense.


Note 22. Disclosures Related to Incidental Custodial Collections
The Air Force collected $23.4 million of incidental custodial revenues generated primarily from collection of accounts
receivable in cancelled accounts. The Air Force distributed $23.4 million to the U.S. Treasury.




68
                                                                                                            General Fund
                                                                                               Notes to the Principal Statements




Note 23. Earmarked Funds
                                                                                    2008
                                                           Medicare Eligible
            BALANCE SHEET                    Military                           Other Earmarked
                                                          Retiree Health Care                        Eliminations       Total
           As of September 30           Retirement Fund                              Funds
                                                                 Fund
(Amounts in thousands)

ASSETS
Fund balance with Treasury              $             0   $                 0   $           8,260    $          0   $       8,260
Investments                                           0                     0                 874               0               874
Accounts and Interest Receivable                      0                     0                   1               0                  1
Other Assets                                          0                     0                   4               0                  4
Total Assets                            $             0   $                 0   $           9,139    $          0   $       9,139


   LIABILITIES AND NET POSITION
         As of September 30

Military Retirement Beneﬁts and Other   $             0   $                 0   $               0    $          0   $            0
Federal Employment Beneﬁts
Other Liabilities                                     0                     0               3,784               0           3,784
Total Liabilities                       $             0   $                 0   $           3,784    $          0   $       3,784
Unexpended Appropriations               $             0   $                 0   $               0    $          0   $              0
Cumulative Results of Operations                      0                     0               5,355               0           5,355
Total Liabilities and Net Position      $             0   $                 0   $           9,139    $          0   $       9,139


      STATEMENT OF NET COST
         As of September 30

Program Costs                           $             0   $                 0   $          12,867    $          0   $      12,867

Less Earned Revenue                                   0                     0              -10,044              0         -10,044

Net Program Costs                       $             0   $                 0   $           2,823    $          0   $       2,823
Less Earned Revenues Not Attributable
to Programs                                           0                     0                   0               0                  0
Net Cost of Operations                  $             0   $                 0   $           2,823    $          0   $       2,823


  STATEMENT OF CHANGES IN NET
            POSITION
        As of September 30

Net Position Beginning of the Period    $             0   $                 0   $           4,549    $          0   $       4,549
Net Cost of Operations                                0                     0               2,823               0           2,823
Budgetary Financing Sources                           0                     0               3,629               0           3,629
Other Financing Sources                               0                     0                   0               0                  0
Change in Net Position                  $             0   $                 0   $             806    $          0   $           806
Net Position End of Period              $             0   $                 0   $           5,355    $          0   $       5,355



                                                                                                                                 69
              General Fund
              Notes to the Principal Statements




Earmarked Funds
Department of the Air Force General Gift Fund [10 USC 2601 (b)]
The Department of the Air Force General Gift Fund accepts, holds, and administers any gift, device, or bequest of real
or personal property, made on the condition that it is used for the beneﬁt (or in connection with the establishment, main-
tenance, or operation) of a school, hospital, library, museum, or cemetery under the Air Force’s jurisdiction. The fund is
available to such institutions or organizations subject to the terms of the gift, device, or bequest.

Conditional gifts are invested in U.S. Treasury securities, and any interest earned on these securities is added back into the
fund.

Wildlife Conservation Fund [16 USC 670 (a)]
The Wildlife Conservation Fund provides for (1) the conservation and rehabilitation of natural resources on military instal-
lations, (2) the sustainable multipurpose use of the resources which include hunting, ﬁshing, trapping, and nonconsump-
tive uses, and (3) the public access to military installations to facilitate its use, subject to safety requirements and military
security. The fund is available to carry out these programs and other such expenses that may be necessary for the purpose
of the cited statute.

Consisting of both appropriated and nonappropriated funding, this fund gives installation commanders the authority to col-
lect fees from the sale of hunting and ﬁshing permits.

Air Force Cadet Fund [37 USC 725 (s)]
The Air Force Cadet Fund is maintained for the beneﬁt of Air Force Academy cadets. Disbursements are made for the per-
sonal services of cadets such as laundry, arts, and athletics while collections are received from the same cadets at least equal
to any disbursements made.

The Air Force Cadet Fund is classiﬁed as a special fund, the Air Force General Gift Fund and Wildlife Conservation Fund
are trust funds. All three funds utilize receipt and expenditure accounts in accounting for and reporting the funds.




70
                                                                                                            General Fund
                                                                                               Notes to the Principal Statements




                                                                                    2007
                                                           Medicare Eligible
            BALANCE SHEET                    Military                           Other Earmarked
                                                          Retiree Health Care                        Eliminations        Total
           As of September 30           Retirement Fund                              Funds
                                                                 Fund
(Amounts in thousands)

ASSETS
Fund balance with Treasury              $             0   $                 0   $           7,964    $          0    $       7,964
Investments                                           0                     0                 823               0                823
Accounts and Interest Receivable                      0                     0                   2               0                  2
Other Assets                                          0                     0                   5               0                  5
Total Assets                            $             0   $                 0   $           8,794    $          0    $       8,794


   LIABILITIES AND NET POSITION
         As of September 30

Military Retirement Beneﬁts and Other   $             0   $                 0   $               0    $          0    $            0
Federal Employment Beneﬁts
Other Liabilities                                     0                     0               4,246           -1,930           2,316
Total Liabilities                       $             0   $                 0   $           4,246    $      -1,930   $       2,316
Unexpended Appropriations               $             0   $                 0   $               0    $          0    $             0
Cumulative Results of Operations                      0                     0               4,548               0            4,548
Total Liabilities and Net Position      $             0   $                 0   $           8,794    $      -1,930   $       6,864


      STATEMENT OF NET COST
         As of September 30

Program Costs                           $             0   $                 0   $          16,632    $          0    $      16,632

Less Earned Revenue                                   0                     0              -13,867              0          -13,867

Net Program Costs                       $             0   $                 0   $           2,765    $          0    $       2,765
Less Earned Revenues Not Attributable
to Programs                                           0                     0                   0               0                  0
Net Cost of Operations                  $             0   $                 0   $           2,765    $          0    $       2,765


  STATEMENT OF CHANGES IN NET
            POSITION
        As of September 30

Net Position Beginning of the Period    $             0   $                 0   $           4,540    $          0    $       4,540
Net Cost of Operations                                0                     0               2,765               0            2,765
Budgetary Financing Sources                           0                     0               2,773               0            2,773
Other Financing Sources                               0                     0                   0               0                  0
Change in Net Position                  $             0   $                 0   $               8    $          0    $             8
Net Position End of Period              $             0   $                 0   $           4,548    $          0    $       4,548




                                                                                                                                  71
                   General Fund
                   Notes to the Principal Statements




 Note 24. Other Disclosures
                                                                                           2008
     As of September 30                                                               Asset Category
                                                       Land and Buildings       Equipment           Other             Total
     (Amounts in thousands)
     1. ENTITY AS LESSEE-Operating Leases
     Future Payments Due
     Fiscal Year
     2009                                              $           55,633   $               0   $       103,258   $       158,891
     2010                                                          46,580                   0           108,421           155,001
     2011                                                          43,516                   0           113,842           157,358
     2012                                                          44,386                   0           119,535           163,921
     2013                                                          46,180                   0           125,511           171,691
     After 5 Years                                                 49,006                   0           131,787           180,793
     Total Future Lease Payments Due                   $          285,301   $               0   $       702,354   $       987,655


 Relevant Information for Comprehension
 Leases in the land and buildings category include costs for operating leased housing facilities for the active Air Force in
 the United States and overseas. Section 801 Family Housing Program leases are not included in this category.

 Other leases consist of Air Force vehicle leases from the General Services Administration and commercial lessors
 located in Europe, Southwest Asia, and the United States.

 Note 25. Restatements
 Not Applicable




72
General Fund
Fiscal Year 2008

Required Supplementary 

Stewardship Information





                           73
               General Fund
               Required Supplementary Stewardship Information




STEWARDSHIP INVESTMENTS
Stewardship investments are substantial investments made by DoD for the long-term beneﬁt of the nation and public,
but are not physical assets owned by DoD. Stewardship investments include expenses incurred for federally ﬁnanced,
but not federally owned, physical property (Nonfederal Physical Property) and federally ﬁnanced research and develop-
ment (Research and Development).

NONFEDERAL PHYSICAL PROPERTY
Nonfederal Physical Property investments are expenses included in calculating net cost incurred by the reporting entity
for the purchase, construction or major renovation of physical property owned by state and local governments. The ex-
penses include the costs identiﬁed for major additions, alterations and replacements, purchases of major equipment, and
purchases or improvements of other nonfederal assets. In addition, Nonfederal Physical Property Investments include
federally-owned physical property transferred to state and local governments.

                                         NONFEDERAL PHYSICAL PROPERTY
                                    Yearly Investment in State and Local Governments
                                     For the Current and Four Preceding Fiscal Years
                                                  (Amounts in millions)
 Categories                                 2008            2007             2006              2005             2004
 1. Transferred Assets:                 $      0      $         0       $        0        $        0        $      0
    National Defense Mission Related

 2. Funded Assets:                           19.6               2.8             8.5               8.3             18.3
     National Defense Mission Related
 Totals                                 $    19.6     $         2.8     $       8.5       $       8.3       $     18.3


The Air National Guard investments in Nonfederal Physical Property are strictly through the Military Construction
Cooperative Agreements (MCCAs). These agreements involve the transfer of money only and allow joint participation
with States, Counties, and Airport Authorities for construction or repair of airﬁeld pavements and facilities required to
support the ﬂying mission assigned at these civilian airﬁelds.

Investment values included in this report are based on Nonfederal Physical Property outlays (expenditures). Outlays are
used because current DoD systems are unable to capture and summarize costs in accordance with the Federal GAAP
requirements.

RESEARCH AND DEVELOPMENT
Research and Development investments are incurred in the search for new or reﬁned knowledge and ideas, for the
application or use of such knowledge, ideas for the development of new or improved products and processes, with the
expectation of maintaining or increasing national economic productive capacity or yielding other future beneﬁts.




74
                                                                                                          General Fund
                                                                            Required Supplementary Stewardship Information




                                  INVESTMENTS IN RESEARCH AND DEVELOPMENT
                                     Yearly Investment in Research and Development

                                     For the Current and Four Preceding Fiscal Years

                                                   (Amounts in millions)

 Categories                                                  2008           2007           2006           2005           2004
 1. Basic Research                                       $          389 $          383 $          374 $          373 $          209
 2. Applied Research                                            1,051          1,032          1,034              919            735
 3. Development
    Advanced Technology Development                                 611            937            970            924            681
    Advanced Component Development and Prototypes               2,423          2,310          2,185          1,769          1,426
    System Development and Demonstration                        3,654          4,094          4,572          4,332          4,390
    Research, Development, Test and Evaluation
       Management Support                                       1,323          1,286          1,381          1,125              890
    Operational Systems Development                            12,459         11,481         11,579         11,021         10,861
 4. Totals	                                              $     21,910 $       21,523 $      22,095 $       20,463 $       19,192


Basic Research is the systematic study to gain knowledge or understanding of the fundamental aspects of phenomena and
of observable facts without speciﬁc applications, processes, or products in mind. Basic Research includes scientiﬁc study
and experimentation directed toward increasing fundamental knowledge and understanding in those ﬁelds of the physical,
engineering, environmental, and life sciences related to long-term national security needs. Major outputs are scientiﬁc stud-
ies and research papers.

Applied Research is the systematic study to gain knowledge or understanding necessary for determining the means by
which a recognized and speciﬁc need may be met. It is a systematic expansion and application of knowledge to develop
useful materials, devices, systems, and methods. This research points toward speciﬁc military needs with a view toward
developing and evaluating the feasibility and practicality of proposed solutions and determining their parameters. Major
outputs are scientiﬁc studies, investigations, research papers, hardware components, software codes, and limited construc-
tion of, or part of, a weapon system, to include nonsystem speciﬁc development efforts.

Development takes what has been discovered or learned from basic and applied research and uses it to establish technologi-
cal feasibility, assessment of operability, and production capability. Development is comprised of the following ﬁve stages:

1. Advanced Technology Development includes development of subsystems and components plus efforts to integrate sub-
   systems and components into system prototypes for ﬁeld experiments and/or tests in a simulated environment. It also
   includes concept and technology demonstrations of subsystems and components or system models.

2. Advanced Component Development and Prototypes evaluates integrated technologies in as realistic an operating en-
   vironment as possible to assess the performance or cost reduction potential of advanced technology. Programs in this
   phase are generally system speciﬁc. Major outputs of Advanced Component Development and Prototypes are hardware
   and software components, or complete weapon systems, ready for operational and developmental testing and ﬁeld use.

3. System Development and Demonstration concludes the program or project and prepares it for production. 	It consists
   primarily of preproduction efforts, such as logistics and repair studies. Major outputs are weapon systems ﬁnalized for
   complete operational and developmental testing.




                                                                                                                                 75
              General Fund
              Required Supplementary Stewardship Information




4. Research, Development, Test and Evaluation Management Support is support for installations and operations for general
   research and development use. This category includes costs associated with test ranges, military construction mainte-
   nance support for laboratories, operations and maintenance of test aircraft and ships, and studies and analysis in support
   of the R&D program.

5. Operational Systems Development is concerned with development projects in support of programs or upgrades still in
   engineering and manufacturing development, which have received approval for production, for which production funds
   have been budgeted in subsequent ﬁscal years.

The following are representative program examples for each of the above major categories:

Basic Research: The Air Force, working with researchers at the University of California at San Diego, created an inex-
pensive sensor the size of a penny that detects bombs made with improvised peroxide explosive devices. The sensors are
made using ultra thin ﬁlms and have a fast response time and sensitivity that enables them to detect even minute amounts of
peroxide vapors in an environment. When peroxide is present, the ﬁlm made of cobalt shows a reduction in current, while
the copper ﬁlms show an increase.

Air Force scientists have also demonstrated world-record performance of transparent transistors created from thin-ﬁlm
nanocrystalline zinc oxide that can function undetected on clear surfaces, such as glass or plastic. A combination of high
channel mobility, mechanical ﬂexibility, and high optical transparency at room temperature make the transparent transistors
an excellent candidate to support a wide range of future Air Force electronics needs and applications.

Applied Research: The Air Force successfully developed and transitioned Automated Detection Identiﬁcation and Track-
ing of Deceptive Terrorist Activity (AUDIT) technology to numerous DoD and Intelligence Community (IC) users. A
variant of this technology is being used by the Air Force to ﬁght cyber terrorism and network attacks. AUDIT technology
is also in use, or in evaluation for use, by the U.S. Special Operations Command, the Joint Improvised Explosive Device
Defeat Organization, and the Department of Homeland Security – Cargo Border Protection, among others.

The Air Force is currently developing the Wafer Scale Signal Processor (WSSP) for applications where size, weight, and
power are severely constrained, such as space applications. The WSSP has six processors per chip and provides the most
ﬂoating point operations (one Giga Floating point Operation Per Second) per watt of power ever built for any application.
Processors will be a part of the Air Force’s Plug-and-Play Satellite and are available for both satellite control and signal
processing.

Advanced Technology Development: The Air Force developed and demonstrated a persistent electro-optical surveillance
technology called AngelFire, which was deployed to Iraq in support of the United States Marine Corps in October 2007.
Since then, it has operated continuously in a counter-improvised explosive device role. The Air Force is now developing
the next phase of AngelFire which will include the addition of an infrared capability to provide nighttime coverage.

With its TacSat-2 program, the Air Force successfully demonstrated responsive space enabling technologies during its one
year of mission operations. TacSat-2 served as the forerunner for speedy satellite production and launch, and direct theater
operation. For payloads, TacSat-2 had tactical sensors, two innovative communication links, experimental solar arrays, star
cameras, and propulsion systems, as well as payloads designed to answer basic scientiﬁc questions, such as how atmo-
spheric density and radio frequency signal interference ﬂuctuates with local and remote environmental conditions. Another
historic ﬁrst for TacSat-2 involved ground operators successfully tasking and receiving processed data within 90 minutes,
with traceability to future turnaround times as short as ten minutes.




76
                                                                                                       General Fund
                                                                          Required Supplementary Stewardship Information




As part of efforts to reduce the U.S. military’s reliance on foreign energy sources, the Air Force completed certiﬁcation of
an alternative jet fuel blend on the C-17 and B-1 aircraft as well as Air Force ground support equipment and vehicles in
August 2008. The B-52 previously received certiﬁcation in August 2007. These certiﬁcations allow operational use of the
Fischer-Tropsch (FT) and JP-8 fuel blend in these aircraft and support equipment and vehicles. The F-15, F-22 and KC-135
aircraft ﬂight tested the alternative jet fuel blend in August 2008. The F-22 and KC-135 also performed two aerial refuel-
ings on the same sortie during these ﬂight tests. This FT effort is part of the Pentagon’s Assured Fuel Initiative that seeks
to convert coal, of which the United States has abundant reserves, into liquid fuel. The fuel is derived from reﬁning natural
gas under the FT process, which is named after its German inventors in the 1920’s. The Air Force plans to test and certify
every airframe to ﬂy on this synthetic fuel blend by early 2011. The Air Force developed improved turbine engine life-
management tools that integrate state-of-the-art material analysis, enhanced non-destructive evaluation, and data manage-
ment as a comprehensive life management system. Component cost avoidance is estimated to exceed $300 million for the
F100/F110 engine series alone.

The Air Force developed a custom-molded, noise-attenuating earplug that enables seamless voice communications to and
from radios, while electronically passing all outside environmental sounds to the operator at safe levels. The Joint Un-
manned Combat Air Systems (J-UCAS) program was terminated in December 2005. The two J-UCAS X-45A aircraft
ﬂew a total of 64 ﬂights and performed limited demonstrations of precision weapon drops, multi-ship coordinated ﬂights,
and collaborative targeting technologies, illustrating the potential for future unmanned combat air systems development
programs. The Air Force continued to advocate the Air Force Research Library (AFRL) Automated Air Refueling (AAR)
program, which continues to make historic progress. The AAR program consists of a combination of simulation and ﬂight
tests in order to develop the appropriate requirements and system design for Unmanned Aerial Vehicle (UAV) refueling,
which may also be applied to manned refueling. Phase I of the AAR demonstration program was completed with great
success. In September 2007, the AAR Positions and Pathways Flight Test successfully demonstrated automated maneuver-
ing with over 8 hours of hands-off formation ﬂight, including movement from the observation position (off the wing of the
tanker) to pre-contact position, to the contact position, and then back. February 2008 saw a successful four-ship CONOPs
simulation involving Air Mobility Command operators in the loop. AFRL kicked off AAR Phase II in June 2008 by issuing
solicitations for an overall Phase II integrating contractor and a Precision GPS developer; selection of the winning bidders
is planned for 1st Quarter, FY 2009.

Demonstration and Validation (Advanced Component Development and Prototypes): The Air Force’s Advanced
Component Development and Prototypes programs are comprised of system speciﬁc advanced technology integration
efforts accomplished in an operational environment to help expedite transition from the effort. In FY 2004, the Air Force
successfully demonstrated Fighter Aircraft Command and Control Enhancement (FACE). FACE provides an improved,
beyond-line-of-sight (BLOS) command and control link with ﬁghter aircraft by integrating Iridium telephone communica-
tions equipment with existing aircraft communications equipment. BLOS capability has traditionally been provided by
low-density, high-demand airborne platforms acting as communications relays. FACE provides relief for these overworked
assets, while allowing combatant commanders to maintain positive control of the battle space. FACE has been approved for
deployment to Afghanistan through the Air Force’s Rapid Response Process, and has the potential for extensive use in virtu-
ally any area of responsibility, including Homeland Defense.

In FY 2005, the Air Force restructured and refocused the Space Radar (SR) program (formerly Space Based Radar) to ad-
dress congressional concerns with technical risk, affordability, and DoD-IC integration. In January 2005 the Secretary of
Defense and the Director of Central Intelligence signed a joint memo designating the SR program as the single space radar
capability for the nation. In May 2007, the Deputy Secretary of Defense and the Principal Deputy Director of National
Intelligence signed the Joint Radar Enterprise Memorandum, agreeing to a joint funding arrangement, acquisition strategy,
and management structure. The details of this arrangement are being captured in the Joint Radar Enterprise Management
Plan. The SR Initial Capabilities Document (ICD) was approved by the IC Mission Requirements Board (MRB) in De-
                                                                                                                          77
              General Fund
              Required Supplementary Stewardship Information




cember 2005 and the DoD Joint Requirements Oversight Council (JROC) in January 2006. The Capability Development
Document is being prepared in parallel with the SR system concept of operations (CONOPS); both are on track for MRB
and JROC approval in 1st Quarter, FY 2009. The SR program implemented a demonstration framework approach to system
development. This approach will further technology maturity risk reduction and CONOPS experimentation through a mix
of space, air, and land-based demonstration activities that will maximize existing assets. The SR program continues to
make signiﬁcant advancement towards the System Requirements Review milestone. The SR program will provide day/
night, all-weather global surface moving target indications (MTI), SAR, and high-resolution terrain information (HRTI)
capabilities from a space-based platform. Initial launch capability is planned for 4th Quarter, FY 2016.

System Development and Demonstration: The F-35 Joint Strike Fighter (JSF) program is developing a family of strike
ﬁghter aircraft for the Air Force, Navy, Marine Corps and our allies, with maximum commonality among the variants to
minimize life cycle costs. The Air Force Conventional Takeoff and Landing (CTOL) variant will be a multi-role, primary
air-to-ground aircraft to replace the F-16 and A-10, and complement the F-22. While the F-22 will establish air dominance,
the F-35 with its combination of stealth, large internal payloads and multi-spectral avionics will provide persistent stealth
and precision engagement to future battle space. The F-35 is in the 7th year of a 13-year System Development and Demon-
stration (SDD) effort. Signiﬁcant program accomplishments in FY 2008 include:

      y	 First ﬂight of Short Takeoff and Vertical Landing (STOVL) variant on June 11, 2008
      y	 Awarded Low Rate Initial Production (LRIP) Lot 2 contracts for 6 CTOLs on May 7, 2008 and 6 STOVLs on July
         22, 2008
      y	 Two STOVL test aircraft were delivered
      y	 Ten ﬂight test aircraft [4 CTOLs, 3 STOVLs, and 3 Combat Vehicles (CVs)] and ﬁve ground test aircraft (2
         CTOLs, 1 STOVL, and 2 CVs) are currently in assembly
The Transformational Satellite Communications (TSAT) system will provide the essential capabilities required to enable the
DoD’s vision for 21st century military operations. TSAT, which consists of a ﬁve-satellite geosynchronous satellite constel-
lation, network operations centers, and associated ground architecture, will establish global internet-like connectivity that
is essential for U.S. and allied personnel to communicate as a joint networked force. It will also extend assured, protected
communications connectivity to mobile forces in theater and vastly increase the overall capacity of our military satellite in-
frastructure. FY 2007 was proven to be a milestone year for TSAT. The program made excellent progress in demonstrating
the maturity of its critical technology elements by successfully completing the third of three demonstrations at MIT Lincoln
Laboratory (MIT/LL), testing each competing contractor’s proposed Laser Communications (or ‘lasercom’) and next-gen-
eration satellite processor/router (NGPR) equipment. The program also completed a successful four-week system design
review (SDR), where the government assessed the viability of the architecture designs for each competing contractor on the
satellite segment and on the TSAT Mission Operations System (TMOS) ground segment, whose contract was awarded in
January 2006.

Based upon the extent and success of risk reduction efforts accomplished thus far on this program, TSAT is prepared to
meet a Key Decision Point-B (KDP-B) milestone in order to gain Milestone Decision Authority (MDA) acceptance to pro-
ceed into the Preliminary Design Phase of the program’s acquisition cycle. In preparation for the KDP-B decision, several
in-depth reviews were performed this summer on TSAT, including an Independent Program Assessment, an Independent
Cost Evaluation, and a Technical Readiness Assessment. The underlying result of these detailed reviews was that the pro-
gram structure, budgeting, and technical development are well deﬁned, properly managed and mature enough to support the
initiation of preliminary design activities. Additionally, in June 2007, the TSAT program released a Request for Proposals



78
                                                                                                      General Fund
                                                                          Required Supplementary Stewardship Information




(RFP) on the space segment development contract. The Air Force is reviewing bids from multiple contractors. Based on an
Authority to Proceed from MDA in November 2007, the TSAT program anticipates a contract award announcement as early
as 1st Quarter, FY 2009.

TSAT is extending its risk reduction efforts with a revised goal of a KDP-B review in October 2008. TSAT will award the
space segment contract in FY 2009, starting its satellite design work and continuing the development of the TMOS seg-
ment. The launch of the ﬁrst TSAT is targeted for 3rd Quarter, FY 2018.

The MQ-1 Predator UAV program is developing the capability to instantaneously derive and disseminate Joint Direct At-
tack Munition (JDAM)-quality coordinates from the viewpoint of its electro-optical/infra-red (EO/IR) full motion video
sensor. Sensor improvements include development of a precise attitude reference system coupled with an off-the-shelf
two color eye-safe laser rangeﬁnder/designator plus development of an accurately timed metadata system. Aircraft will be
modiﬁed with a new guidance system incorporating differential GPS. Fielding is scheduled to begin in FY 2010. Follow-
on development will provide instantaneous JDAM-quality data for all pixels within the EO/IR image.

 In February 2008, the Global Hawk program greatly accelerated their ﬂight test program to support warﬁghter require-
ments. On March 22, 2008, the Global Hawk Block 20/30 ﬂight test program exceeded a 28-hour key performance param-
eter endurance threshold by ﬂying a 33.1 hour ﬂight test. The ﬁrst block of 30 aircraft was delivered to Edwards AFB in
2008 to support developmental ﬂight test. The ﬁrst ﬂight with the Airborne Signals Intelligence Payload (ASIP) was ﬂown,
issuing in the era of Multi-INT Global Hawk capability.

The Airborne Warning and Control System (AWACS) aircraft continues to modernize its mission capabilities to remain
an effective airborne battle management and surveillance system for command and control of combat forces. The Block
40/45 Upgrade improves the quality and timeliness of sensor data for shooters, improves combat identiﬁcation, supports a
Single Integrated Air Picture (SIAP) through multi-sensor integration, improves the AWACS contribution to Time Critical
Targeting via Data Link Infrastructure, improves electronic support measures processing, and enables more effective, faster
upgrades via an open system, Ethernet-based architecture. Block 40/45 began SDD in 2003, and successfully concluded
mission system testing in 2008. The Navigation Warfare (NAVWAR) effort satisﬁes a Chairman Joint Chiefs of Staff
Instruction for Global Positioning Satellite (GPS) users and incorporates new technology into the navigation sensor. The
NAVWAR effort began SDD in 2006 and completed ﬂight tests in 2008. Production and ﬁelding will follow in 2009. The
Next Generation Identiﬁcation Friend or Foe (NGIFF) effort provides AWACS with a secure Mode 5 capability. NGIFF
completed Risk Reduction efforts and commenced SDD in 2008.

Research, Development, Test and Evaluation Management Support: The Air Force’s Research, Development, Test and
Evaluation (RDT&E) Management Support efforts include projects directed toward support of installation or operations
required for general research and development use. The projects include test ranges, military construction, maintenance
support of laboratories, operation and maintenance of test aircraft and ships, and studies and analyses in support of the re-
search and development program. An example of Air Force RDT&E management support is the Major Test and Evaluation
Investment program, which funds the planning, improvements and modernization for three national asset test centers having
over $10 billion of unique test facilities/capabilities operated and maintained by the Air Force for the DoD test and evalua-
tion missions, and available to others having a requirement for their unique capabilities.

Many efforts are contained within the Air Force I&M program, but two examples are the Air Force Electronic Warfare
Evaluation Simulator (AFEWES) Gateway Project that designed, built and integrated a gateway computer capability link-
ing an AFEWES threat missile simulator into a distributed simulation network that will use test capabilities at locations
outside the AFEWES. Adding this capability will provide customers with a high ﬁdelity end-game evaluation capability. In
addition, the Propulsion Consolidation and Streamlining project at Arnold Engineering Development Center AFB upgrades


                                                                                                                         79
              General Fund
              Required Supplementary Stewardship Information




the Turbine Engine Test Facility Test Cell that contained antiquated and inefﬁcient thrust stands, support systems, and
control/monitoring equipment. This update will meet future test requirements by reducing operation and maintenance costs,
improving facility systems’ reliability/availability, streamlining the test process, and mitigating single point failure impacts.

Operational Systems Development: The Air Force’s operational system efforts include projects in support of develop-
ment acquisition programs or upgrades in SDD. The F-22 Raptor program continued full rate production, and will maintain
its role as the key enabler of joint air dominance through an incremental modernization program funded through Opera-
tional Systems Development activities. Over 127 aircraft have been delivered through end of FY 2008. The development
program will enhance the air vehicle, engine, and training systems to improve F-22A weapons, communications, and Intel-
ligence Surveillance Reconnaissance (ISR) capabilities to further enhance Global Strike capabilities. Increment 2 is now
resident in delivered aircraft and represents the ﬁrst upgrade over initial operational capability. FY 2008 activities included
development of the Increment 3 suite. A Critical Design Review (CDR) for Increment 3.1 focused on dramatically improv-
ing the F-22A Raptor’s Air-To-Ground attack capabilities with 4th generation synthetic aperture radar and on completing a
new weapon, the Small Diameter Bomb.

The Advanced Medium Range Air-to-Air Missile (AMRAAM) Phase 3 (AIM-120C-7) was approved for ﬁelding in Decem-
ber 2007. Production for this variant began in 4th Quarter, FY 2004, and will complete in 2nd Quarter, FY 2009. The AIM-
120C-7 provides a major upgrade over the AIM-120C-6 guidance section, particularly in the use of circular processor cards
over previously used rectangular cards. These cards provide signiﬁcant space savings within the missile for added capabil-
ity, in addition to providing greater processing power.

AMRAAM Phase 4 (AIM-120D) builds on the AIM-120C-7 capability and is progressing. This new AIM-120D missile
will add a GPS/INU and a 2-way Data Link to enhance accuracy and control, and thus, increase weapon effectiveness. In
addition, the AIM-120D will have increased range and third party targeting which expands the High Off-boresight launch
envelope. The SDD contract was awarded in December 2003. Captive ﬂight testing has been initiated on the F/A-18C/D
and F-15C/D. SDD is scheduled to complete in June 2009. Proof-of-design units and proof-of-manufacturing units are
being used to support simulation/integration labs, production test equipment development, and ground and ﬂight tests. Pro-
duction for AIM-120D is scheduled to start in 2nd Quarter, FY 2009 and continue through FY 2024.

The Small Diameter Bomb II (SDB) program is a joint Air Force/Navy interest program that will ﬁll a critical capability
gap by providing stand-off, classiﬁcation and in-weather capability against moving targets. A 42-month Risk Reduction
competition between two contractors commenced in May 2006 to mature critical technologies for an all-up-round design.
Following the Risk Reduction Phase, a single contractor will be selected in 1st Quarter, FY 2010 to complete a 72-month
SDD Phase. Milestone B is scheduled for 1st Quarter, FY 2010. Required Assets Available on the F-15E is planned for FY
2014. The SDB II weapon program will retain the SDB I legacy capability against ﬁxed surface targets, improve GPS anti-
jam capability and deny adversaries sanctuary of weather for moving targets.

The SDB I Focused Lethality Munition (FLM), a variant of SDB I, is a Joint Capabilities Technology Development (JCTD)
program that effectively demonstrated the military utility for prosecuting high-value targets by generating near-ﬁeld blast
effects in a high collateral risk environment. The FLM variant of SDB I has a composite-cased warhead with a Multi-
phase Blast Explosive to reduce fragmentation effects while increasing blast effects. The Military Utility Assessment was
completed in June 2008 with positive feedback in all areas. The assessment supports FLM’s potential to ﬁll a capability
gap of engaging targets with 60 feet of collateral concerns. The FLM weapon consists of a low collateral damage warhead
integrated into the SDB I weapon. This JCTD fully leveraged the SDB I program to facilitate rapid acquisition, with 50
residual assets being delivered in March 2008. The FLM capability will increase combatant commanders’ strike options,
particularly in an urban environment, while decreasing collateral damage risk.



80
General Fund
Fiscal Year 2008

Required Supplementary Information





                                      81
                General Fund
                Required Supplementary Information




Statement of Disaggregated Budgetary Resources - General Fund

As of September 30, 2008 and 2007 ($ in thousands)
                                                                                                         Research,
                                                                                                        Development,       Operation and
                                                                                        Other
                                                                                                           Test &          Maintenance
                                                                                                         Evaluation

BUDGETARY FINANCING ACCOUNTS
BUDGETARY RESOURCES:
1. Unobligated balance, brought forward, October 1                                  $       4,520   $      3,875,739   $       1,565,605
2. Recoveries of prior year unpaid obligations                                                111            570,699           2,363,569
3. Budget authority
   A. Appropriation                                                                      462,057          26,655,288          52,416,274
   B. Borrowing authority                                                                      0                   0                   0
   C. Contract authority                                                                       0                   0                   0
   D. Spending authority from offsetting collections
      1. Earned
         a. Collected                                                                      10,143          3,568,684           5,820,324
         b. Change in receivables from Federal sources                                          0            -51,949            -235,143
      2. Change in unﬁlled customer orders
         a. Advance received                                                                    0           -170,791              30,198
         b. Without advance from Federal sources                                                0            -67,928             216,548
      3. Anticipated for rest of year, without advances                                         0                  0                   0
      4. Previously unavailable                                                                 0                  0                   0
      5. Expenditure transfers from trust funds                                                 0                  0                   0
   E. Subtotal                                                                      $     472,200   $     29,933,304   $      58,248,201
4. Nonexpenditure transfers, net, anticipated and actual                                 -456,154            151,073             731,793
5. Temporarily not available pursuant to Public Law                                             0                  0                   0
6. Permanently not available                                                               -2,274           -598,060          -1,038,794
7. Total Budgetary Resources                                                        $      18,403   $     33,932,755   $      61,870,374

STATUS OF BUDGETARY RESOURCES:
8. Obligations incurred
   A. Direct                                                                        $       3,228   $     25,145,863   $      54,333,888
   B. Reimbursable                                                                         10,044          3,444,640           5,988,768
   C. Subtotal                                                                      $      13,272   $     28,590,503   $      60,322,656
9. Unobligated balance
   A. Apportioned                                                                           1,311          4,986,561             214,301
   B. Exempt from apportionment                                                             3,820                  0                   0
   C. Subtotal                                                                      $       5,131   $      4,986,561   $         214,301
10. Unobligated balance not available                                                           0            355,689           1,333,417
11. Total status of budgetary resources                                             $      18,403   $     33,932,753   $      61,870,374

CHANGE IN OBLIGATED BALANCE:
12. Obligated balance, net
    A. Unpaid obligations, brought forward, October 1                               $       4,471   $      9,380,793   $      20,892,264
    B. Less: Uncollected customer payments from Federal sources, brought
       forward, October 1                                                                       0           -808,018          -1,359,177
    C. Total unpaid obligated balance                                               $       4,471   $      8,572,775   $      19,533,087
13. Obligations incurred net (+/-)                                                  $      13,272   $     28,590,503   $      60,322,656
14. Less: Gross outlays                                                                   -13,427        -28,063,521         -55,746,575
15. Obligated balance transferred, net
    A. Actual transfers, unpaid obligations (+/-)                                               0                  0                   0
    B. Actual transfers, uncollected customer payments from Federal sources (+/-)               0                  0                   0
    C. Total Unpaid obligated balance transferred, net                              $           0   $              0   $               0
16. Less: Recoveries of prior year unpaid oblligations, actual                      $        -111   $       -570,699   $      -2,363,569
17. Change in uncollected customer payments from Federal sources (+/-)                          0            119,878              18,595
18. Obligated balance, net, end of period
    A. Unpaid obligations                                                                   4,206          9,337,076          23,104,777
    B. Less: Uncollected customer payments (+/-) from Federal sources (-)                       0           -688,140          -1,340,582
    C. Total, unpaid obligated balance, net, end of period                                  4,206          8,648,936          21,764,195

NET OUTLAYS:
19. Net Outlays
    A. Gross outlays                                                                $      13,427   $     28,063,521   $      55,746,575
    B. Less: Offsetting collections                                                       -10,143         -3,397,892          -5,850,522
    C. Less: Distributed Offsetting receipts                                             -201,497                  0                   0
    D. Net Outlays                                                                  $    -198,213   $     24,665,629   $      49,896,053

82
                                                                                        General Fund
                                                                         Required Supplementary Information




                           Military               Military               2008                    2007
    Procurement                                 Construction /
                          Personnel            Family Housing          Combined                Combined




$        13,050,225   $         253,422    $           2,425,833   $       21,175,345   $          17,112,927
          1,252,684             378,350                   36,604            4,602,017               3,921,941

         42,763,683          32,291,486                2,203,017          156,791,805             147,674,697
                  0                   0                        0                    0                       0
                  0                   0                        0                    0                       0


           647,779              412,663                    4,823           10,464,416              10,237,677
           -14,896              -52,242                      150             -354,080                -517,749

            -61,690                   0                    2,336             -199,948                 376,618
           -109,656                 -30                        0               38,934                 250,810
                  0                   0                        0                    0                       0
                  0                   0                        0                    0                       0
                  0                   0                        0                    0                       0
$        43,225,220   $      32,651,877    $           2,210,326   $      166,741,127   $         158,022,053
          2,338,151              18,833                  -33,334            2,750,362                 861,271
                  0                   0                        0                    0                       0
         -1,338,251            -186,675                  -30,402           -3,194,456              -1,769,006
$        58,528,029   $      33,115,807    $           4,609,027   $      192,074,395   $         178,149,186



$        40,960,204   $      32,579,886    $           2,019,902   $      155,042,972   $         146,524,833
            537,059             374,016                        5           10,354,532              10,449,009
$        41,497,263   $      32,953,902    $           2,019,907   $      165,397,504   $         156,973,842

         16,365,177              17,806                2,554,758           24,139,914              18,573,839
                  0                   0                        0                3,820                   3,271
$        16,365,177   $          17,806    $           2,554,758   $       24,143,734   $          18,577,110
            665,590             144,099                   34,362            2,533,157               2,598,234
$        58,528,030   $      33,115,807    $           4,609,027   $      192,074,395   $         178,149,186



$        25,362,483   $       2,332,531    $           2,960,818   $       60,933,360   $          53,989,101
           -234,945               35,354                       0           -2,366,785               -2,633,723
$        25,127,538   $        2,367,885   $           2,960,818   $       58,566,575   $           51,355,378
$        41,497,263   $       32,953,903   $           2,019,907   $      165,397,504   $          156,973,842
        -35,409,095          -32,502,319              -2,180,654         -153,915,590             -146,107,640

                  0                   0                        0                    0                        0
                  0                   0                        0                    0                        0
$                 0   $               0    $                   0   $                0   $                    0
$        -1,252,684   $        -378,350    $             -36,604   $       -4,602,017   $           -3,921,941
            124,552              52,272                     -150              315,146                  266,938

         30,197,966           2,405,765                2,763,468           67,813,257              60,933,360
           -110,393              87,626                     -150           -2,051,639              -2,366,785
         30,087,573           2,493,391                2,763,318           65,761,618              58,566,575



$        35,409,095   $      32,502,319    $           2,180,654   $      153,915,590   $         146,107,640
           -586,089            -412,663                   -7,158          -10,264,468             -10,614,293
                  0                   0                        0             -201,497                -140,980
$        34,823,006   $      32,089,656    $           2,173,496   $      143,449,625   $         135,352,367
                                                                                                          83
                  General Fund
                  Required Supplementary Information




DISAGGREGATED STATEMENT OF BUDGETARY RESOURCES
The Air Force has performance measures based on missions and outputs. The Air Force, however, is unable to accumulate
costs for major programs based on those performance measures, because its ﬁnancial processes and systems were not de-
signed to collect and report this type of cost information. Until the processes and systems are upgraded, the Department will
break out programs by major appropriation groupings.

STEWARDSHIP PLANT, PROPERTY, AND EQUIPMENT (PP&E)

                                                     HERITAGE ASSETS
                                         For Fiscal Year Ended September 30, 2008
                (a)                      (b)               (c)                 (d)                 (e)                 (f)
                                     Measurement
   Heritage Asset Categories                          As of 10/01/07        Additions           Deletions         As of 9/30/08
                                       Quantity
 Buildings and Structures               Each                       4,091                868                  0                 4,959
 Archeological Sites                    Sites                      1,425                505                  0                 1,930
 Museum Collection Items                Each                     113,210             4,009                  85               117,134
 (Objects, Not Including Fine Art)
 Museum Collection Items                Each                       9,259                111                 0                  9,370
 (Fine Art)

Heritage Assets are items of historical, natural, cultural, educational, or artistic signiﬁcance (e.g., aesthetic) or items with
signiﬁcant architectural characteristics.

1. Buildings and Structures
 As of September 15, 2008, the Air Force considers 12,719 buildings and structures as National Register of Historic Places
(NRHP) listed and eligible buildings and structures. Vast majorities of these are Capehart-Wherry Era (CWE) houses
(7,760), which are subject to a recently completed nationwide Program Comment (with the Advisory Council on Historic
Preservation) that allows the Air Force to demolish or otherwise remove all but three CWE houses from the Air Force In-
ventory. Disposition has begun, but is proceeding slowly, so large numbers of CWE Housing remain on the Air Force Real
Property Index. These numbers decreased signiﬁcantly this year (3,068) and will continue to decrease in future years as
CWE Housing is removed from the Air Force inventory or privatized. We do not consider CWE Housing as Heritage Assets
for this Required Supplementary Information (RSI) report.

The Air Force has 4,959 non-CWE buildings and structures considered Heritage Assets. Of these, 1,314 are listed on NRHP
and 3,552 are eligible for listing on NRHP. Since March 2007, Air Force has successfully completed three service-wide data
calls to validate “Heritage Asset” information via populating the Automated Civil Engineer System-Real Property (ACES-
RP) database (i.e., Air Force’s Real Property Inventory). ACES-RP now designates/classiﬁes the historic status of heritage
assets (~13,000 historic buildings, structures, and districts) and now meets requirements. The large increase in the number
of historic properties (868 from FY 2007) is primarily due to improved data reporting and validations of historic property
data in ACES-RP. ACES-RP was initially designed to identify only those heritage assets/historic properties that were nomi-
nated and formally listed on the NRHP. ACES-RP now contains validated heritage asset data for 12 Historic Status Codes.
Installation Cultural Resource Managers (vice Real Property Managers) across the Air Force were trained to use ACES-
RP and successfully populate ACES-RP with data for the required additional 12 codes. The most recent round of historic
property validations in ACES-RP is due to be completed by September 30, 2008. The cumulative effect of these validations
has largely eliminated the previous, well-documented, disconnect between the Real Property and Cultural Resource com-

  84
                                                                                                         General Fund
                                                                                        Required Supplementary Information




munities concerning the number and classiﬁcation of “heritage assets”. Future annual reminders to Air Force installations
will be conducted as part of the annual data call to fulﬁll a related requirement for archaeological sites. The later data call is
sent out each January. Heritage Asset buildings and structures are maintained by each base civil engineering group and are
considered to be in good condition. These buildings and structures are subject to National Historic Preservation Act Section
106 review and consultation requirements whenever Air Force undertakings might affect their historic characteristics. Sec-
tion 106 reviews ensure State Historic Preservation Ofﬁcers, tribal, and other party concerns are taken into account when
Air Force decides to adversely affect Heritage Asset buildings and structures.

2. Archaeological Sites
The timing of this data call is such that Air Force cannot report year-end FY 2008 archaeological or historic building data
at the end of FY 2008. Archaeological data reported herein are collected for the Annual Report to Congress on Federal
Archaeological Activities, which is compiled by the Air Force Center for Engineering and the Environment from major
command supplied data between January and March 2008. Historic building data, on the other hand, were compiled for this
report through August 2008. We do not have, as of yet, databases that can provide nearly real-time data on archaeological
historic assets, which is required to report up-to-date historic asset numbers at the end of the ﬁscal year.

As of September 15, 2008, the Air Force has (as reported in the FY 2007 Annual Report to Congress on Federal Archaeo-
logical Activity, submitted March 31, 2008) 1,930 archaeological sites listed on or eligible for listing on the NRHP. The Air
Force has 9,600 recorded but unevaluated archaeological sites, and 5,455 sites considered ineligible for the NRHP. A total
of 16,985 archaeological sites have been reported thus far from Air Force lands. Eligible listed sites (aka “Heritage Assets”)
are protected from vandalism and looting, and are maintained in good condition on Air Force installations. Heritage asset
archaeological sites are subject to NRHP Section 106 review and consultation when affected by Air Force undertakings.
Section 106 reviews ensure State Historic Preservation Ofﬁcers, tribal, and other party concerns are taken into account
when Air Force decides to adversely affect Heritage Asset archaeological sites. All Heritage Asset and unevaluated archaeo-
logical sites are managed to prevent signiﬁcant losses due to erosion and other natural causes.

The table shows 505 archaeological sites were added to the heritage asset list between FY 2007 and FY 2008.

3. Museum Collection Items, Objects Not Including Fine Art
This represents the initial reporting of the number of objects which meet the criteria for historical property as deﬁned in
Air Force Instruction 84-103 and that have been evaluated, accessioned, and catalogued in the Air Force national historic
collection. No adjustments to past years are required. The National Museum of the United States Air Force (NMUSAF)
performs inherently governmental functions by fulﬁlling statutory requirements properly delegated by the Secretary of the
Air Force for management of the Air Force’s national historic collection. During FY 2008, 4,009 objects have been added to
the collection, primarily as a result of private donations or by being found on base. One of the most signiﬁcant acquisitions
was the transfer from the Smithsonian Institution of the oldest surviving combat veteran B-17D bomber (“The Swoose”).
85 objects were deaccessioned from the collection as having been determined not to meet historic property criteria, in poor
condition, or transferred to other agencies. The overall condition of the historic collection, which is primarily located at the
NMUSAF, is very good as a result of both professional care from trained conservators and improved exhibit/storage condi-
tions. The stewardship and condition of the national historic collection were determined to meet or exceed all established
professional standards during the FY 2008 museum reaccreditation inspection of the NMUSAF by the American Associa-
tion of Museums. As part of the NMUSAF’s collection management plans, the process of the accession and deaccession of
objects is continuous.




                                                                                                                             85
               General Fund
               Required Supplementary Information




4. Museum Collection Items, Fine Art
The art collection contains original oils, drawings, sketches and sculptures. Since the last report the Air Force Art Collection
has received 111 newly donated paintings. These paintings were the direct result of the artists visiting bases and operations
throughout Air Force.

The collection is maintained and kept in good condition. Each year during the annual inventory, Air Force Art Program Of-
ﬁce requests the condition of the paintings as well. Maintenance continues to be a constant.

STEWARDSHIP LAND
                                                        STEWARDSHIP LAND
                                              For Fiscal Year Ended September 30, 2008
                                                        (in thousands of acres)
        (a)                       (b)                       (c)                (d)              (e)                (f)
  Facility Code              Facility Title           As of 10/01/07        Additions        Deletions        As of 9/30/08
 9110                Governement Owned Land                      1,508                  0                7                    1,501
 9111                State Owned Land                                  0                0                0                       0
 9120                Withdrawn Public Land                       7,593                   0                1                   7,592
 9130                Licensed and Permitted Land                   137                   0                1                    136
 9140                Public Land                                        0                0                0                      0
 9210                Land Easement                                 178                   0                6                    172
 9220                In-leased Land                                    44               48                0                     92
 9230                Foreign Land                                  308                   0               18                    290
 Grand Total                                                                                                              9, 783
 Total - All Lands                                                                                                            2,191
 Total - Stewardship Lands                                                                                                    7,592

Stewardship Land is land rights owned by the Federal Government but not acquired for, or in connection with, items of
General Property, Plant, and Equipment (PP&E). “Acquired for or in connection with” is deﬁned as including land acquired
with the intent to construct general PP&E and land acquired in combination with general PP&E. Without exception, all land
provided to the Department from the public domain, or at no cost, shall be classiﬁed as Stewardship Land, regardless of its
use.

The Air Force has 7,592,000 acres of mission-essential Stewardship Land under their administration. The beginning balance
(FY 2007 RSI reported ending balance) decreased by 108,000 acres because ACES-RP categorized Stewardship Land dif-
ferently from the table above. Speciﬁcally, certain category codes are now reported as Government Owned Land rather than
Withdrawn Public Land. Land purchased by the Air Force with the intent to construct buildings or facilities is considered
PP&E and is reported on the balance sheet. All stewardship land, as reported, is in acceptable condition, based on desig-
nated use.




86
                                                                                                             General Fund
                                                                                              Required Supplementary Information




REAL PROPERTY DEFERRED MAINTENANCE
                                          REAL PROPERTY DEFERRED MAINTENANCE
                                            For Fiscal Year Ended September 30, 2008
                                                        (Amounts in millions)
                    Property Type                                               Current Fiscal Year (CFY)
                                                       1. Plant Replacement     2. Required Work (deferred
                                                                                                               3. Percentage
                                                                Value                 maintenance)
 1. Category 1: Buildings, Structures, and Utilities                 $262,065                     $17,906                      7%
    (Enduring Facilities)
 2. Category 2: Buildings, Structures, and Utilities                  $22,476                         $38                      <1%
    (Excess Facilities or Planned for Replacement)
 3. Category 3: Buildings, Structures, and Utilities                  $10,596                        $914                      9%
    (Heritage Assets)

Use of Q-Rating versus Facilities Sustainment Model (FSM) to reﬂect Deferred Sustainment
The use of Q-Rating as a basis for calculated deferred maintenance is not prudent. The Service’s Q-Rating database has not
sufﬁciently matured compared with the FSM dataset.

At this stage of Q-Rating planning and development, facility Q-Ratings cannot be readily tied to actual obligations nor do
they provide a consistent service-wide metric based on commercial standards.

Based on previous submissions, the use of FSM to benchmark facility requirements has proven itself in the Air Force Cor-
porate Structure (AFCS) process by yielding data constancy and high ﬁdelity. FSM can be linked to actual obligations, is
consistent across the services, and uses commercial standards in its development, which provides the stability and credibil-
ity needed to defend program funding requirements in AFCS.

The inclusion of the “A” factor to represent “acceptable operating condition” is not currently valid. At this time, there is
no dataset which can be used to underpin target Q-Rating percentages or to identify acceptable operating conditions for
speciﬁc Air Force facilities.

At A=100%, the FY 2008 accumulated deferred sustainment based on Q-Ratings is $17.9 billion as noted above. Although
a backlog of $17.9 billion obviously appears signiﬁcant, this considerably large requirement adds little value to AFCS
decision-making process. From our experience, AFCS will immediately question such a large backlog if used to defend
our budget shortfalls. Variable “A” factors would need to be developed to make the proposed deferred maintenance concept
feasible.

Strategically, the use of annual deferred sustainment maintenance based on FSM has already proven to be successful in
defending our budgets through AFCS. In FY 2007, the annual deferred sustainment maintenance based on FSM was at a
reasonable level of $385.0 million.




                                                                                                                                87
                General Fund
                Required Supplementary Information




                                     MILITARY EQUIPMENT DEFERRED MAINTENANCE

                                          For Fiscal Year Ended September 30, 2008

                                                      (Amounts in millions)

 Major Categories
 1. Aircraft                                                                                           $         257
 2. Automotive Equipment                                                                                           0
 3. Combat Vehicles                                                                                                0
 4. Construction Equipment                                                                                         0
 5. Electronics and Communications Systems                                                                        72
 6. Missiles                                                                                                      18
 7. Ships                                                                                                          0
 8. Ordnance Weapons and Munitions                                                                                 0
 9. General Purpose Equipment                                                                                      0
 10. All Other Items Not Identiﬁed to Above Categories                                                           771
 Total                                                                                                 $        1,118


The ﬁgures presented are projected deferred maintenance amounts for FY 2008 as reported in the FY 2010 Program Budget
Review OP-30 budget exhibits. FY 2008 Global War on Terror Supplemental actual was not available.

The ﬁgures include Active Air Force, Air National Guard and Air Force Reserve.




88
General Fund 

Fiscal Year 2008

Audit Opinion





                    89
     General Fund
     Audit Opinion




90
General Fund
   Audit Opinion




               91
     General Fund
     Audit Opinion




92
General Fund
   Audit Opinion




               93
     General Fund
     Audit Opinion




94
General Fund
   Audit Opinion




               95
     General Fund
     Audit Opinion




96
General Fund
   Audit Opinion




               97
     General Fund
     Audit Opinion




98
Working Capital Fund

Principal Statements

Fiscal Year 2008
The FY 2008 Department of the Air Force Working Capital Fund Principal Statements and
related notes are presented in the format prescribed by the Department of Defense Financial
Management Regulation 7000.14-R, Volume 6B. The statements and related notes summarize
ﬁnancial information for individual activity groups and activities within the Working Capital
Fund for the ﬁscal year ending September 30, 2008, and are presented on a comparative basis
with information previously reported for the ﬁscal year ending September 30, 2007.

The following statements comprise the Department of the Air Force Working Capital Fund
Principal Statements:

Consolidated Balance Sheet
The Consolidated Balance Sheet presents as of September 30, 2008 and 2007 those resources
owned or managed by the Air Force which are available to provide future economic beneﬁts
(assets); amounts owed by the Air Force that will require payments from those resources or
future resources (liabilities); and residual amounts retained by the Air Force, comprising the
difference (net position).

Consolidated Statement of Net Cost
The Consolidated Statement of Net Cost presents the net cost of the Air Force’s operations
for the years ended September 30, 2008 and 2007. The Air Force’s net cost of operations
includes the gross costs incurred by the Air Force less any exchange revenue earned from Air
Force activities.

Consolidated Statement of Changes in Net Position
The Consolidated Statement of Changes in Net Position presents the change in the Air Force’s
net position resulting from the net cost of Air Force’s operations, budgetary ﬁnancing sources
other than exchange revenues, and other ﬁnancing sources for the years ended September 30,
2008 and 2007.

Combined Statement of Budgetary Resources
The Combined Statement of Budgetary Resources presents the budgetary resources avail-
able to the Air Force during FY 2008 and 2007, the status of these resources at September
30, 2008 and 2007, and the outlay of budgetary resources for the years ended September 30,
2008 and 2007.

The Principal Statements and related notes have been prepared to report ﬁnancial position
pursuant to the requirements of the Chief Financial Ofﬁcers Act of 1990, the Government
Management Reform Act of 1994, and the Ofﬁce of Management and Budget’s Circular
A-136, “Financial Reporting Requirements.”


                                                                                                 99
                Working Capital Fund
                Principal Statements




Consolidated Balance Sheet - Working Capital Fund
As of September 30, 2008 and 2007 ($ in thousands)


                                                                                     2008 Consolidated               2007 Consolidated


1. ASSETS (Note 2)
    A. Intragovernmental:
        1. Fund Balance with Treasury (Note 3)                               $                      959,598      $             1,287,399
        2. Investments (Note 4)                                                                            0                             0
        3. Accounts Receivable (Note 5)                                                             786,751                      330,378
        4. Other Assets (Note 6)                                                                         618                       1,248
        5. Total Intragovernmental Assets                                    $                    1,746,967      $             1,619,025
      B. Cash and Other Monetary Assets (Note 7)                                                           0                             0
      C. Accounts Receivable, Net (Note 5)                                                          117,894                      117,808
      D. Loans Receivable (Note 8)                                                                         0                             0
      E. Inventory and Related Property, Net (Note 9)                                            33,676,873                   34,517,432
      F. General Property, Plant and Equipment, Net (Note 10)                                     1,164,386                    1,091,070
      G. Investments (Note 4)                                                                              0                             0
      H. Other Assets (Note 6)                                                                      388,677                      319,462
2. TOTAL ASSETS                                                              $                   37,094,797      $            37,664,797
3. STEWARDSHIP PROPERTY, PLANT & EQUIPMENT (Note 10)
4. LIABILITIES (Note 11)
    A. Intragovernmental:
        1. Accounts Payable (Note 12)                                        $                       94,776      $               117,965
        2. Debt (Note 13)                                                                                  0                             0
        3. Other Liabilities (Note 15 & 16)                                                          86,302                      135,036
        4. Total Intragovernmental Liabilities                               $                      181,078      $               253,001
    B. Accounts Payable (Note 12)                                                                   817,558                      946,756
    C. Military Retirement and Other                                                                217,337                      228,900
       Federal Employment Beneﬁts (Note 17)
    D. Environmental and Disposal Liabilities (Note 14)                                                    0                             0
    E. Loan Guarantee Liability (Note 8)                                                                   0                             0
    F. Other Liabilities (Note 15 & Note 16)                                                        624,331                      714,711
5. TOTAL LIABILITIES                                                         $                    1,840,304      $             2,143,368


6. COMMITMENTS AND CONTINGENCIES (NOTE 16)
7. NET POSITION
    A. Unexpended Appropriations - Earmarked Funds (Note 23)                                               0                             0
    B. Unexpended Appropriations - Other Funds                                                         1,248                       4,558
    C. Cumulative Results of Operations - Earmarked Funds                                                  0                             0
    D. Cumulative Results of Operations - Other Funds                                            35,253,245                   35,516,871
8. TOTAL NET POSITION                                                        $                   35,254,493      $            35,521,429


9. TOTAL LIABILITIES AND NET POSITION                                        $                   37,094,797      $            37,664,797




100                                  The accompanying notes are an integral part of these ﬁnancial statements.
                                                                                                 Working Capital Fund
                                                                                                               Principal Statements




Consolidated Statement of Net Cost - Working Capital Fund

As of September 30, 2008 and 2007 ($ in thousands)


                                                                             2008 Consolidated                  2007 Consolidated


1. Program Costs
  A. Gross Costs                                                      $                  10,494,182        $              10,735,131
  B. (Less: Earned Revenue)                                                             -10,784,910                       -10,431,762
  C. Net Program Costs                                                $                    -290,728        $                 303,369
2. Cost Not Assigned to Programs                                                                   0                                  0
3. (Less: Earned Revenue Not Attributable to Programs)                                             0                                  0
4. Net Cost of Operations                                             $                    -290,728        $                 303,369




                               The accompanying notes are an integral part of these ﬁnancial statements.                        101
                Working Capital Fund
                Principal Statements




Consolidated Statement of Changes in Net Position - Working Capital Fund
As of September 30, 2008 and 2007 ($ in thousands)



                                                                              2008                      2008                    2008
                                                                         Earmarked Funds          All Other Funds           Eliminations

CUMULATIVE RESULTS OF OPERATIONS
1. Beginning Balances                                                $                  0     $        35,516,871       $                  0
2. Prior Period Adjustments
  A. Changes in accounting principles (+/-)                                             0                          0                       0
  B. Corrections of errors (+/-)                                                        0                          0                       0
3. Beginning balances, as adjusted                                   $                  0     $        35,516,871       $                  0
4. Budgetary Financing Sources:
  A. Other adjustments (rescissions, etc.)                                              0                          0                       0
  B. Appropriations used                                                                0                  69,073                          0
  C. Nonexchange revenue                                                                0                          0                       0
  D. Donations and forfeitures of cash and cash equivalents                             0                          0                       0
  E. Transfers-in/out without reimbursement (+/-)                                       0                 -88,000                          0
  F. Other budgetary ﬁnancing sources                                                   0                          0                       0
5. Other Financing Sources
  A. Donations and forfeitures of property                                              0                          0                       0
  B. Transfers-in/out without reimbursement (+/-)                                       0                 -47,477                          0
  C. Imputed ﬁnancing from costs absorbed by others                                     0                 144,150                          0
  D. Other (+/-)                                                                        0                -632,100                          0
6. Total Financing Sources                                           $                  0     $          -554,354       $                  0
7. Net Cost of Operations (+/-)                                                         0                -290,728                          0
8. Net Change                                                        $                  0     $          -263,626       $                  0
9. Cumulative Results of Operations                                  $                  0     $        35,253,245       $                  0
UNEXPENDED APPROPRIATIONS
10. Beginning Balances                                               $                  0     $                4,558    $                  0
11. Prior Period Adjustments:
   A. Changes in accounting principles                                                  0                          0                       0
   B. Corrections of errors                                                             0                          0                       0
12. Beginning balances, as adjusted                                  $                  0     $                4,558    $                  0
13. Budgetary Financing Sources:
   A. Appropriations received                                                           0                  66,458                          0
   B. Appropriations transferred-in/out                                                 0                          0                       0
   C. Other adjustments (rescissions, etc)                                              0                       -695                       0
   D. Appropriations used                                                               0                 -69,073                          0
14. Total Budgetary Financing Sources                                                   0                      -3,310                      0
15. Unexpended Appropriations                                                           0                      1,248                       0
16. Net Position                                                     $                  0     $        35,254,493       $                  0




102                                The accompanying notes are an integral part of these ﬁnancial statements.
                                                                                                 Working Capital Fund
                                                                                                               Principal Statements




       2008                         2007                         2007                        2007                     2007
    Consolidated               Earmarked Funds             All Other Funds               Eliminations              Consolidated




$          35,516,871      $                      0    $            35,992,114     $                       0   $          35,992,114


                      0                           0                           0                            0                          0
                      0                           0                           0                            0                          0
$          35,516,871      $                      0    $            35,992,114     $                       0   $          35,992,114


                      0                           0                           0                            0                          0
               69,073                             0                     39,324                             0                  39,324
                      0                           0                           0                            0                          0
                      0                           0                           0                            0                          0
              -88,000                             0                    -382,000                            0                -382,000
                      0                                                       0                            0                          0


                      0                           0                           0                            0                          0
              -47,477                             0                       2,192                            0                   2,192
              144,150                             0                    168,610                             0                 168,610
             -632,100                             0                           0                            0                          0
$            -554,354      $                      0    $               -171,874    $                       0   $            -171,874
             -290,728                             0                    303,369                             0                 303,369
$            -263,626      $                      0    $               -475,243    $                       0   $            -475,243
$          35,253,245      $                      0    $            35,516,871     $                       0   $          35,516,871


$                  4,558   $                      0    $                      0    $                       0   $                      0


                      0                           0                           0                            0                          0
                      0                           0                           0                            0                          0
$                  4,558   $                      0    $                      0    $                       0   $                      0


               66,458                             0                      44,054                            0                  44,054
                      0                           0                           0                            0                          0
                    -695                          0                        -172                            0                      -172
              -69,073                             0                     -39,324                            0                 -39,324
               -3,310                             0                       4,558                            0                   4,558
                   1,248                          0                       4,558                            0                   4,558
$          35,254,493      $                      0    $            35,521,429     $                       0   $          35,521,429




                               The accompanying notes are an integral part of these ﬁnancial statements.                          103
                    Working Capital Fund
                    Principal Statements




Combined Statement of Budgetary Resources - Working Capital Fund

As of September 30, 2008 and 2007 ($ in thousands)
                                                                                                               2008                   2007
                                                                                                             Combined               Combined
BUDGETARY FINANCING ACCOUNTS
BUDGETARY RESOURCES:
1. Unobligated balance, brought forward, October 1                                                $                1,073,782    $          925,137
2. Recoveries of prior year unpaid obligations                                                                             0                23,358
3. Budget authority
   A. Appropriation                                                                                                   66,458                44,054
   B. Borrowing authority                                                                                                  0                     0
   C. Contract authority                                                                                           6,633,730             9,804,575
   D. Spending authority from offsetting collections
      1. Earned
         a. Collected                                                                                             11,677,265            14,106,630
         b. Change in receivables from Federal sources                                                               407,049              -373,583
      2. Change in unﬁlled customer orders
         a. Advance received                                                                                         -77,781               -40,165
         b. Without advance from Federal sources                                                                    -241,364               230,560
      3. Anticipated for rest of year, without advances                                                                    0                     0
      4. Previously unavailable                                                                                            0                     0
      5. Expenditure transfers from trust funds                                                                            0                     0
   E. Subtotal                                                                                    $               18,465,357    $       23,772,071
4. Nonexpenditure transfers, net, anticipated and actual                                                             -88,000              -382,000
5. Temporarily not available pursuant to Public Law                                                                        0                     0
6. Permanently not available                                                                                      -8,139,473            -9,162,481
7. Total Budgetary Resources                                                                      $               11,311,666    $       15,176,085
STATUS OF BUDGETARY RESOURCES:
8. Obligations incurred:
   A. Direct                                                                                      $                        0    $                0
   B. Reimbursable                                                                                                10,968,071            14,102,303
   C. Subtotal                                                                                    $               10,968,071    $       14,102,303
9. Unobligated balance:
   A. Apportioned                                                                                                    343,595             1,073,782
   B. Exempt from apportionment                                                                                            0                     0
   C. Subtotal                                                                                    $                  343,595    $        1,073,782
10. Unobligated balance not available                                                                                      0                     0
11. Total status of budgetary resources                                                           $               11,311,666    $       15,176,085

CHANGE IN OBLIGATED BALANCE:
12. Obligated balance, net
    A. Unpaid obligations, brought forward, October 1                                                               8,883,865             8,603,843
    B. Less: Uncollected customer payments from Federal sources, brought forward, October 1       $                -3,844,887   $        -3,987,910
   C. Total unpaid obligated balance                                                              $                5,038,978    $        4,615,933
13. Obligations incurred net (+/-)                                                                $               10,968,071    $       14,102,303
14. Less: Gross outlays                                                                                           -11,905,048           -13,798,923
15. Obligated balance transferred, net
   A. Actual transfers, unpaid obligations (+/-)                                                                           0                     0
   B. Actual transfers, uncollected customer payments from Federal sources (+/-)                                           0                     0
   C. Total Unpaid obligated balance transferred, net                                             $                        0    $                0
16. Less: Recoveries of prior year unpaid obligations, actual                                     $                        0    $           -23,358
17. Change in uncollected customer payments from Federal sources (+/-)                                              -165,685               143,023
18. Obligated balance, net, end of period
   A. Unpaid obligations                                                                                           7,946,888             8,883,865
   B. Less: Uncollected customer payments (+/-) from Federal sources (-)                                           -4,010,572            -3,844,887
   C. Total, unpaid obligated balance, net, end of period                                                          3,936,316             5,038,978

NET OUTLAYS
19. Net Outlays:
   A. Gross outlays                                                                               $               11,905,048    $       13,798,923
   B. Less: Offsetting collections                                                                                -11,599,484           -14,066,465
   C. Less: Distributed Offsetting receipts                                                                                 0                     0
   D. Total Net Outlays                                                                           $                   305,564   $          -267,542




104                                           The accompanying notes are an integral part of these ﬁnancial statements.
Working Capital Fund
Fiscal Year 2008
Notes to the Principal Statements
Notes to the ﬁnancial statements communicate information essential for fair presentation
of the ﬁnancial statements that is not displayed on the face of the ﬁnancial statements.




                                                                                           105

              Working Capital Fund
              Notes to the Principal Statements




Note 1. Signiﬁcant Accounting Policies
1.A. Basis of Presentation
These ﬁnancial statements have been prepared to report the ﬁnancial position and results of operations of the Air Force
Working Capital Fund (AFWCF), as required by the Chief Financial Ofﬁcers Act of 1990, expanded by the Government
Management Reform Act of 1994, and other appropriate legislation. The ﬁnancial statements have been prepared from the
books and records of the AFWCF in accordance with the Department of Defense (DoD), Financial Management Regula-
tion (FMR), the Ofﬁce of Management and Budget (OMB) Circular A-136, Financial Reporting Requirements, and to the
extent possible generally accepted accounting principles (GAAP). The accompanying ﬁnancial statements account for all
resources for which the AFWCF is responsible unless otherwise noted.

The AFWCF is unable to fully implement all elements of GAAP and the OMB Circular A-136, due to limitations of its
ﬁnancial and nonﬁnancial management processes and systems that feed into the ﬁnancial statements. The AFWCF derives
its reported values and information for major asset and liability categories largely from nonﬁnancial systems, such as inven-
tory and logistic systems. These systems were designed to support reporting requirements for maintaining accountability
over assets and reporting the status of federal appropriations rather than preparing ﬁnancial statements in accordance with
GAAP. The AFWCF continues to implement process and system improvements addressing these limitations.

The AFWCF currently has eight auditor identiﬁed ﬁnancial statement material weaknesses: (1) ﬁnancial and nonﬁnan-
cial feeder systems do not contain an adequate audit trail for the proprietary and budgetary accounts, (2) AFWCF may
have material amounts of account adjustments that are not adequately supported, (3) AFWCF cannot accurately identify
all intragovernmental transactions by customer, which is required for eliminations when preparing consolidated ﬁnancial
statements, (4) the value of the AFWCF government furnished and contractor acquired materiel and equipment may not be
accurately reported, (5) AFWCF General Property, Plant, and Equipment (PP&E) may not be accurately valued, (6) operat-
ing materials and supplies (OM&S) are not reﬂected at historical cost, (7) cost of goods sold and work in progress are not
recorded in accordance with the Statement of Federal Financial Accounting Standards (SFFAS) No. 3, “Accounting for
Inventory and Related Property”, and (8) supply management systems do not provide sufﬁcient audit trails to conﬁrm and
value the in transit inventory reported as part of inventory held for sale on the Consolidated Balance Sheet.

1.B. Mission of the Reporting Entity
The United States Air Force was created on September 18, 1947, by the “National Security Act of 1947.” The “National
Security Act Amendments of 1949” established the DoD and made the Air Force a department within DoD. The overall
mission of the United States Air is to ﬂy, ﬁght and win...in air, space and cyberspace. Our priorities are: (1) reinvigorate the
Air Force nuclear enterprise, (2) partner with Joint and Coalition team to win today’s ﬁght, (3) develop and care for Airmen
and their families (4) modernize our aging air and space inventories, and (5) achieve acquisition excellence.

The stock and industrial revolving fund accounts were created by the “National Security Act of 1947,” as amended in 1949
and codiﬁed in United States Code 10 Section 2208. The revolving funds were established as a means to more effectively
control the cost of work performed by DoD. The DoD began operating under the revolving fund concept July 1, 1951.

Since FY 2006, AFWCF operations consist of two major activity groups: Supply Management Activity Group (SMAG)
and Depot Maintenance Activity Group (DMAG). All AFWCF SMAG and DMAG activities establish rates based on full
cost recovery. If an operating loss or gain is incurred, the activity will make the appropriate adjustment in following year’s
prices to recoup the loss or return the gain to their customers.



106

                                                                                            Working Capital Fund
                                                                                             Notes to the Principal Statements




The SMAG manages and ﬁnances the majority of Air Force supply requirements. Exceptions include an item ﬁnanced with
a procurement appropriation or when ﬁnancing by other means has been deemed to be more economical and efﬁcient. A
stock fund operates as a revolving fund replenishing inventories with funds received from sales to customers.

There are four active business activities in SMAG: (1) Material Support Division (MSD), (2) General Support Division
(GSD), (3) Medical-Dental Division, and (4) Air Force Academy Division.

A brief description is provided below for the four active SMAG business activities.

      y	 MSD manages over 106 thousand depot level repair and unique consumable items to support Air Force weapon
         systems.
      y	 GSD manages over 1.5 million consumable supply items, which support ﬁeld and depot maintenance of aircraft,
         ground and airborne communication, and electronic systems.
      y	 Medical-Dental manages over 7 thousand different items, which are used to support medical and dental supply
         and equipment requirements.
      y	 Air Force Academy manages the procurement of uniforms and uniform accessories for sale to cadets.
The DMAG repairs weapon systems and spare parts that ensure readiness in peacetime and provide sustainment to combat
forces in wartime. In peacetime, the Air Force enhances readiness by efﬁciently and economically repairing, overhauling,
and modifying aircraft, engines, missiles, depot level reparables, and software to meet customer demands. Depots have
unique skills and equipment required to support and overhaul both new, complex components as well as aging weapon
systems. An extremely important facet of the depots is that during wartime or contingencies, the Air Force can surge repair
operations and realign capacity to support the war ﬁghters’ immediate needs. This is achieved by employing the unique
strengths of organic (in-house) and contracted (contract) repair resources.

1.C. Appropriations and Funds
The AFWCF receives its appropriations and funds as general and working capital (revolving) funds. The AFWCF uses
these appropriations and funds to execute its missions and subsequently report on resource usage.

Working Capital Funds (WCF) received funding to establish an initial corpus through an appropriation or a transfer of re-
sources from existing appropriations or funds. The corpus ﬁnances operations and transactions that ﬂow through the fund.
The WCF resources the goods and services sold to customers on a reimbursable basis and maintains the corpus. Reimburs-
able receipts fund future operations and generally are available in their entirety for use without further congressional action.
At various times, Congress provides additional appropriations to supplement WCF as an infusion of cash when revenues are
inadequate to cover costs within the corpus.

1.D. Basis of Accounting
For FY 2008, the AFWCF’s ﬁnancial management systems are unable to meet all of the requirements for full accrual ac-
counting. Many of the AFWCF’s ﬁnancial and nonﬁnancial feeder systems and processes were designed and implemented
prior to the issuance of GAAP for federal agencies. These systems were not designed to collect and record ﬁnancial infor-
mation on the full accrual accounting basis as required by GAAP. Most of the AFWCF’s (ﬁnancial and nonﬁnancial) legacy
systems were designed to record information on a budgetary basis.




                                                                                                                           107

             Working Capital Fund
             Notes to the Principal Statements




The DoD has undertaken efforts to determine the actions required to bring its ﬁnancial and nonﬁnancial feeder systems
and processes into compliance with GAAP. One such action is the current revision of its accounting systems to record
transactions based on the U.S. Standard General Ledger (USSGL). Until all of AFWCF’s ﬁnancial and nonﬁnancial feeder
systems and processes are updated to collect and report ﬁnancial information as required by GAAP, the AFWCF’s ﬁnancial
data will be derived from budgetary transactions (obligations, disbursements and collections), transactions from nonﬁ-
nancial feeder systems, and accruals made of major items such as payroll expenses, accounts payable, and environmental
liabilities.

1.E. Revenues and Other Financing Sources
Organic Depot Maintenance recognizes revenue according to the percentage-of-completion method. Contract Depot Main-
tenance recognizes revenue based on the number of units produced multiplied by the unit sales price which is recognized
upon completion of the repair. Due to the closure of Contract Depot Maintenance in FY 2008, it is not cost-effective to
implement system modiﬁcations to support the percentage-of-completion method. Supply Management recognizes revenue
based on ﬂying hours executed and the sale of inventory items.

1.F. Recognition of Expenses
For ﬁnancial reporting purposes, the DoD policy requires the recognition of operating expenses in the period incurred.
However, because the AFWCF’s ﬁnancial and nonﬁnancial feeder systems were not designed to collect and record ﬁnancial
information on the full accrual accounting basis, accruals are made for major items such as payroll expenses, accounts pay-
able, and unbilled revenue. In the case of OM&S, the consumption method is used.

1.G. Accounting for Intragovernmental Activities
Preparation of reliable ﬁnancial statements requires the elimination of transactions occurring among entities within DoD or
between two or more federal agencies. However, the AFWCF cannot accurately eliminate intragovernmental transactions
by customer because the AFWCF’s systems do not track at the transaction level. Generally, seller entities within the DoD
provide summary seller-side balances for revenue, accounts receivable, and unearned revenue to the buyer-side internal
DoD accounting ofﬁces. In most cases, the buyer-side records are adjusted to agree with DoD seller-side balances. Intra-
DoD intragovernmental balances are then eliminated. The volume of intragovernmental transactions is so large that after-
the-fact reconciliation cannot be accomplished effectively with existing or foreseeable resources. The DoD is developing
long-term system improvements to ensure accurate intragovernmental information, to include sufﬁcient upfront edits and
controls eliminating the need for after-the-fact reconciliations.

The U.S. Treasury Financial Management Service is responsible for eliminating transactions between DoD and other fed-
eral agencies. The Treasury Financial Manual Part 2 – Chapter 4700, “Agency Reporting Requirements for the Financial
Report of the United States Government,” and the U.S. Treasury’s “Federal Intragovernmental Transactions Accounting
Policy Guide” provide guidance for reporting and reconciling intragovernmental balances. While the AFWCF is unable to
fully reconcile intragovernmental transactions with all federal partners, the AFWCF is able to reconcile balances pertaining
to Federal Employees’ Compensation Act transactions with the Department of Labor and beneﬁt program transactions with
the Ofﬁce of Personnel Management.

The DoD’s proportionate share of public debt and related expenses of the Federal Government is not included. The Federal
Government does not apportion debt and its related costs to federal agencies. The DoD’s ﬁnancial statements, therefore,
do not report any portion of the public debt or interest thereon, nor do the statements report the source of public ﬁnancing
whether from issuance of debt or tax revenues.


108

                                                                                          Working Capital Fund
                                                                                           Notes to the Principal Statements




Financing for the construction of DoD facilities is obtained through appropriations. To the extent this ﬁnancing ultimately
may have been obtained through the issuance of public debt, interest costs have not been capitalized since the U.S. Treasury
does not allocate such interest costs to the beneﬁting agencies.

1.H. Transactions with Foreign Governments and International Organizations
Each year, the AFWCF sells defense articles and services to foreign governments and international organizations under the
provisions of the “Arms Export Control Act of 1976.” Under the provisions of the Act, DoD has authority to sell defense
articles and services to foreign countries and international organizations generally at no proﬁt or loss to the U.S. Govern-
ment. Payment in U.S. dollars is required in advance.

1.I. Funds with the U.S. Treasury
The AFWCF’s monetary resources are maintained in U.S. Treasury accounts. The disbursing ofﬁces of Defense Finance
and Accounting Service (DFAS), the Military Departments, the U.S. Army Corps of Engineers (USACE), and the Depart-
ment of State’s ﬁnancial service centers process the majority of AFWCF’s cash collections, disbursements, and adjustments
worldwide. Each disbursing station prepares monthly reports to the U.S. Treasury on check issues, electronic fund trans-
fers, interagency transfers, and deposits.

In addition, DFAS sites and the USACE Finance Center submit reports to the U.S. Treasury by appropriation on interagency
transfers, collections received, and disbursements issued. The U.S. Treasury records these transactions to the applicable
Fund Balance with Treasury (FBWT) account. The AFWCF’s recorded balance in the FBWT accounts and U.S. Treasury’s
FBWT accounts must balance monthly.

1.J. Foreign Currency
Not Applicable

1.K. Accounts Receivable
As presented in the Balance Sheet, accounts receivable includes three categories: accounts, claims, and refunds receiv-
able from other federal entities or from the public. Allowances for uncollectible accounts due from the public are based
upon analysis of collection experience by fund type. The DoD does not recognize an allowance for estimated uncollect-
ible amounts from other federal agencies. Claims against other federal agencies are to be resolved between the agencies in
accordance with dispute resolution procedures deﬁned in the Intragovernmental Business Rules published in the Treasury
Financial Manual.

1.L. Direct Loans and Loan Guarantees
Not Applicable

1.M. Inventories and Related Property
The AFWCF values approximately 99% of its resale inventory using the moving average cost method. The AFWCF reports
the remaining 1% of resale inventories at an approximation of historical cost using latest acquisition cost adjusted for
holding gains and losses. The latest acquisition cost method is used because legacy inventory systems were designed for
materiel management rather than accounting. Although these systems provide visibility and accountability over inventory
items, they do not maintain historical cost data necessary to comply with SFFAS No. 3, “Accounting for Inventory and


                                                                                                                         109

              Working Capital Fund
              Notes to the Principal Statements




Related Property.” Additionally, these systems cannot produce ﬁnancial transactions using the USSGL, as required by the
Federal Financial Management Improvement Act of 1996 (P.L. 104-208). By utilizing new systems development processes,
the AFWCF is continuing to transition the balance of the inventories to the moving average cost method. However, since
the on-hand balances which were transitioned were not, for the most part, baselined to auditable historical cost, the reported
values remain noncompliant with SFFAS No. 3 and GAAP.

The AFWCF manages only military or government speciﬁc materiel under normal conditions. Materiel is a unique term
that relates to military force management, and includes all items (including ships, tanks, self-propelled weapons, aircraft,
etc., and related spares, repair parts, and support equipment, but excluding real property, installations, and utilities) neces-
sary to equip, operate, maintain, and support military activities without distinction as to its application for administrative or
combat purposes. Items commonly used in and available from the commercial sector are not managed in AFWCF mate-
riel management activities. Operational cycles are irregular and military risks associated with stock-out positions have no
commercial parallel. The AFWCF holds materiel based on military need and support for contingencies. The DoD does not
attempt to account separately for “inventory held for sale” and “inventory held in reserve for future sale” based on SFFAS
No. 3 deﬁnitions, unless otherwise noted.

Related property includes OM&S which is valued at standard purchase price. The AFWCF uses the consumption method
of accounting for OM&S.

The AFWCF recognizes condemned materiel as “Excess, Obsolete, and Unserviceable.” The cost of disposal is greater than
the potential scrap value; therefore, the net value of condemned materiel is zero. Potentially redistributed materiel, pre-
sented in previous years as “Excess, Obsolete, and Unserviceable,” is included in the “Held for Use” or “Held for Repair”
categories according to its condition.

Inventory available and purchased for resale includes consumable spare and repair parts and repairable items owned and
managed by the AFWCF. This inventory is retained to support military or national contingencies. Inventory held for repair
is damaged inventory that requires repair to make suitable for sale. Often, it is more economical to repair these inventory
items rather than to procure these items. The AFWCF often relies on weapon systems and machinery that are no longer
in production. As a result, the AFWCF supports a process that encourages the repair and rebuilding of certain items. This
repair cycle is essential in maintaining a ready, mobile, and armed military force. Work in process balances include costs
related to the production or servicing of items, including direct material, direct labor, applied overhead, and other direct
costs. Work in process also includes the value of ﬁnished products or completed services that are yet to be placed in service
and transferred to an asset account. Work in process includes munitions in production and depot maintenance work with its
associated labor, applied overhead, and supplies used in the delivery of maintenance services.

1.N. Investments in U.S. Treasury Securities
Not Applicable

1.O. General Property, Plant and Equipment
The DoD’s General Property, Plant & Equipment (General PP&E) capitalization threshold is $100 thousand except for real
property which is $20 thousand. The AFWCF has not implemented the threshold for real property but expects to be fully
compliant by FY 2010. AWCF is currently using the capitalization threshold of $100 thousand for all General PP&E.

General PP&E assets are capitalized at historical acquisition cost when an asset has a useful life of two or more years, and
when the acquisition cost equals or exceeds the DoD capitalization threshold. The DoD also requires the capitalization of



110

                                                                                          Working Capital Fund
                                                                                           Notes to the Principal Statements




improvements to existing GPP&E assets if the improvements equal or exceed DoD capitalization threshold and extend the
useful life or increase the size, efﬁciency, or capacity of the asset. The DoD depreciates all GPP&E, other than land, on a
straight-line basis.

The WCF capitalizes all General PP&E used in the performance of their mission. These capitalized assets are categorized as
General PP&E, whether or not it meets the deﬁnition of any other General PP&E categories.

When it is in the best interest of the government, AFWCF provides government property to contractors to complete contract
work. The AFWCF either owns or leases such property, or it is purchased directly by the contractor for the government
based on contract terms. When the value of contractor-procured General PP&E exceeds the DoD capitalization threshold,
Federal accounting standards require that it be reported on the AFWCF’s Balance Sheet.

The DoD is developing new policies and a contractor reporting process for Government Furnished Equipment that will
provide appropriate General PP&E information for future ﬁnancial statement reporting purposes. Accordingly, AFWCF
reports only government property in the possession of contractors that is maintained in AFWCF’s property systems. The
DoD has issued new property accountability and reporting requirements that require AFWCF to maintain, in their property
systems, information on all property furnished to contractors. This action and other DoD proposed actions are structured to
capture and report the information necessary for compliance with federal accounting standards.

1.P. Advances and Prepayments
When advances are permitted by law, legislative action, or presidential authorization, the DoD’s policy is to record advanc-
es and prepayments in accordance with GAAP. As such, payments made in advance of the receipt of goods and services
should be reported as an asset on the Balance Sheet. The DoD’s policy is to expense and/or properly classify assets when
the related goods and services are received. The AFWCF has implemented this policy.

1.Q. Leases
Not Applicable

1.R. Other Assets
Other assets includes those assets, such as military and civil service employee pay advances, travel advances, and certain
contract ﬁnancing payments that are not reported elsewhere on AFWCF’s Balance Sheet.

The AFWCF conducts business with commercial contractors under two primary types of contracts: ﬁxed price and cost
reimbursable. To alleviate the potential ﬁnancial burden on the contractor that long-term contracts can cause, AFWCF may
provide ﬁnancing payments. Contract ﬁnancing payments are deﬁned in the Federal Acquisition Regulations, Part 32, as
authorized disbursements of monies to a contractor prior to acceptance of supplies or services by the Government. Con-
tract ﬁnancing payments clauses are incorporated in the contract terms and conditions and may include advance payments,
performance-based payments, commercial advance and interim payments, progress payments based on cost, and interim
payments under certain cost-reimbursement contracts.

Contract ﬁnancing payments do not include invoice payments, payments for partial deliveries, lease and rental payments, or
progress payments based on a percentage or stage of completion, which the Defense Federal Acquisition Regulation Sup-
plement authorizes only for construction of real property, shipbuilding, and ship conversion, alteration, or repair. Progress
payments for real property and ships are reported as Construction in Progress. It is DoD policy to record certain contract
ﬁnancing payments as Other Assets.


                                                                                                                         111

             Working Capital Fund
             Notes to the Principal Statements




1.S. Contingencies and Other Liabilities
The SFFAS No. 5, “Accounting for Liabilities of the Federal Government,” as amended by SFFAS No. 12, “Recognition of
Contingent Liabilities Arising from Litigation,” deﬁnes a contingency as an existing condition, situation or set of circum-
stances that involves an uncertainty as to possible gain or loss. The uncertainty will be resolved when one or more future
events occur or fail to occur. The AFWCF recognizes contingent liabilities when past events or exchange transactions oc-
cur, a future loss is probable, and the loss amount can be reasonably estimated.

Financial statement reporting is limited to disclosure when conditions for liability recognition do not exist but there is at
least a reasonable possibility of incurring a loss or additional losses. Examples of loss contingencies include the collect-
ibility of receivables, pending or threatened litigation, and possible claims and assessments. The AFWCF’s risk of loss and
resultant contingent liabilities arise from pending or threatened litigation or claims and assessments due to events such as
aircraft, ship and vehicle accidents; medical malpractice; property or environmental damages; and contract disputes.

1.T. Accrued Leave
The AFWCF reports as a liability civilian earned leave, except sick leave, that has been accrued and not used as of the
Balance Sheet date. Sick leave is expensed as taken. The liability reported at the end of the accounting period reﬂects the
current pay rates.

1.U. Net Position
Net Position consists of unexpended appropriations and cumulative results of operations.

Unexpended Appropriations represent the amounts of authority that are unobligated and have not been rescinded or with-
drawn. Unexpended appropriations also represent amounts obligated for which legal liabilities for payments have not been
incurred.

Cumulative Results of Operations represent the net difference, since inception of an activity, between expenses and losses
and ﬁnancing sources (including appropriations, revenue and gains). Beginning with FY 1998, the cumulative results also
include donations and transfers in and out of assets that were not reimbursed.

1.V. Treaties for Use of Foreign Bases
Not Applicable

1.W. Comparative Data
The AFWCF’s ﬁnancial statements and notes are presented on a comparative basis.

1.X. Unexpended Obligations
The AFWCF obligates funds to provide goods and services for outstanding orders not yet delivered. Unless the title has
passed, the ﬁnancial statements do not reﬂect liability for payment for goods and services not yet delivered. Unexpended
obligations includes both obligations for which goods and services have been delivered (title passed) and a liability recog-
nized, and obligations for which no delivery has occurred and no liability recognized. The balance of unexpended obliga-
tions appears immediately before net outlays in the Statement of Budgetary Resources, and is referred to as “Total, unpaid
obligated balances, net, end of period.”



112

                                                                                            Working Capital Fund
                                                                                             Notes to the Principal Statements




1.Y. Undistributed Disbursements and Collections
Undistributed disbursements and collections represent the difference between disbursements and collections matched at the
transaction level to a speciﬁc obligation, payable, or receivable in the activity ﬁeld records as opposed to those reported by
the U.S. Treasury. These amounts should agree with the undistributed amounts reported on the monthly accounting re-
ports. Intransit payments are those payments that have been made, but have not been recorded in the fund holder’s account-
ing records. These payments are applied to the entities’ outstanding accounts payable balance. Intransit collections are
those collections from other agencies or entities that have not been recorded in the accounting records. These collections
are also applied to the entities’ accounts receivable balance.

The DoD policy is to allocate supported undistributed disbursements and collections between federal and nonfederal
categories based on the percentage of distributed federal and nonfederal accounts payable and accounts receivable. Unsup-
ported undistributed disbursements are recorded in accounts payable. Unsupported undistributed collections are recorded in
other liabilities.

1.Z. Signiﬁcant Events
Not Applicable

Note 2. Nonentity Assets
 As of September 30                                                               2008                         2007
 (Amounts in thousands)

 1. Intragovernmental Assets
    A. Fund Balance with Treasury                                     $                          0    $                          0
    B. Accounts Receivable                                                                       0                               0
    C. Total Intragovernmental Assets                                 $                          0    $                          0
 2. Nonfederal Assets
    A. Cash and Other Monetary Assets                                 $                          0    $                          0
    B. Accounts Receivable                                                                       0                               0
    C. Other Assets                                                                              0                               0
    D. Total Nonfederal Assets                                        $                          0    $                          0
 3. Total Nonentity Assets                                            $                          0    $                          0
 4. Total Entity Assets                                                                  37,094,797                   37,664,797
 5. Total Assets                                                      $                  37,094,797   $               37,664,797


Asset accounts are categorized as either entity or nonentity. Entity accounts consist of resources that are available for use in
the operations of the entity. The AFWCF is authorized to decide how to use resources in entity accounts. The AFWCF may
be legally obligated to use these resources to meet entity obligations.

Nonentity assets are assets for which the AFWCF maintains stewardship accountability and responsibility to report, but are
not available for the AFWCF’s operations.

The AFWCF has no Nonentity Assets.




                                                                                                                            113

               Working Capital Fund
               Notes to the Principal Statements




Note 3. Fund Balance with Treasury

 As of September 30                                                       2008                            2007
 (Amounts in thousands)


 1. Fund Balances
   A. Appropriated Funds                                    $                              0    $                           0
   B. Revolving Funds                                                                959,598                      1,287,399
   C. Trust Funds                                                                          0                                0
   D. Special Funds                                                                        0                                0
   E. Other Fund Types                                                                     0                                0
   F. Total Fund Balances                                   $                        959,598    $                 1,287,399
 2. Fund Balances Per Treasury Versus Agency
   A. Fund Balance per Treasury                             $                      1,384,148    $                 1,705,484
   B. Fund Balance per AFWCF                                                         959,598                      1,287,399
 3. Reconciling Amount                                      $                        424,550    $                   418,085


The reconciling amount represents $424.6 million for the United States Transportation Command (USTC), which is report-
ed by the U.S. Treasury as part of the AFWCF. However, for the purposes of Audited Financial Statements (AFS), USTC is
included with the Other Defense Organizations reporting which is separate from the AFWCF. Therefore, USTC funds are
not included in the AFWCF AFS.


Status of Fund Balance with Treasury
 As of September 30                                                         2008                           2007
 (Amounts in thousands)
 1. Unobligated Balance
    A. Available                                                $                     343,595   $                 1,073,782
    B. Unavailable                                                                         0                                0
 2. Obligated Balance not yet Disbursed                                             7,946,888                     8,883,865
 3. Nonbudgetary FBWT                                                                      0                                0
 4. NonFBWT Budgetary Accounts                                                     -7,330,885                     -8,670,248
 5. Total                                                       $                     959,598   $                 1,287,399


The Status of Fund Balance with Treasury (FBWT) reﬂects the budgetary resources to support the FBWT.

Unobligated Balance represents the cumulative amount of budgetary authority that has not been set aside to cover outstand-
ing obligations. Unobligated Balance is classiﬁed as available or unavailable and is associated with appropriations expiring
at ﬁscal year end that remain available only for obligation adjustments until the account is closed.

Obligated balance not yet disbursed represents funds that have been obligated for goods that have not been received, ser-
vices that have not been performed, and goods and services that have been delivered/received but not yet paid.

Nonbudgetary FBWT includes entity and nonentity FBWT accounts which represent adjustments that do not have budget-
ary authority, such as unavailable receipt accounts or clearing accounts. AFWCF has no Nonbudgetary FBWT.


114

                                                                                                         Working Capital Fund
                                                                                                         Notes to the Principal Statements




NonFBWT Budgetary Accounts represent adjustments to budgetary accounts that do not affect FBWT such as contract au-
thority, accounts receivable, as well as the unﬁlled orders without advance from customers. This category reduces the Status
of FBWT.

Unobligated balances are segregated to show available and unavailable amounts in the note schedule. Certain unobligated
balances may be restricted to future use and are not apportioned for current use. There are no restrictions on the Unobli-
gated Balance.

Note 4. Investments and Related Interest
The AFWCF has no Investments and Related Interest.

Note 5. Accounts Receivable
                                                                                2008                                               2007

 As of September 30                                                          Allowance For
                                                                                                       Accounts                 Accounts
                                                  Gross Amount Due             Estimated
                                                                                                     Receivable, Net          Receivable, Net
                                                                             Uncollectibles
 (Amounts in thousands)


 1. Intragovernmental Receivables                 $            786,751                    N/A       $           786,751   $            330,378
 2. Nonfederal Receivables (From the Public)                   117,894   $                     0                117,894                117,808
 3. Total Accounts Receivable                     $            904,645   $                     0    $           904,645   $            448,186




Note 6. Other Assets

 As of September 30                                                          2008                                         2007
 (Amounts in thousands)


 1. Intragovernmental Other Assets
   A. Advances and Prepayments                             $                                       618    $                                1,248
   B. Other Assets                                                                                   0                                          0
   C. Total Intragovernmental Other Assets                 $                                       618    $                                1,248
 2. Nonfederal Other Assets
   A. Outstanding Contract Financing Payments              $                              148,718         $                            153,834
   B. Advances and Prepayments                                                                57,987                                      13,051
   C. Other Assets (With the Public)                                                      181,972                                      152,577
   D. Total Nonfederal Other Assets                        $                              388,677         $                            319,462
 3. Total Other Assets                                     $                              389,295         $                            320,710



Contract terms and conditions for certain types of contract ﬁnancing payments convey certain rights to the AFWCF that
protect the contract work from state or local taxation, liens or attachment by the contractor’s creditors, transfer of property,
or disposition in bankruptcy; however, these rights should not be misconstrued to mean that ownership of the contractor’s


                                                                                                                                            115
                Working Capital Fund
                Notes to the Principal Statements




work has transferred to the Government. The Government does not have the right to take the work, except as provided in
contract clauses related to termination or acceptance, and the AFWCF is not obligated to make payment to the contractor
until delivery and acceptance.

The Contract Financing Payments balance of $148.7 million is comprised of $126.7 million in contract ﬁnancing payments
and an additional $22.0 million in estimated future payments that will be paid to the contractor upon future delivery and
Government acceptance of a satisfactory product. (See additional discussion in Note 15, Other Liabilities).

The majority of the Nonfederal Other Assets – Other Assets (With the Public) balance is comprised of $182.0 million for
Supply Management Activity Group’s assets returned to vendors for which credit is pending.

Note 7. Cash and Other Monetary Assets
The AFWCF has no Cash and Other Monetary Assets.

Note 8. Direct Loan and Loan Guarantees
The AFWCF has no Direct Loan and/or Loan Guarantee Programs.

Note 9. Inventory and Related Property
 As of September 30                                                                2008                    2007
 (Amounts in thousands)


 1. Inventory, Net                                                         $           33,483,296   $          34,273,552
 2. Operating Materiels & Supplies, Net                                                   193,577                 243,880
 3. Stockpile Materiels, Net                                                                   0                          0
 4. Total                                                                  $           33,676,873   $          34,517,432




116

                                                                                                               Working Capital Fund
                                                                                                                   Notes to the Principal Statements




Inventory, Net

                                                                           2008                                             2007
 As of September 30                                Inventory,           Revaluation                                                           Valuation
                                                                                              Inventory, Net            Inventory, Net
                                                  Gross Value           Allowance                                                              Method
 (Amounts in thousands)


 1. Inventory, Categories
   A. Available and Purchased for Resale      $      23,066,474     $          -10,479    $        23,055,995       $       23,861,178        LAC,MAC
   B. Held for Repair                                14,439,808             -4,145,848             10,293,960               10,199,635        LAC,MAC
   C. Excess, Obsolete, and Unserviceable              472,249               -472,249                          0                         0      NRV
   D. Raw Materials                                             0                     0                        0                         0   MAC,SP,LAC
   E. Work in Process                                  133,341                        0               133,341                  212,739           AC
   F. Total                                   $      38,111,872     $       -4,628,576    $        33,483,296       $       34,273,552


 Legend for Valuation Methods:
 Adjusted LAC = Latest Acquisition Cost, adjusted for holding gains and losses                  NRV = Net Realizable Value

 SP = Standard Price                                                                            O = Other

 AC = Actual Cost                                                                               MAC = Moving Average Cost


General Composition of Inventory
Inventory includes weapon system consumable and reparable parts, base supply items, and medical-dental supplies. Inven-
tory is tangible personal property that is held for sale or held for repair for eventual sale, in the process of production for
sale, or to be consumed in the production of goods for sale or in the provision of services for a fee.

Restrictions
There are no restrictions on the use, sale, or disposition of inventory except for War Reserve Materiel and nuclear related
spare parts.

Deﬁnitions
Inventory Available and Purchased for Resale includes consumable and reparable parts owned and managed by AFWCF.

Inventory Held for Repair is damaged inventory that requires repair to make it suitable for sale. Many of the inventory
items are more economical to repair than to procure. In addition, because AFWCF often relies on weapon systems and ma-
chinery no longer in production, AFWCF supports a process that encourages the repair and rebuilding of certain items. This
repair cycle is essential to maintaining a ready, mobile, and armed military force.

Excess, Obsolete, and Unserviceable inventory consists of obsolete, excess to requirements, or items that cannot be eco-
nomically repaired and are awaiting disposal.

Work in Process balances include costs related to the production or servicing of items, including direct material, direct
labor, applied overhead, and other direct costs. Work in Process also includes the value of ﬁnished products or completed
services pending the submission of bills to the customer.



                                                                                                                                                      117

                Working Capital Fund
                Notes to the Principal Statements




Operating Materiel and Supplies, Net

                                                                                 2008                                 2007

 As of September 30                                          OM&S            Revaluation                                             Valuation
                                                                                                OM&S, Net           OM&S, Net
                                                           Gross Value       Allowance                                                Method

 (Amounts in thousands)


 1. OM&S Categories
    A. Held for Use                                    $          193,577    $          0   $       193,577     $       243,880     SP, LAC, MAC
    B. Held for Repair                                                   0              0                   0                   0   SP, LAC, MAC
    C. Excess, Obsolete, and Unserviceable                               0              0                   0                   0       NRV
    D. Total                                           $          193,577    $          0   $       193,577     $       243,880


 Legend for Valuation Methods:
 Adjusted LAC = Latest Acquisition Cost, adjusted for holding gains and losses                   NRV = Net Realizable Value

 SP = Standard Price                                                                             O = Other

 AC = Actual Cost                                                                                MAC = Moving Average Cost


General Composition of Operating Materiels and Supplies
Operating Materiel and Supplies (OM&S) includes consumable parts and supplies used to remanufacture spare parts and
repair weapons systems.

Restrictions
There are no restrictions on the use, sale, or disposition of OM&S.

Deﬁnition
Held for Use includes consumable parts and supplies.

Stockpile Materiels, Net
The AFWCF has no Stockpile Materiels.




118

                                                                                                           Working Capital Fund
                                                                                                            Notes to the Principal Statements




Note 10. General PP&E, Net
                                                                               2008                                                      2007

 As of September 30                  Depreciation/                                         (Accumulated
                                                     Service         Acquisition                                                      Prior FY Net
                                     Amortization                                          Depreciation/         Net Book Value
                                                      Life             Value                                                          Book Value
                                       Method                                              Amortization)
 (Amounts in thousands)


 1. Major Asset Classes
    A. Land                              N/A           N/A       $                 0                       N/A   $           0 $                     0
    B. Buildings, Structures, and        S/L         20 or 40             932,320      $            -673,436           258,884             254,668
       Facilities
    C. Leasehold Improvements            S/L          lease                        0                        0                0                       0
                                                       term
    D. Software                          S/L         2-5 or 10          1,097,939                   -831,623           266,316             288,623
    E. General Equipment                 S/L          5 or 10           2,157,924                 -1,573,174           584,750             496,554
    F. Military Equipment                S/L         Various                       0                        0                0                       0
    G. Assets Under Capital              S/L          lease                        0                         0               0                       0
       Lease                                           term
    H. Construction-in- Progress         N/A           N/A                 54,436                          N/A           54,436             51,225
    I. Other                                                                       0                         0               0                       0
    J. Total General PP&E                                        $      4,242,619      $          -3,078,233     $    1,164,386   $       1,091,070


 See Note 15 for additional information on Capital Leases
 Legend for Valuation Methods:
 S/L = Straight   N/A = Not Applicable
AFWCF does not have any restrictions on the use or convertibility of General PP&E.

Assets Under Capital Lease
The AFWCF has no Assets Under Capital Lease.




                                                                                                                                                119

                 Working Capital Fund
                 Notes to the Principal Statements




Note 11. Liabilities Not Covered by Budgetary Resources

 As of September 30                                                                       2008                   2007
 (Amounts in thousands)


 1. Intragovernmental Liabilities
    A. Accounts Payable                                                          $                      0    $               0
    B. Debt                                                                                             0                    0
    C. Other                                                                                            0                    0
    D. Total Intragovernmental Liabilities                                       $                      0    $               0
 2. Nonfederal Liabilities
    A. Accounts Payable                                                          $                      0    $               0
    B. Military Retirement and Other Federal Employment Beneﬁts                                   217,337               228,900
    C. Environmental Liabilities                                                                        0                    0
    D. Other Liabilities                                                                           28,376                28,376
    E. Total Nonfederal Liabilities                                              $                245,713    $          257,276
 3. Total Liabilities Not Covered by Budgetary Resources                         $                245,713    $          257,276
 4. Total Liabilities Covered by Budgetary Resources                                             1,594,591          1,886,092
 5. Total Liabilities                                                            $               1,840,304   $      2,143,368



Liabilities not covered by budgetary resources are liabilities for which Congressional action is needed before budgetary
resources can be provided.

Military Retirement and Other Federal Employment Beneﬁts not covered by budgetary resources are comprised of various
employee actuarial liabilities not due and payable during the current ﬁscal year. These liabilities are primarily comprised
of $217.3 million for Federal Employee’s Compensation Act. Refer to Note 17, Military Retirement and Other Federal
Employment Beneﬁts, for additional details and disclosures.

Nonfederal Other Liabilities includes $28.4 million in foreign government deposits. These deposits represent foreign
governments buy in to a Cooperative Logistics Supply Support Agreement (CLSSA). Foreign governments provide funds to
buy their respective share of inventory that is owned and managed by the Air Force. This liability is established to offset an
asset that belongs to another entity (foreign government). If the CLSSA is closed, they receive either a cash reimbursement
or spare parts if approved by State Department. Historically foreign governments always request cash reimbursement versus
spare parts. As a result deposits are classiﬁed as liabilities not covered by budgetary resources.




120

                                                                                               Working Capital Fund
                                                                                               Notes to the Principal Statements




Note 12. Accounts Payable

                                                                          2008                                       2007
                                                                  Interest, Penalties,
As of September 30
                                           Accounts Payable     and Administrative              Total                Total
                                                                         Fees
(Amounts in thousands)


1. Intragovernmental Payables             $            94,776                      N/A $                 94,776 $         117,965
2. Nonfederal Payables (to the Public)                817,558                            0              817,558           946,756
3. Total                                  $           912,334 $                          0 $            912,334 $       1,064,721


The AFWCF’s systems do not track intragovernmental transactions by customer at the transaction level. Therefore, internal
DoD buyer-side balances are adjusted to agree with internal seller-side balances for revenue, accounts receivable, and un-
earned revenue. Accounts payable are adjusted by reclassifying amounts between federal and nonfederal accounts payable.


In FY 2007, the Department recognized accounts payable balances of the Mechanization of Contract Administration Ser-
vices (MOCAS) system at gross value without reduction for partial, progress payments, and non-accounts payable records
overstating accounts payable and expenses. The overstated balances for FY 2007 were undeterminable due to system
limitations; therefore no corrections have been made. Balances at FY 2008 are properly reported net of non-account payable
records, partial and progress payments of $14.7 million.


Note 13. Debt
The AFWCF has no Debt.

Note 14. Environmental Liabilities and Disposal Liabilities
The AFWCF has no Environmental Liabilities and Disposal Liabilities.




                                                                                                                             121

                Working Capital Fund
                Notes to the Principal Statements




Note 15. Other Liabilities 

                                                                                    2008                                    2007
As of September 30                                                                Noncurrent
                                                          Current Liability                             Total               Total
                                                                                   Liability
(Amounts in thousands)


1. Intragovernmental
   A. Advances from Others                                $          74,062   $                0    $       74,062      $      124,243
   B. Deposit Funds and Suspense Account Liabilities                      0                    0                   0                   0
   C. Disbursing Ofﬁcer Cash                                              0                    0                   0                   0
   D. Judgment Fund Liabilities                                           0                    0                   0                   0
   E. FECA Reimbursement to the Department of Labor                       0                    0                   0                   0
   F. Custodial Liabilities                                               0                    0                   0                   0
   G.Employer Contribution and Payroll Taxes Payable                 12,240                    0            12,240              10,793
   H. Other Liabilities                                                   0                    0                   0                   0
   I. Total Intragovernmental Other Liabilities           $          86,302   $                0    $       86,302      $      135,036
2. Nonfederal
   A. Accrued Funded Payroll and Beneﬁts                  $        151,662    $                0    $      151,662      $      141,206
   B. Advances from Others                                           24,926                    0            24,926              26,115
   C. Deferred Credits                                                    0                    0                   0                   0
   D. Deposit Funds and Suspense Accounts                                 0                    0                   0                 806
   E. Temporary Early Retirement Authority                                0                    0                   0                   0
   F. Nonenvironmental Disposal Liabilities                               0                    0                   0                   0
       1. Military Equipment (Nonnuclear)                                 0                    0                   0                   0
       2. Excess/Obsolete Structures                                      0                    0                   0                   0
       3. Conventional Munitions Disposal                                 0                    0                   0                   0
   G. Accrued Unfunded Annual Leave                                       0                    0                   0                   0
   H. Capital Lease Liability                                             0                    0                   0                   0
    I. Contract Holdbacks                                             1,990                    0                1,990               1,326
   J. Employer Contribution and Payroll Taxes Payable                     0                    0                   0                5,635
   K. Contingent Liabilities                                              0                21,955           21,955              22,500
   L. Other Liabilities
                                           423,798                     0           423,798             517,929
   M.Total Nonfederal Other Liabilities
                  $        602,376 $               21,955   $      624,331      $      714,711
3. Total Other Liabilities                                $        688,678 $               21,955   $      710,633      $      849,747




The majority of the Nonfederal Other Liabilities balance is comprised of $378.3 million for Contract Depot Maintenance
Activity Group’s accrued material and labor liabilities.

Contingent liabilities balance includes $22.0 million in estimated future contract ﬁnancing payments that will be paid to the
contractor upon delivery and Government acceptance. In accordance with contract terms, speciﬁc rights to the contractor’s
work vests with the Government when a speciﬁc type of contract ﬁnancing payment is made. This action protects taxpayer
funds in the event of contract nonperformance. These rights should not be misconstrued as the rights of ownership. The


122

                                                                                                    Working Capital Fund
                                                                                                     Notes to the Principal Statements




AFWCF is under no obligation to pay the contractor for amounts greater than the amounts authorized in the contract until
delivery and Government acceptance. Because it is probable that the contractor will complete its efforts and deliver a
satisfactory product to the AFWCF and the amount of potential future payments is estimable; the AFWCF has recognized a
contingent liability for estimated future payments, which are conditional pending delivery and Government acceptance.

Capital Lease Liability
The AFWCF has no Capital Lease Liability.

Note 16. Commitments and Contingencies
The AFWCF is a party in various administrative proceedings and legal actions, with claims including environmental dam-
age claims, equal opportunity matters, and contractual bid protests. The AFWCF’s Ofﬁce of the General Counsel considers
the possibility of the AFWCF sustaining any losses on these legal actions to be remote.

The AFWCF is a party in numerous individual contracts that contain clauses, such as price escalation, award fee payments,
or dispute resolution, that may or may not result in a future outﬂow of expenditures. Currently, AFWCF does not have a
process by which it captures or assesses these potential contingent liabilities; therefore no associated liabilities are
recognized or disclosed.

Note 17. Military Retirement and Other Federal Employment Beneﬁts
                                                                              2008                                                    2007

 As of September 30                                                                       Less: Assets
                                                                         Assumed Inter­                       Unfunded
                                                       Liabilities                         Available to                             Liabilities
                                                                          est Rate (%)                        Liabilities
                                                                                          Pay Beneﬁts)
(Amounts in thousands)


1. Pension and Health Actuarial Beneﬁts
   A. Military Retirement Pensions                 $                 0                    $               0   $             0   $                 0
   B. Military Retirement Health Beneﬁts                             0                                    0                 0                     0
   C. Military Medicare-Eligible Retiree Beneﬁts                     0                                    0                 0                     0
   D. Total Pension and Health Actuarial Beneﬁts   $                 0                    $               0   $             0   $                 0
2. Other Actuarial Beneﬁts
   A. FECA                                                 217,337                        $               0       217,337                 228,900
   B. Voluntary Separation Incentive Programs                        0                                    0                 0                     0

   C. DoD Education Beneﬁts Fund                                     0                                    0                 0                     0
   D. Total Other Actuarial Beneﬁts                $       217,337                        $                   $   217,337       $         228,900
3. Other Federal Employment Beneﬁts                                  0                                    0                 0                     0
4. Total Military Retirement and Other Federal
   Employment Beneﬁts                              $       217,337                        $               0   $   217,337       $         228,900




                                                                                                                                             123

              Working Capital Fund
              Notes to the Principal Statements




Federal Employees Compensation Act (FECA)
The AFWCF actuarial liability for workers’ compensation beneﬁts is developed by the Department of Labor and is updated
at the end of each ﬁscal year. The liability includes the estimated liability for death, disability, medical, and miscellaneous
costs for approved compensation cases, plus a component for incurred but not reported claims. The liability is determined
using a method that utilizes historical beneﬁt payment patterns related to a speciﬁc incurred period to predict the ultimate
payments. The projected annual beneﬁt payments are discounted to present value using the Ofﬁce of Management and
Budget’s (OMB’s) economic assumptions for 10-year Treasury notes and bonds. Cost of living adjustments (COLAs) and
consumer price index medical (CPIM) factors are applied to the calculation of projected future beneﬁts.
The liability for future workers’ compensation (FWC) beneﬁts includes the expected liability for death, disability, medi-
cal, and miscellaneous costs for approved compensation cases, plus a component for incurred but not reported claims. The
liability is determined using a method that utilizes historical beneﬁt payment patterns related to a speciﬁc incurred period
to predict the ultimate payments related to that period. Consistent with past practice, these projected annual beneﬁts pay-
ments have been discounted to present value using the OMB’s economic assumptions for 10-year Treasury notes and bonds.
Interest rate assumptions utilized for discounting were as follows:
                                                             2008
                                                       4.368% in Year 1
                                                      4.770% in Year 2,
                                                        and thereafter

To provide more speciﬁcally for the effects of inﬂation on the liability for future workers’ compensation beneﬁts, wage
inﬂation factors (COLAs) and medical inﬂation factors (CPIMs) were applied to the calculation of projected future beneﬁts.
The actual rates for these factors for the charge back year (CBY) 2008 are used to adjust the methodology’s historical pay-
ments to current year constant dollars.
The compensation COLAs and CPIMs used in the projections for various CBY were as follows:
                                             CBY                     COLA             CPIM
                                             2008                    3.03%            4.71%
                                             2009                     3.87%           4.01%
                                             2010                     2.73%           3.86%
                                             2011                     2.20%           3.87%
                                             2012                     2.23%           3.93%
                                             2013+                    2.30%           3.93%

The model’s resulting projections were analyzed to insure that the estimates were reliable. The analysis was based on four
tests: (1) a sensitivity analysis of the model to economic assumptions, (2) a comparison of the percentage change in the li-
ability amount by agency to the percentage change in the actual incremental payments, (3) a comparison of the incremental
paid losses per case (a measure of case-severity) in CBY 2008 to the average pattern observed during the most current three
charge back years, and (4) a comparison of the estimated liability per case in the 2008 projection to the average pattern for
the projections of the most recent three years.




124

                                                                                                        Working Capital Fund
                                                                                                        Notes to the Principal Statements


Note 18. General Disclosures Related to the Statement of Net Cost
Intragovernmental Costs and Exchange Revenue
 As of September 30                                                              2008                                   2007
 (Amounts in thousands)
 1. Intragovernmental Costs                                        $                        4,292,130    $                       3,956,343
 2. Public Costs                                                                            6,202,052                            6,778,788
 3. Total costs                                                    $                      10,494,182     $                      10,735,131
 4. Intragovernmental Earned Revenue                               $                      -10,176,218    $                       -9,697,266
 5. Public Earned Revenue                                                                    -608,692                             -734,496
 6. Total Earned Revenue                                           $                      -10,784,910    $                      -10,431,762
 7. Net Cost of Operations                                         $                         -290,728    $                            303,369

Intragovernmental costs and revenue are related to transactions made between two reporting entities within the Federal Government.

Public costs and revenues are exchange transactions made between the reporting entity and a nonfederal entity.

The AFWCF’s systems do not track intergovernmental transactions by customer at the transaction level. Therefore, internal DoD
buyer-side balances are adjusted to agree with internal seller-side balances for revenue. Expenses are adjusted by reclassifying amounts
between federal and nonfederal expenses.

The Statement of Net Cost (SNC) represents the net cost of programs and organizations of the Federal Government supported by ap-
propriations or other means. The intent of SNC is to provide gross and net cost information related to the amount of output or outcome
for a given program or organization administered by a responsible reporting entity. The Department’s current processes and systems
do not capture and report accumulated costs for major programs based upon the performance measures as required by the Government
Performance and Results Act. The Department is in the process of reviewing available data and developing a cost reporting methodol-
ogy as required by the Statement of Federal Financial Accounting Standards (SFFAS) No. 4, “Managerial Cost Accounting Concepts and
Standards for Federal Government.”

The AFWCF records transactions on an accrual basis. The AFWCF may not have all the actual costs and revenues input into the system
in time for reporting. Accrual estimates based upon budget information, historical data, and current data not yet input are made as re-
quired by generally accepted accounting principles. These estimates reverse as actual costs or revenues are recorded.

Note 19. Disclosures Related to the Statement of Changes in Net Position
Statement of Changes in Net Position, Other Financing Sources, Other line is comprised of a $632.1 million write-off of
in-transit inventory.

Note 20. Disclosures Related to the Statement of Budgetary Resources
As of September 30                                                                                       2008                  2007
(Amounts in thousands)

1. Net Amount of Budgetary Resources Obligated for Undelivered Orders at the End of the Period   $           6,596,132 $         7,196,353
2. Available Borrowing and Contract Authority at the End of the Period                                              0                      0

All of AFWCF obligations are reimbursable obligations in apportionment category B.


The Statement of Budgetary Resources (SBR) includes intraentity transactions because the statements are presented as combined.




                                                                                                                                         125
                  Working Capital Fund
                  Notes to the Principal Statements




Note 21. Reconciliation of Net Cost of Operations to Budget

As of September 30                                                                                             2008            2007
(Amounts in thousands)


Resources Used to Finance Activities:
Budgetary Resources Obligated:
1. Obligations incurred                                                                                    $    10,968,071 $    14,102,303
2. Less: Spending authority from offsetting collections and recoveries (-)                                     -11,765,169     -13,946,800
3. Obligations net of offsetting collections and recoveries                                                $      -797,098 $       155,503
4. Less: Offsetting receipts (-)                                                                                         0               0
5. Net obligations                                                                                         $      -797,098 $       155,503
Other Resources:
6. Donations and forfeitures of property                                                                                 0              0
7. Transfers in/out without reimbursement (+/-)                                                                    -47,477          2,192
8. Imputed ﬁnancing from costs absorbed by others                                                                  144,150        168,610
9. Other (+/-)                                                                                                    -632,100              0
10. Net other resources used to ﬁnance activities                                                          $      -535,427 $       70,802
11. Total resources used to ﬁnance activities                                                              $    -1,332,525 $      326,305
Resources Used to Finance Items not Part of the Net Cost of Operations:
12. Change in budgetary resources obligated for goods, services and beneﬁts ordered but not yet
    provided:
    A. Undelivered Orders (-)                                                                              $       600,220 $       -44,589
    B. Unﬁlled Customer Orders                                                                                    -319,145         190,395
13. Resources that fund expenses recognized in prior Periods (-)                                                   -11,609               0
14. Budgetary offsetting collections and receipts that do not affect Net Cost of Operations                              0               0
15. Resources that ﬁnance the acquisition of assets (-)                                                         -4,945,969      -5,376,572
16. Other resources or adjustments to net obligated resources that do not affect Net Cost of Options:
    A. Less: Trust or Special Fund Receipts Related to exchange in the Entity’s Budget (-)                               0               0
    B. Other (+/-)                                                                                                 679,577          -2,192
17. Total resources used to ﬁnance items not part of the Net Cost of Operations                            $    -3,996,926 $    -5,232,958
18. Total resources used to ﬁnance the Net Cost of Operations                                              $    -5,329,451 $    -4,906,653
Components of the Net Cost of Operations that will not Require or Generate Resources in the
Current Period:
Components Requiring or Generating Resources in Future Period:
19. Increase in annual leave liability                                                                     $            0 $             0
20. Increase in environmental and disposal liability                                                                    0               0
21. Upward/Downward reestimates of credit subsidy expense (+/-)                                                         0               0
22. Increase in exchange revenue receivable from the public (-)                                                         0               6
23. Other (+/-)                                                                                                        46          30,241
24. Total components of Net Cost of Operations that will Require or Generate Resources in future periods   $           46 $        30,241
Components not Requiring or Generating Resources:
25. Depreciation and amortization                                                                                 132,208         142,937
26. Revaluation of assets or liabilities (+/-)                                                                    844,543       1,893,247
27. Other (+/-)
    A. Trust Fund Exchange Revenue                                                                                       0               0
    B. Cost of Goods Sold                                                                                        5,888,617       5,331,747
    C. Operating Material and Supplies Used                                                                              0               0
    D. Other                                                                                                    -1,826,691      -2,188,150
28. Total Components of Net Cost of Operations that will not Require or Generate Resources                 $     5,038,677 $     5,179,781
29. Total Components of Net Cost of Operations that will not Require or Generate Resources
    in the current period                                                                                  $    5,038,723 $     5,210,022
30. Net Cost of Operations                                                                                 $     -290,728 $       303,369


126

                                                                                           Working Capital Fund
                                                                                           Notes to the Principal Statements




Due to the AFWCF’s ﬁnancial system limitations, budgetary data is not in agreement with proprietary expenses and assets 

capitalized. The difference between budgetary and proprietary data is a previously identiﬁed deﬁciency. 


Resources That Finance the Acquisition of Assets is adjusted in order to align the note schedule with the amount reported 

on the Statement of Net Cost. This adjustment is $256.2 million (absolute value).


The following schedule lines are presented as combined instead of consolidated due to intraagency budgetary transactions 

not being eliminated:


      y Obligations Incurred
      y Less: Spending Authority from Offsetting Collections and Recoveries
      y Obligations Net of Offsetting Collections and Recoveries
      y Less: Offsetting Receipts
      y Net Obligations
      y Undelivered Orders
      y Unﬁlled Customer Orders
Resources Used to Finance Activities, Other line is comprised of a $632.1 million write-off of in-transit inventory.

The majority of Other resources or adjustments to net obligated resources that do not affect Net Cost of Operations is com-
prised of a $632.1 million write-off of in-transit inventory.

Components Requiring or Generating Resources in Future Periods, Other line is comprised of $46.2 thousand in Federal 

Employees Compensation Act (FECA). 


The majority of Other Components not Requiring or Generating Resources is comprised of ($5.1) billion of DMAG com-
pleted production projects and of $3.3 billion Supply Material Activity Group material to replace condemned and consum-
able parts required for depot production.


Note 22. Disclosures Related to Incidental Custodial Collections
The AFWCF has no Disclosures Related to Incidental Custodial Collections.

Note 23. Earmarked Funds
The AFWCF has no Earmarked Funds.

Note 24. Other Disclosures
The AFWCF has no Other Disclosures.

Note 25. Restatements
The AFWCF has no Restatements of prior period adjustments for material errors.




                                                                                                                         127

Working Capital Fund
Fiscal Year 2008

Required Supplementary Information





                                      129

                Working Capital Fund
                Required Supplementary Information




Statement of Disaggregated Budgetary Resources - Working Capital Fund

As of September 30, 2008 and 2007 ($ in thousands)
                                                                                          Working              2008               2007
                                                                                        Capital Fund         Combined           Combined

BUDGETARY FINANCING ACCOUNTS
BUDGETARY RESOURCES:
1. Unobligated balance, brought forward, October 1                                  $       1,073,782    $      1,073,782   $       925,137
2. Recoveries of prior year unpaid obligations                                                      0                   0            23,358
3. Budget authority
   A. Appropriation                                                                            66,458              66,458             44,054
   B. Borrowing authority                                                                           0                   0                  0
   C. Contract authority                                                                    6,633,730           6,633,730          9,804,575
   D. Spending authority from offsetting collections
      1. Earned
         a. Collected                                                                      11,677,264          11,677,265         14,106,630
         b. Change in receivables from Federal sources                                        407,049             407,049           -373,583
      2. Change in unﬁlled customer orders
         a. Advance received                                                                  -77,781             -77,781            -40,165
         b. Without advance from Federal sources                                             -241,364            -241,364            230,560
      3. Anticipated for rest of year, without advances                                             0                   0                  0
      4. Previously unavailable                                                                     0                   0                  0
      5. Expenditure transfers from trust funds                                                     0                   0                  0
   E. Subtotal                                                                      $      18,465,356    $     18,465,357   $     23,772,071
4. Nonexpenditure transfers, net, anticipated and actual                                      -88,000             -88,000           -382,000
5. Temporarily not available pursuant to Public Law                                                 0                   0                  0
6. Permanently not available                                                               -8,139,473          -8,139,473         -9,162,481
7. Total Budgetary Resources                                                        $      11,311,665    $     11,311,666   $     15,176,085
STATUS OF BUDGETARY RESOURCES:
8. Obligations incurred
   A. Direct                                                                        $               0    $              0   $              0
   B. Reimbursable                                                                         10,968,070          10,968,071         14,102,303
   C. Subtotal                                                                      $      10,968,070    $     10,968,071   $     14,102,303
9. Unobligated balance
   A. Apportioned                                                                             343,595             343,595          1,073,782
   B. Exempt from apportionment                                                                     0                   0                  0
   C. Subtotal                                                                      $         343,595    $        343,595   $      1,073,782
10. Unobligated balance not available                                                               0                   0                  0
11. Total status of budgetary resources                                             $      11,311,665    $     11,311,666   $     15,176,085
CHANGE IN OBLIGATED BALANCE:
12. Obligated balance, net
    A. Unpaid obligations, brought forward, October 1                               $        8,883,865   $      8,883,865   $      8,603,843
    B. Less: Uncollected customer payments from Federal sources,                            -3,844,887         -3,844,887         -3,987,910
       brought forward, October 1
    C. Total unpaid obligated balance                                               $        5,038,978   $      5,038,978   $      4,615,933
13. Obligations incurred net (+/-)                                                  $       10,968,070   $     10,968,071   $     14,102,303
14. Less: Gross outlays                                                                    -11,905,048        -11,905,048        -13,798,923
15. Obligated balance transferred, net
    A. Actual transfers, unpaid obligations (+/-)                                                   0                   0                 0
    B. Actual transfers, uncollected customer payments from Federal sources (+/-)                   0                   0                 0
    C. Total Unpaid obligated balance transferred, net                              $               0    $              0   $             0
16. Less: Recoveries of prior year unpaid oblligations, actual                      $               0    $              0   $       -23,358
17. Change in uncollected customer payments from Federal sources (+/-)                       -165,685            -165,685           143,023
18. Obligated balance, net, end of period
    A. Unpaid obligations                                                                   7,946,887           7,946,888          8,883,865
    B. Less: Uncollected customer payments (+/-) from Federal sources                      -4,010,572          -4,010,572         -3,844,887
    C. Total, unpaid obligated balance, net, end of period                                  3,936,315           3,936,316          5,038,978
NET OUTLAYS:
19. Net Outlays
    A. Gross outlays                                                                $      11,905,048    $     11,905,048   $     13,798,923
    B. Less: Offsetting collections                                                       -11,599,484         -11,599,484        -14,066,465
    C. Less: Distributed Offsetting receipts                                                        0                   0                  0
    D. Net Outlays                                                                  $         305,564    $        305,564   $       -267,542


130

Working Capital Fund 

Fiscal Year 2008

Audit Opinion





                         131

       Working Capital Fund
       Audit Opinion




132

Working Capital Fund
           Audit Opinion




                     133
      Working Capital Fund
      Audit Opinion




134
Working Capital Fund
           Audit Opinion




                     135
      Working Capital Fund
      Audit Opinion




136
Working Capital Fund
           Audit Opinion




                     137
      Working Capital Fund
      Audit Opinion




138
